<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:19 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Leahy, Johnson, Tester, 
Udall, Merkley, Begich, Murkowski, Cochran, Alexander, Blunt, 
Hoeven, and Johanns.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. SALLY JEWELL, SECRETARY
ACCOMPANIED BY:
        HON. MIKE CONNOR, DEPUTY SECRETARY
        HON. RHEA SUH, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND 
            BUDGET
        PAMELA K. HAZE, DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, 
            PERFORMANCE AND ACQUISITION

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. We will 
follow the early bird rule in recognizing my colleagues who are 
here, and we will have 6-minute rounds. And I want to welcome 
the Secretary and her colleagues.
    This is our first budget hearing of the year. It is a 
hearing to discuss the fiscal year 2015 budget of the 
Department of the Interior. I am very pleased to welcome 
Secretary Sally Jewell before the subcommittee this morning.
    Madam Secretary, we have a lot of ground to cover with your 
budget request, and we are looking forward to hearing you 
articulate your priorities for the Department.
    I would also like to recognize the Department's new Deputy 
Secretary, Mike Connor, who was unanimously confirmed by the 
Senate on February 27. Mr. Connor is a former commissioner of 
the Bureau of Reclamation. He is also an alumnus of the Senate 
Committee on Energy and Natural Resources. This is his first 
time testifying before the Interior subcommittee of the United 
States Senate in his new role.
    And welcome, Mr. Connor.
    Finally, I would like to recognize Ms. Rhea Suh, Assistant 
Secretary for Policy, Management and Budget; and Ms. Pam Haze, 
her deputy.
    We are happy to have you here before us, and we value the 
day-to-day work that we do with you and your terrific budget 
staff very much.
    Turning to the Department's budget request, the 
discretionary total funded by the subcommittee increases by 
about 1 percent over fiscal year 2014, for a total of $10.6 
billion. It is a relatively flat budget.
    Including the administration's new disaster cap proposal 
for firefighting, however, the total budget increases by almost 
4 percent for a total of $10.8 billion.
    I am hopeful that providing a new framework for 
firefighting funding will prevent the Department from running 
out of funds before the end of the fiscal year and having to 
borrow from other programs. I am also hopeful that it will 
prevent the subcommittee from being forced to make difficult 
cuts to other priorities to pay for emergency firefighting.
    It is worth noting that in fiscal year 2014, we provided 
$3.9 billion for firefighting, including $600 million to pay 
for fire expenses from the prior year. We acted similarly in 
the fiscal year 2013 continuing resolution, where we provided 
more than $400 million for the fire expenses from the previous 
year.
    Congress was forced to pay for these additional costs with 
our regular discretionary appropriations because we did not 
have access to disaster funding. This means that, in the last 2 
years, we have had to reallocate resources from other 
discretionary programs to pay for emergency firefighting 
activities.
    Paying for firefighting has meant less for water and sewer 
projects, Land and Water Conservation Fund programs, resource 
conservation, improvements to energy permitting, and all the 
other activities we fund through this bill.
    I am very pleased to see that the President has focused on 
this issue and has included a new budget framework to alleviate 
some of the difficulties we face.
    I understand that this proposal would designate a portion 
of the fire funding to be disaster-related and, therefore, fall 
under the budgetary spending cap for disaster.
    I am looking forward to hearing your testimony on how we 
can expect this new funding stream to work, Madam Secretary.
    I am looking forward to discussion on the legislative 
strategy necessary to make disaster funding available to this 
subcommittee.
    The budget also contains modest increases to fund fixed 
costs that Interior bureaus invest in science and research 
programs and fund tribal priorities. I am pleased that it 
provides $40 million in discretionary funding to fund 
improvements in programs for national parks, as we gear up for 
the Park Service's centennial in 2016.
    This amount includes a $10 million request to reinvigorate 
the Centennial Challenge grant program and leverage non-Federal 
investments to improve park facilities and visitor services.
    Finally, I am particularly pleased that your budget request 
contains a $51 million request to fund youth education and 
employment programs to fund efforts to, in your words, Madam 
Secretary, play, learn, serve, and work. I know this initiative 
is personally important to you, Madam Secretary, and I look 
forward to hearing more from you about it this morning.
    And before we get started, let me turn to my ranking 
member, Senator Murkowski, for her remarks.
    Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    Good morning, Madam Secretary.
    Good morning, and I, too, echo the chairman's comments in 
welcoming you to your new position, Mr. Connor. I know you have 
a lot of work to do there, and we appreciate that.
    Ms. Suh, Ms. Haze, also welcome to the committee.
    Fellow colleagues, I have asked the chairman for a bit of 
indulgence this morning in perhaps going a little bit longer in 
my opening statement than I otherwise would.
    I have had an opportunity to speak with the Secretary about 
an issue that is very close and very personal to me; to the 
people of King Cove, many of whom I know you have had a chance 
to visit with yesterday and who are here today; but truly, to 
the people of Alaska.
    And while I will direct most of my questions to the 
specifics within the budget, I wanted to take this opportunity 
as part of my opening statement to speak to an issue that has 
galvanized Alaskans, not just during this year with the recent 
decision made by the Secretary, but truly for the past several 
decades as the people of King Cove have sought an answer to 
their quest for a simple road to safety.
    Secretary, I will never forget the telephone conversation 
that you and I had on December 23 when I was sitting in the 
parking lot of the Fred Meyer store, waiting to go in and get 
gift wrap and other sundry things for the Christmas holidays. 
And you told me at that time that you were rejecting the 
lifesaving gravel access road to King Cove.
    I told you at that time and I have repeated, I cannot 
convey in words adequate to describe the frustration, the 
anger, the sadness with which I received that decision, how 
disheartened I knew the people of King Cove would be.
    And adding insult to injury, the fact that it was delivered 
the day before Christmas Eve, what should have been a joyous 
holiday time for the people of this small community, a break 
from the political rhetoric that goes on, it ruined the 
holidays for, certainly, the people of King Cove, certainly put 
a damper on all that I was doing, knowing how the people were 
going to bear the weight of this decision.
    I will never ever understand the timing of the decision, 
and I am still trying to reconcile the reasons behind your 
decision.
    I know, as I mentioned, the folks that are here from King 
Cove that have traveled over 4,000 miles to be here, to try to 
speak with you after many attempts and opportunities to discuss 
this issue. I am not certain that they feel any more convinced 
today than they have been about the prospects that they have as 
a people fighting for a small road up against an administration 
and a decision that seemingly makes no sense whatsoever.
    For my colleagues here, and those in the audience that may 
be unfamiliar with the history of this issue, with the Omnibus 
Public Land bill of 2009, we authorized the Interior Department 
to transfer over 60,000 acres of State and private land to the 
Izembek Refuge.
    And we did this in exchange for just over 200 acres. It was 
206 acres of Federal land. This is a 300 to 1 exchange. A 300 
to 1 exchange that had been negotiated with the folks from Fish 
and Wildlife, that had been negotiated with the native people 
of King Cove, with individuals from the State, with the 
delegation.
    It was a pretty remarkable exchange. And this was all done 
to provide the 965 residents of the King Cove community a safe 
and reliable access to the all-weather airport in Cold Bay, the 
second longest runway in the State of Alaska, built after World 
War II. And the exchange was not only extraordinarily lopsided, 
but what the people of King Cove agreed to was that they would 
not use this road for commercial purposes, because there were 
some who suggested that the processing facility there might 
want this road to make money. They agreed that it would be used 
for noncommercial use.
    So imagine, if you will, a 10-mile, one-lane, gravel, 
noncommercial-use road with barricades or cordons on either 
side, so that you cannot move off the road. Pretty specific 
road. That is it. It is not a major highway. We are not even 
going to pave it.
    King Cove is a community with a clinic, no hospital, no 
doctor. Residents have to fly from Cold Bay more than 600 miles 
to get to Anchorage where a hospital that can handle critical 
medical procedures exists.
    But the problem that we have in King Cove is that weather 
and very difficult geography doesn't allow for reliable access 
from the community of King Cove to Cold Bay, so that these 
flights are often canceled, weathered out, just don't happen.
    Since the decision was made December 23, there have been 
seven emergency medevacs out of King Cove, including four that 
have been performed by the Coast Guard.
    Just about a week and a half ago, there were two medevacs 
conducted in one day, a fisherman who had been crushed by a 
crab pot, crushed his pelvis and both legs. He was taken to the 
clinic there in King Cove, and while he was in the clinic, 
discovers that a 1-month-old infant who was there in 
respiratory distress and also needs to be medevaced out, that 
it is his son.
    So we have a father and a son in the clinic, waiting for 
evacuation. Through the grace of God and the bravery, the 
bravery, of the Coast Guard and the other responders, that dad 
and his baby are doing fine.
    The 63-year-old woman who was medevaced out by the Coast 
Guard on Valentine's Day, who was suffering heart conditions, 
is also doing fine.
    But as the Coast Guard will describe, and as the video 
describes, the conditions that the Coast Guard responded to 
were truly, truly life-threatening.
    Every Coast Guard flight risks the lives of at least four 
Coast Guard men and women, not to mention the patient that they 
are trying to evacuate.
    In the situation of the father and his young son, they had 
to wait hours. Sometimes folks have to wait days to receive 
these emergency medical evacuations.
    It is not without cost. It is not without risk. Each one of 
these Coast Guard evacuations costs a minimum of $210,000 to go 
from Cold Bay to King Cove.
    Those are taxpayer dollars. Those are Coast Guard men and 
women's lives at risk. And they take on the humanitarian issue 
and mission because that is who they are. But it is not the 
mission of the Coast Guard to provide for evacuation services 
to an airport for the residents of King Cove.
    There is a safe and easy way to help our fellow citizens. 
And the only thing that is standing in the way is our own 
Federal Government's decision to place a higher value on the 
birds than it does on the health and safety of my State's 
citizens. And that is simply wrong.
    Madam Secretary, your Department claims to honor the trust 
responsibility, and to improve the lives of our Alaskan 
natives, including the majority Aleut residents in King Cove. 
But the decision that you made in December flies in the face of 
this responsibility.
    The notion from your Department that you must protect 
Alaska from Alaska natives, our first people, is insulting. And 
that is the way that Alaskans feel. We feel insulted that we 
cannot care for the land and the animals and the birds, and 
still provide for a safe, reliable access.
    The people of King Cove have been living in this area for 
thousands of years. They rely on the birds. They rely on the 
wildlife. They have been stewards long before there was ever a 
refuge, long before there was ever a wilderness.
    When you announced your decision in December, you 
recognized the need for reliable methods of emergency transport 
from King Cove. You reaffirmed the Department's commitment to 
``assist in identifying and evaluating options that would 
improve access to affordable transportation and health care.''
    But, Madam Secretary, we have seen none of this. I did not 
hear any clear direction from you yesterday when we met. I 
asked Assistant Secretary Suh during your confirmation hearing 
last month whether you could name an action, any one single 
action, that you or anyone at Interior has taken to protect the 
health and safety of King Cove residents since the road was 
rejected in December. I have seen nothing.
    The passage of time on this issue has not lessened my 
passion to see justice for the people of King Cove.
    I will not get over this issue. I am also unwilling to 
allow your Department to do nothing to help the Alaskans that 
it has promised to assist who, at this point, I believe we are 
seeing only further imperiled. Seven medevacs since the first 
of January.
    I think my colleagues need to know, I think the 
administration needs to know, I think, Secretary Jewell, you 
know very clearly, I will do everything, everything in my power 
for as long as I am here, to enable the people of King Cove to 
receive proper emergency access that the rest of us take for 
granted.
    If you are not going to reverse the decision that you 
announced on December 23, I believe that the least you can do 
is reopen the record of decision in order to reconsider the 
issue, because you need to know that I will not stand by and 
watch as more Alaskan lives are put at risk, put at risk, 
potentially, to die. I will not let this issue die.
    When I spoke before the Alaska Legislature in February, I 
spoke with great passion about this issue. Alaskans are very 
passionate about this issue. And I said maybe I need to channel 
my inner Ted Stevens, and everybody laughed, because they knew 
what that meant.
    When Ted was really agitated, and really going to let 
nothing stand in his way, he would wear his Hulk tie. Today, I 
have a Hulk scarf on, and I don't typically engage in much 
drama. I am not a message person. I am a person who wants to 
get something done.
    But I need you to carry the message to this administration 
that this road is nonnegotiable, that the health and safety of 
the people of King Cove is nonnegotiable. And that I will do 
everything, everything within my power, to make sure that the 
needs of these people are taken care of and put first, put 
first, because that is my charge, to take care of the people of 
the State of Alaska, for whom I work.
    Madam Secretary, as we discussed yesterday, it is 
important. It is important for you, it is important for me, and 
is important for my State, that we are able to work on issues 
together.
    I am not an unreasonable woman, and I believe you want to 
do right as well, and you have an opportunity to demonstrate 
that. And I would hope, again, that you would look at the 
facts, you would listen to the people of King Cove, you would 
listen to Alaskans, and you would listen to your heart in doing 
the right thing.
    I look forward to discussing some of the issues within your 
budget during our questions. But it was too important for the 
people that I represent that I take this time this morning to 
make very clear for the record, for my colleagues, for you, and 
for the administration, that we are not done with this issue.
    With that, Mr. Chairman, I appreciate the time.
    Senator Reed. Thank you very much, Senator.
    Do any of my colleagues have very brief opening comments? 
Your statements will be made part of the record, by unanimous 
consent.
    If there are no opening statements, let me recognize 
Secretary Jewell.
    Madam Secretary.

                 SUMMARY STATEMENT OF HON. SALLY JEWELL

    Secretary Jewell. Thank you very much, Mr. Chairman, 
Ranking Member Murkowski, and members of the subcommittee. I 
really appreciate you being here, and willingness to talk 
through the budget of the Department of the Interior, and for 
the effective way in which you represent your constituents from 
your various States.
    It has been a pleasure getting to know all of you in this 
almost 1 year that I have been in this position.
    For Senator Murkowski and Senator Begich, I do appreciate 
the commitment that you have to the citizens of the State of 
Alaska, and I understand your advocacy.
    I appreciated our meeting yesterday morning, Senator 
Murkowski, and Senator Begich, our meeting yesterday afternoon 
with the residents of King Cove. I, certainly, through the 300 
or so meetings and consultations that my Department has had on 
the King Cove issue continue to be a listener and look at the 
facts throughout this whole process.
    I appreciate the passion you have expressed, and I also 
appreciate the people who have traveled so many miles to be at 
this hearing today.
    I have with me, as you recognized, my newly minted Deputy 
Secretary. We appreciate your support for Mike in this 
position.
    One of the biggest issues that we face throughout the West 
is drought, severe drought. Mike is not only an expert in that, 
having been Commissioner of the Bureau of Reclamation, but many 
other topics as well.
    Rhea Suh, Assistant Secretary for Policy, Management and 
Budget, the Department's Chief Financial Officer, has done a 
terrific job these last 5 years in very complicated times for 
budgets, ably assisted by Deputy Assistant Secretary Pam Haze 
and the crew.
    I also want to recognize Rachael Taylor and Leif Fonnesbeck 
for your support of this committee and my team as we work 
together.
    It has been about a year since I met with you. It was an 
interesting year, 2013, with the sequestration and the 
shutdown. I want to express my sincere appreciation for a 
budget for 2014 that brings clarity and certainty to my 
teammates, even if the numbers are tight.
    Today, as we present our 2015 budget, I am going to share a 
few highlights and focus on areas of interest, I believe, to 
the subcommittee.
    First, from a big picture standpoint, it is a solid budget. 
It is responsible. It makes smart decisions in Interior's 
missions. It is within the budget caps agreed to by the 
Bipartisan Budget Act.

                             WILDLAND FIRE

    In total, including this subcommittee's oversight and some 
others, the budget is $11.9 billion. As Senator Reed mentioned, 
it is an increase of $275 million, or 2.4 percent, from 2014, 
but of that, $240 million is for emergency fire suppression.
    It is a new and prudent budget framework to ensure adequate 
funding to suppress severe catastrophic fires. I was just at 
the National Interagency Fire Center with Senator Merkley, 
Senator Wyden, Senators Crapo and Risch, to talk about this 
program.
    What we are doing is proposing to change how fire 
suppression costs are budgeted to treat extreme fire seasons in 
the same way as other natural disasters. We believe it is 
prudent and logical to do that.
    What is in the President's budget is very similar to what 
has been proposed by Senators Wyden and Crapo and in companion 
legislation in the House to balance post-fire remediation, 
fuels removal, like hazardous fuels, and suppression on a year-
in, year-out basis, so we are not raiding these funds. It is 
modeled on the Federal Emergency Management Disaster Relief 
Program.
    There are no additions to the Federal Emergency Management 
Agency (FEMA) Disaster Relief program. It is all done within 
the disaster cap. We believe very strongly that it needs to go 
forward, and we will be working alongside you on the 
legislation to enable that.

                             INDIAN AFFAIRS

    Next I want to say that presentation of a robust program 
for American Indians and Alaskan natives has been a key goal 
for me. This budget includes full funding for estimated 
contract support costs, something the tribes have said is 
critical to them, and enables them to operate their federally 
funded programs.
    It also includes $11.6 million for a new Tiwahe, or family-
based initiative, to address the interrelated problems of 
poverty, housing, violence, and substance abuse faced by Indian 
communities, as we have seen in a number of places across the 
country.
    This request is complemented by a proposal for education 
and economic development in Indian country as part of President 
Obama's Opportunity, Growth and Security Initiative.

                    LAND AND WATER CONSERVATION FUND

    Next I want to turn to the Land and Water Conservation 
Fund, as the President seeks to fulfill a historic commitment 
to America's natural and cultural heritage through full and 
permanent funding for the Land and Water Conservation Fund, as 
originally envisioned when this legislation was enacted 49 
years ago. It was generated to take revenues from offshore oil 
and gas production and mitigate those impacts through 
supporting things in every county across the country, like 
access for hunting and fishing, creating ball fields and other 
places for kids to play and learn, to acquire land to reduce 
fragmentation and facilitate efficient land management, to 
protect Civil War battlefields, and to put conservation 
easements in place to take care of important habitat for 
species, while keeping farms and ranches working.

                       NATIONAL PARKS CENTENNIAL

    As Chairman Reed mentioned, in 2016, we celebrate the 
centennial of the National Park Service--obviously, a once in a 
lifetime event. This budget proposes a robust increase in 
multiple sources for the National Park system, $40 million in 
current appropriations in 2015. $10 million will be used to 
match private philanthropy, and there is a lot of private 
philanthropy interest in the parks. $30 million to support the 
visitor experience and critical needs to repair assets in the 
parks.
    We are also proposing a $1.2 billion permanent investment 
over 3 years at $400 million a year to support high-priority 
projects and further enhance the visitor experience, because we 
know a lot more traffic will be driven to the parks, both 
internationally and domestically, through the centennial.

              OPPORTUNITY, GROWTH, AND SECURITY INITIATIVE

    The President's Opportunity, Growth, and Security 
Initiative also adds additional money for the national parks to 
begin to address the issue of deferred maintenance on national 
parklands and other public lands.

                                 YOUTH

    As Chairman Reed mentioned, for the health of our economy 
and our public lands, it is also critical we work now to 
establish meaningful and deep connections between young people 
from every background to nature and the great outdoors. The 
President's budget proposes $51 million across our bureaus to 
support partnership programs, hiring, and educational 
opportunities aimed at youth and veterans between the ages of 
18 and 30.
    It will also leverage private donations. I have been trying 
to raise private money to support this and support work with 
youth and veterans conservation corps, so we get young people 
connected to our public lands for the future.

                                 ENERGY

    On the topic of energy, the budget proposes the President's 
national energy initiatives continue to be an area of focus to 
generate jobs and help the Nation achieve greater energy self-
reliance. We have made good progress.
    In total, including all sources, the 2015 budget for energy 
programs is $753.2 million, just under a $41 million increase 
from 2014. It includes funding for both conventional and 
renewable energy development, basic science and applied 
research to understand the impacts of development on water, on 
habitat, on wildlife, and other natural resources.

                        LANDSCAPE LEVEL APPROACH

    Across the Department, we are taking a landscape level 
approach to development. We are modernizing programs and 
practices. We are streamlining permitting, strengthening 
inspection and enforcement, and ensuring a fair return for the 
American public.

                                SCIENCE

    Next, in the field of science, research and development, 
particularly conducted by the U.S. Geological Survey and other 
bureaus, is vital to help us understand and address important 
scientific questions. There is a $60 million increase in the 
budget from 2014 to improve our knowledge about issues such as 
climate change, hydraulic fracturing, Asian carp, white nose 
syndrome in bats, and other issues.
    As an example, Interior's climate science centers are 
developing regional drought impact scenarios. We are evaluating 
coastal flooding. We are studying the impacts on the Nation's 
wildlife and habitats, which will inform our land management 
decisions.

                                 WATER

    Last but certainly not least, and something that I am 
comforted having Mike Connor at my side over, is around water. 
We recognize the challenges of water supplies, especially 
during this time of extended drought in the West. I am very 
happy Mike was confirmed by you very recently as Deputy 
Secretary, because he has a very deep background on these 
issues.
    The 2015 budget will increase our WaterSMART programs 
around conservation, helping people conserve by $9.5 million. 
The Bureau of Reclamation, along with many partners, States, 
and stakeholders, is working on long-term solutions to address 
future water supply needs.

                             CLIMATE CHANGE

    The President also announced a $1 billion Climate 
Resilience Fund. The Fund would support research on the 
projected impacts of climate change, help communities become 
more resilient, and fund breakthrough technologies.
    These efforts are specifically designed to address the 
challenges of changing climate on water resources.

                           PREPARED STATEMENT

    So in closing, I look forward to working with you this 
budget season on these issues. I would be delighted to answer 
your questions. Thank you very much.
    [The statement follows:]
                Prepared Statement of Hon. Sally Jewell
    Mr. Chairman and members of the subcommittee, I am pleased to 
present the 2015 President's budget for the Department of the Interior.
    This subcommittee remains an important partner in the 
accomplishment of Interior's mission and I appreciate our excellent 
working relationship, which allows us to resolve challenges and take 
advantage of opportunities. I appreciate the efforts of the 
subcommittee in the development of 2014 appropriations that alleviated 
the need for indiscriminate sequester of discretionary funds and 
minimized legislative riders.
    This budget is balanced and responsible and supports Interior's 
pivotal role as a driver of jobs and economic activity in communities 
across the country. It enables us to carry out core mission 
responsibilities and commitments. This budget allows Interior to uphold 
trust responsibilities to American Indians and Alaska Natives, provides 
a new approach for responsibly budgeting for wildland fire suppression 
needs, invests in climate resilience, continues smart and balanced all-
of-the-above energy development on and offshore, and bolsters our 
national parks and public lands in advance of the National Park 
Service's 100th anniversary in 2016.
    Interior's programs and activities serve as economic engines in 
communities across the Nation, contributing an estimated $371 billion 
to the economy in 2012 and supporting an estimated 2.3 million American 
jobs. Of this total, energy and mineral development on Interior-managed 
lands and offshore areas generated more than $255 billion of this 
economic activity and supported 1.3 million jobs. Recreation and 
tourism on Interior lands contributed $45 billion to the economies of 
local communities and supported nearly 372,000 jobs. Water supply, 
forage and timber activities, primarily on public lands in the West, 
contributed more than $50 billion and supported 365,000 jobs.
    The President's 2015 budget for the Department of the Interior 
totals $11.9 billion, an increase of 2.4 percent from 2014, which 
includes a cap exemption for fire emergencies. Without this exemption, 
Interior's budget totals $11.7 billion, a 0.3 percent increase, or 
nearly level with this year's funding.
    This budget features three key legislative proposals: a new 
framework to fund wildland fire suppression requirements; additional 
investment in the infrastructure and visitor experience at our National 
Parks and public lands; and full and permanent funding for the Land and 
Wildlife Conservation Fund (LWCF). Each of these proposals will 
significantly enhance our ability to conserve and manage the Nation's 
public lands.
    The budget proposes to amend the Balanced Budget and Emergency 
Deficit Control Act of 1985, to provide stable funding for fire 
suppression, while minimizing the adverse impacts of fire transfers on 
other Interior programs, and allowing Interior to reduce fire risk, 
manage landscapes more comprehensively, and increase the resiliency of 
public lands and the communities that border them. In this proposed new 
framework, $268.6 million, or 70 percent of the 10-year average for 
suppression response is funded within the discretionary spending limits 
and $240.4 million is available as an adjustment above those limits, if 
needed based on a challenging fire season. In addition, it does not 
increase overall discretionary spending, as it would reduce the ceiling 
for the existing disaster relief cap adjustment by an equivalent amount 
as is provided for wildfire suppression operations.
    In advance of the 100th anniversary of the National Park Service in 
2016, the 2015 budget proposes a comprehensive Centennial Initiative 
investment in the parks and public lands. The funding would provide 
targeted increases for a multi-year effort to recommit to the 
preservation of these special places, to invest wisely in the park 
system's most important assets, to use parks to enhance informal 
learning, engage volunteers, provide training opportunities to youth, 
and enhance the National Park Service's ability to leverage 
partnerships to accomplish its mission.
    Finally, the President's budget continues to support full, 
permanent funding for the Land and Water Conservation Fund, one of the 
Nation's most effective tools for expanding access for hunting and 
fishing, creating ballfields and other places for children to play and 
learn, protecting traditional uses such as working ranches and farms, 
acquiring inholdings to manage contiguous landscapes, and protecting 
Civil War battlefields. The 2015 budget proposes total funding of $900 
million for LWCF in Interior and the U.S. Forest Service. Within this 
total, $350 million is requested as current funding and $550 million as 
part of a permanent funding proposal. Starting in 2016, the proposal 
would provide $900 million annually in permanent funding.
    Complementing the 2015 budget request is $346 million identified 
for Interior programs as part of the President's Opportunity, Growth, 
and Security Initiative to spur economic progress and promote 
opportunity. If approved, these investments will enable significant 
progress to address long-term needs in the areas of national parks and 
other public lands, research and development, infrastructure and 
permitting support, climate resiliency, and education and economic 
development in Indian Country.
    The drought in California and other Western States underscores the 
importance of improving the resilience of communities to the effects of 
climate change. The President's Opportunity, Growth, and Security 
Initiative includes a $1 billion government-wide Climate Resilience 
Fund to invest in developing more resilient communities, and finding 
solutions to climate challenges through technology development and 
applied research. This Fund includes about $240 million for Interior 
programs that invest in research and development, assist Tribes and 
local communities in planning and preparing for extreme weather 
conditions and events, and support public land managers in landscape 
and watershed planning to increase resiliency and reduce risks.
                              2015 budget
    The 2015 budget request includes $10.6 billion in current funding 
for programs under the jurisdiction of the Interior, Environment and 
Related Agencies subcommittee. This is a $104.9 million, or 1 percent, 
increase compared to 2014. Total funding for the Department includes $1 
billion requested for the Bureau of Reclamation and the Central Utah 
Completion Act, which are under the jurisdiction of the Energy and 
Water Development subcommittee.
    In addition to the proposals already discussed, the 2015 request 
sustains support for essential requirements and allows for targeted 
increases above the 2014 enacted level. Within the overall increase for 
2015, $54.4 million covers fixed cost increases for such things as 
Federal pay and rent. Reflecting the need to prioritize budget 
resources, this request includes $413.3 million in proposed program 
reductions to offset other programmatic requirements.
    Interior programs continue to generate more revenue for the 
American people than the Department's annual current appropriation. In 
2015, Interior will generate estimated receipts of nearly $14.9 
billion, a portion of which is shared with State and local governments 
to meet a variety of needs, including school funding, infrastructure 
improvements, and water-conservation projects. Also included with this 
request are revenue and savings legislative proposals estimated to 
generate more than $2.6 billion over the next decade.
    Putting this budget in context, Interior's complex mission affects 
the lives of all Americans. Nearly every American lives within an 
hour's drive of lands or waters managed by the Interior Department. In 
2012, there were 417 million visits to Interior-managed lands. The 
Department oversees the responsible development of over 20 percent of 
U.S. energy supplies, is the largest supplier and manager of water in 
the 17 western States, maintains relationships with 566 federally 
recognized Tribes, and provides services to more than 2 million 
American Indian and Alaska Native peoples.
           celebrating and enhancing america's great outdoors
    Throughout American history, the great outdoors have shaped the 
Nation's character and strengthened its economy. The 2015 budget 
requests the resources and authorities to care for our public lands and 
prepare for the future. The budget invests in efforts to upgrade and 
restore national parks and other public lands areas, while engaging 
thousands of Americans, including youth, and veterans. The budget 
strengthens the President's commitment to the America's Great Outdoors 
initiative with a request of $5.1 billion in current funding for 
programs, including the operation of public land management units in 
the Bureau of Land Management (BLM), National Park Service (NPS) and 
Fish and Wildlife Service (FWS); the Land and Water Conservation Fund; 
and grants and technical assistance to States and others. This is an 
increase of $127.1 million compared to the 2014 enacted level.
    Coupled with these efforts is a historic commitment to America's 
natural and cultural heritage through Land and Water Conservation Fund 
programs. The budget includes a 2015 combined request of $672.3 million 
($246 million discretionary and $426.3 million mandatory) for 
Interior's LWCF programs that conserve lands and support outdoor 
recreation. In current funding, the request for land acquisition is 
$147.9 million, with $39.5 million identified for Collaborative 
Landscape Planning projects. A total of $98.1 million is requested in 
current funding for LWCF conservation grants, including $48.1 million 
for LWCF stateside grants.
    I could not highlight our stewardship efforts without discussing 
the upcoming centennial of the National Park Service in 2016. Overall, 
the Centennial Initiative--including mandatory, discretionary, and 
Opportunity, Growth, and Security Initiative resources--will allow NPS 
to ensure that 1,700 (or 20 percent) of the highest priority park 
assets are restored to good condition. The effort creates thousands of 
jobs over 3 years, provides over 10,000 work and training opportunities 
to young people, and engages more than 265,000 volunteers in support of 
public lands.
    The request for the Centennial Initiative proposes a $40 million 
increase in current appropriations in 2015, plus an additional $400 
million in permanent funding each year for 3 years. That funding 
includes $100 million for a Centennial Challenge to match private 
philanthropy, $200 million for National Park Service facilities 
improvements, and $100 million for a Centennial Land Management 
Investment Fund to competitively allocate funds to meet land 
conservation and deferred maintenance needs among Interior's land-
management agencies and the U.S. Department of Agriculture's U.S. 
Forest Service. The President's Opportunity, Growth, and Security 
Initiative identifies investments of $100 million for National Park 
Service deferred maintenance and an additional $100 million for the 
Centennial Land Management Investment Fund.
                      strengthening tribal nations
    Sustaining the President's commitment to tribal sovereignty and 
self-determination and honoring Interior's trust responsibilities to 
the 566 federally recognized American Indian and Alaska Native Tribes 
and more than 2 million people served by these programs, the 2015 
budget for Indian Affairs is $2.6 billion, an increase of $33.6 million 
above the 2014 enacted level. The budget invests in: advancing nation-
to-nation relationships and tribal self-determination, supporting and 
protecting Indian families and communities, sustainable stewardship of 
energy and natural resources, and improving education in Indian 
Country.
    Recognizing this commitment to tribal self-governance and self-
determination, the budget fully funds contract support costs Tribes 
incur as managers of the programs serving Native Americans. The budget 
requests $251 million, a $4 million increase over the 2014 enacted 
level, to fully fund estimated contract support needs in 2015.
    Supporting families and communities, the 2015 budget launches the 
Tiwahe Initiative, with an increase of $11.6 million in social services 
and job training programs to address the interrelated problems of child 
and family welfare, poverty, violence and substance abuse in tribal 
communities. Tiwahe is the Lakota word for ``family.'' Through this 
initiative, social services and job training programs will be 
integrated and expanded to provide culturally appropriate programs to 
assist and empower families and individuals through economic 
opportunity, health promotion, family stability, and strengthened 
communities.
    Promoting public safety and tribal community resilience, the 2015 
budget request includes resources to build on Bureau of Indian Affairs 
(BIA) Law Enforcement's recent successes in reducing violent crime. A 
pilot program will be implemented to lower repeat incarceration rates 
in tribally operated jails on three reservations--Red Lake in 
Minnesota, Ute Mountain in Colorado, and Duck Valley in Nevada--with a 
goal to materially lower repeat incarcerations. Through an Alternatives 
to Incarceration Strategy, this pilot will seek to address underlying 
causes of repeat offenses, such as substance abuse and lack of adequate 
access to social service support, through intergovernmental and inter-
agency partnerships.
    The 2015 budget request is complemented by a proposal in the 
President's Opportunity, Growth, and Security Initiative to further 
invest in economic development and education to promote strong, 
resilient tribal economies and improve educational opportunities in 
Indian Country.
                          powering our future
    As part of the President's all-of-the-above energy strategy to 
expand safe and responsible domestic energy production, the 2015 budget 
provides $753.2 million for conventional and renewable energy programs, 
an increase of $40.7 million above the 2014 enacted level. The budget 
includes measures to encourage responsible, diligent development and a 
fair return for American taxpayers.
    Funding for conventional energy and compliance activities totals 
$658.4 million, an increase of $37.5 million over the 2014 level. 
Spending from fees and permanent funding related to onshore oil and gas 
activities increase $49.1 million from the 2014 level, primarily 
reflecting a proposal to expand onshore oil and gas inspection 
activities and to offset the Bureau of Land Management's inspection 
program costs to the taxpayer with fees from industry, similar to what 
the offshore industry now pays.
    The budget includes $169.8 million for the Bureau of Ocean Energy 
Management and $204.6 million for the Bureau of Safety and 
Environmental Enforcement to support domestic energy production, 
including new leasing, strong safety oversight of offshore operations, 
enhanced environmental enforcement functions, and expanded training and 
electronic inspection capabilities.
    The 2015 budget includes $94.8 million for renewable energy 
activities, a $3.2 million increase over the 2014 level. This funding 
maintains the Department's emphasis on strategic investments to advance 
clean energy and meet the President's goal to approve 20,000 megawatts 
of renewable energy on public lands by 2020 (relative to 2009 levels).
                      engaging the next generation
    The 2015 budget supports a vision to inspire millions of young 
people to play, learn, serve and work outdoors by expanding volunteer 
and work opportunities for youth and veterans. The budget proposes 
$50.6 million for Interior youth programs, a $13.6 million or 37 
percent increase from 2014.
    A key component of the Department's efforts will be partnering with 
youth organizations through the 21st Century Conservation Service 
Corps. The proposed funding includes an increase of $8 million to 
expand opportunities for youth education and employment across the 
National Park Service; an additional $2.5 million for the Fish and 
Wildlife Service's Urban Wildlife Refuges Partnership; and a total of 
$4.2 million in Indian Affairs for youth programs including $2.5 
million to engage youth in natural sciences. Support for the National 
Park Service Centennial will create thousands of jobs, and engage more 
than 10,000 youth in service and training opportunities and more than 
265,000 volunteers.
   ensuring healthy watersheds and sustainable, secure water supplies
    The 2015 budget addresses the Nation's water challenges through 
investments in water conservation, sustainability, and infrastructure 
critical to the arid western United States and its fragile ecosystems.
    The budget includes $66.5 million for WaterSMART programs in 
Reclamation and the U.S. Geological Survey, nearly a 17 percent 
increase from 2014, to assist communities in stretching water supplies 
and improving water management. In addition to $1 billion requested for 
the Bureau of Reclamation within the jurisdiction of the Energy and 
Water Subcommittee, the budget also requests $210.4 million for the 
U.S. Geological Survey's water programs to provide scientific 
monitoring, research, and tools to support water management across the 
Nation. This funding supports the Department's goal to increase by 
840,000 acre-feet the available water supply for agricultural, 
municipal, industrial, and environmental uses in the western United 
States through water conservation programs by the end of 2015.
    Interior extends this commitment to Indian Country, honoring Indian 
water settlements with investments totaling $171.9 million in 
Reclamation and Indian Affairs, for technical and legal support for 
water settlements. This includes $147.6 million for implementation of 
authorized settlements to bring reliable and potable water to Indian 
communities, more than a 9 percent increase from 2014. Among the 
investments is $81 million for the ongoing Navajo-Gallup Water Supply 
Project, which, when completed, will have the capacity to deliver clean 
running water to a potential future population of approximately 250,000 
people.
       building a landscape level understanding of our resources
    The 2015 budget fosters the sustainable stewardship of the Nation's 
lands and resources on a landscape level. Funding includes increases 
for scientific monitoring, research and tools to advance our 
understanding and ability to manage natural resources more effectively, 
while balancing important conservation goals and development 
objectives. Reflecting the President's ongoing commitment to scientific 
discovery and innovation to support decision making for critical 
societal needs and a robust economy, the budget proposes $888.7 million 
for research and development activities across the Department, an 
increase of $60.4 million over 2014. This funding will increase 
understanding of natural resources and the factors impacting water 
availability, ecosystem and species resiliency, sustainable energy and 
mineral development, climate resilience, and natural hazard mitigation, 
among others.
    Complementing this budget request are two components of the 
President's Opportunity, Growth, and Security Initiative: an investment 
of $140 million for Interior research and development as part of a 
Government-wide effort to jumpstart growth spurred by scientific 
discovery; and investments to address climate resilience to better 
prepare communities and infrastructure, and enable them to build 
greater resilience in the face of a changing climate.
    In ecosystems across the Nation, Interior will continue to work 
with local communities to leverage its efforts to improve resiliency 
and achieve improved environmental and economic outcomes.
                   major changes in the 2015 request
    Bureau of Land Management.--The 2015 request is $1.1 billion, a 
decrease of $5.6 million from the 2014 enacted level. The 2015 request 
assumes the use of $54.5 million in proposed offsetting fees, which 
when included provides an effective increase of $48.9 million above 
2014. The 2015 request includes $954.1 million for the Management of 
Lands and Resources account, and $25 million in current appropriations 
for Land Acquisition, including $2 million to improve access to public 
lands for hunting, fishing, and other recreation. The budget proposes 
$104 million for Oregon and California Grant Lands, which includes a 
$4.2 million decrease in Western Oregon Resource Management Planning, 
reflecting expected completion of six revised plans in June 2015.
    To advance America's Great Outdoors, the request includes $3.5 
million in program increases for recreation, cultural resources, and 
the National Landscape Conservation System to address the needs of 
recently designated units, implement travel management plans, improve 
visitor services, and address a backlog in cultural resources inventory 
and stabilization needs. The budget request also includes $4.8 million 
for Youth programs, an increase of $1.3 million from 2014, to put more 
young Americans to work protecting and restoring public lands and 
cultural and historical treasures.
    The BLM continues to support the President's all-of-the-above 
energy strategy on the public lands including an initiative to 
encourage smart renewable energy development. The 2015 budget includes 
$29.2 million, essentially level with 2014, for renewable energy to 
continue to aggressively support wind, solar, and geothermal energy 
development on BLM lands. Complementing this is a $5 million increase 
in the Cadastral, Lands and Realty Management program for 
identification and designation of energy corridors in low conflict 
areas to site high voltage transmission lines, substations, and related 
infrastructure in an environmentally sensitive manner.
    The 2015 request for Oil and Gas Management, including both direct 
and fee-funded appropriations, totals $133.7 million, an increase of 
$20.3 million in available program funding from 2014. In 2015, the 
budget proposes to shift the cost of oil and gas inspection and 
enforcement activity from current appropriations to inspection fees 
charged to industry. The proposed inspection fees will generate an 
estimated $48 million, providing for a $10 million increase in BLM's 
inspection and enforcement capability and allowing for a net reduction 
of $38 million in requested BLM appropriations. The request for Oil and 
Gas programs includes increases of $5.2 million for ongoing rulemaking 
efforts and to strengthen operations at BLM units and $4.6 million for 
oversight and permitting to better keep pace with industry demand and 
fully implement leasing reforms.
    In 2015, BLM will release six rapid eco-regional assessments, in 
addition to four planned for 2014. The BLM will conduct training on the 
use of the data from these assessments and will work with a number of 
Landscape Conservation Cooperatives to begin development of regional 
conservation strategies. The budget includes an increase of $5 million 
for Resource Management Planning to implement BLM's enterprise 
geographic information system and address high priority planning. The 
2015 budget maintains a $15 million increase to implement sage grouse 
conservation and restoration measures to help avoid the need for a 
future listing of the species for protection under the Endangered 
Species Act.
    Other program increases include $2.8 million in the Wild Horse and 
Burro program to implement recommendations of the National Academy of 
Sciences regarding population control; and $2.8 million in Abandoned 
Mine Lands to implement remediation plan efforts at Red Devil Mine in 
Alaska. The request includes $19 million for the Alaska Conveyance 
program. Although a decrease of $3.1 million from 2014, this funding 
coupled with efficiencies from an improved cadastral method, plots a 
course to complete all surveys and land transfers in 10 years.
    A proposed grazing administration fee will enhance BLM's capacity 
for processing grazing permits. A fee of $1 per animal unit month, 
estimated to provide $6.5 million in 2015, is proposed on a pilot 
basis. This additional revenue more than offsets a decrease of $4.8 
million in appropriated funds in Rangeland Management, equating to a 
$1.7 million program increase to help address the grazing permit 
backlog.
    Bureau of Ocean Energy Management.--The 2015 operating request is 
$169.8 million, including $72.4 million in current appropriations and 
$97.3 million in offsetting collections. This is a net increase of $3.4 
million in current appropriations above the 2014 enacted level.
    The 2015 budget maintains a strong offshore renewable energy 
program at essentially the 2014 level of $23.1 million for the total 
program. In 2013, the Bureau of Ocean Energy Management (BOEM) held the 
first competitive Outer Continental Shelf (OCS) renewable energy lease 
sales, issued five other non-competitive commercial offshore wind 
energy leases, and approved the construction and operations plan for 
the Cape Wind project offshore Massachusetts.
    Offshore conventional energy programs also remain essentially level 
with 2014, with a total of $49.6 million in 2015. In 2013, BOEM held 
three sales generating over $1.4 billion in high bids, and three 
additional lease sales are scheduled during calendar year 2014. The 
request of $65.7 million for Environmental Programs includes an 
increase of $2.5 million for work on a Programmatic Environmental 
Impact Statement for the next Five-Year Program (2017-2022) for oil and 
gas leasing on the OCS.
    Bureau of Safety and Environmental Enforcement.--The 2015 budget 
request is $204.6 million, including $81 million in current 
appropriations and $123.6 million in offsetting collections, an 
increase of $2 million from 2014. The request for offsetting 
collections assumes $65 million from offshore oil and gas inspection 
fees. The 2015 request allows Bureau of Safety and Environmental 
Enforcement (BSEE) to continue to strengthen regulatory and oversight 
capability on the OCS and maintain capacity in regulatory, safety 
management, structural and technical support, and oil spill response 
prevention.
    The budget includes $189.7 million for Offshore Safety and 
Environmental Enforcement, an increase of $2.4 million. The request 
includes a program increase of $0.9 million to evaluate and test new 
technologies and update regulations to reflect improved safety and 
oversight protocols. Funding for Oil Spill Research is maintained at 
the 2014 level of $14.9 million.
    Office of Surface Mining.--The 2015 budget request for the Office 
of Surface Mining is $144.8 million, a decrease of $5.3 million from 
the 2014 enacted level. This includes a decrease of $13.4 million in 
grants to States and Tribes to encourage these regulatory programs to 
recover a larger portion of their costs from fees charged to the coal 
industry, and an increase of $4 million to provide additional technical 
support to State and tribal regulatory programs. The budget also 
includes an increase of $1.9 million for applied science to advance 
reclamation technologies. This request proposes $116.1 million for 
Regulation and Technology funding, $28.7 million for Abandoned Mine 
Reclamation Fund activities, and an additional $1.9 million in 
offsetting collections from recovered costs for services.
    U.S. Geological Survey.--The U.S. Geological Survey (USGS) budget 
request is $1.1 billion, $41.3 million above the 2014 enacted level. 
The President's budget reflects the administration's commitment to 
investing in research and development to support sound decision making 
and sustainable stewardship of natural resources. This includes 
science, monitoring, and assessment activities critical to 
understanding and managing the ecological, mineral, energy, and water 
resources which underlie the prosperity and well-being of the Nation. 
The budget includes increases for priorities in ecosystem restoration, 
climate adaptation, invasive species, environmental health, and earth 
observations. Funding provides increased support to enhance sustainable 
energy development, address water resource challenges, increase 
landscape level understanding of the Nation's natural resources, and 
the Scientists for Tomorrow youth initiative.
    To support sustainable management of water resources, the USGS 
budget includes increases totaling $6.4 million for WaterSMART 
programs. This includes increases for State water grants, regional 
water availability models, and the integration and dissemination of 
data through online science platforms. The budget includes increases of 
$2.4 million to support implementation of the National Groundwater 
Monitoring Network and $1.2 million for the National Streamflow 
Information Program for streamgages to strengthen the Federal backbone 
at high priority sites sensitive to drought, flooding, and potential 
climate change effects.
    To better understand and adapt to the potential impacts of a 
changing climate, the USGS budget invests in research, monitoring, and 
tools to support improved resilience of natural systems. The National 
Climate Change and Wildlife Science Center and Department of the 
Interior (DOI) Climate Science Centers (CSC) are funded at $35.3 
million, an increase of $11.6 million from 2014. This includes an 
increase of $3 million for grants focused on applied science and 
information needed by resource managers for decision making at regional 
levels. An increase of $2.3 million will enhance the leveraging of 
these investments with other Federal climate science activities and 
make the scientific information and products developed through these 
programs available to the public in a centralized, Web-accessed format. 
Program increases of $2.5 million will support applied science and 
capacity-building for tribal climate adaptation needs in the CSC 
regions, and $3 million will support additional research in drought 
impacts and adaptive management.
    The USGS budget invests in providing critical data and tools to 
promote understanding and managing resources on a landscape scale. 
Program increases in the National Geospatial Program include $5 million 
for the 3-Dimensional Elevation Program to collect Lidar data to 
enhance science and emergency response activities, resource and 
vulnerability assessments, ecosystem based management, and tools to 
inform policy and management. An increase of $1.9 million is requested 
for modernization of The National Map, which provides critical data 
about the Earth, its complex processes, and natural resources. The 2015 
budget includes a $2 million increase for the Big Earth Data initiative 
to improve access to and use of data from satellite, airborne, 
terrestrial, and ocean-based Earth observing systems. These investments 
will provide benefits in natural resource management and hazard 
mitigation, by improving access to critical information.
    To support the sustainable development of energy resources, the 
USGS budget includes $40.7 million for conventional and renewable 
energy programs, $8.1 million above the 2014 enacted level. A program 
increase of $1.3 million will be used to study geothermal resources and 
build on ongoing work on wind energy impacts. The request includes 
$18.6 million, $8.3 million over 2014, to support research and 
development to better understand potential impacts of energy 
development involving hydraulic fracturing. Conducted through an 
interagency collaboration with the Department of Energy and 
Environmental Protection Agency, this work addresses issues such as 
water quality and quantity, ecosystem, community, and human health 
impacts, and induced seismicity. Funding for other conventional energy 
programs, including oil, gas, and coal assessments, totals $15.6 
million.
    Supporting the sustainable management and restoration of 
ecosystems, the 2015 budget includes $162 million for ecosystems 
science activities, $9.2 million above the 2014 enacted level. Program 
increases include $2 million for research on new methods to eradicate, 
control, and manage Asian carp in the Upper Mississippi River Basin and 
prevent entry into the Great Lakes. Increases of $2.5 million are 
provided for ecosystem restoration work in the Chesapeake Bay, 
California Bay-Delta, Columbia River, Everglades, and Puget Sound. 
Another $2 million will support the science and integration of 
ecosystems services frameworks into decision making and efforts to 
assess and sustain the Nation's environmental capital. Program 
increases totaling $1.8 million will address native pollinators, brown 
treesnakes, and new and emerging invasive species of national concern.
    Supporting understanding, preparedness, and mitigation of the 
impacts of natural hazards, the budget provides $128.3 million for 
Natural Hazards activities, which is essentially level with 2014. This 
activity provides scientific information and tools to reduce potential 
fatalities, injuries, and economic loss from volcanoes, earthquakes, 
tsunamis and landslides, among others. The 2015 budget includes an 
increase of $700,000 in Earthquake Hazards for induced seismicity 
studies related to hydraulic fracturing.
    Fish and Wildlife Service.--The 2015 Fish and Wildlife Service 
budget includes $1.5 billion in current appropriations, an increase of 
$48.8 million above the 2014 level. This includes America's Great 
Outdoors related increases of $71.7 million in the Resource Management 
account. Among the increases proposed are: $6.6 million to address 
increased workload in planning and consultation for energy transmission 
and other projects, $7.7 million for cooperative efforts to recover 
imperiled species, $4 million to support conservation of the greater 
sage grouse across 11 western States, $2 million to investigate crimes 
and enforce laws that govern the Nation's wildlife trade, and $2.5 
million to establish an Urban Wildlife Refuge Partnership program. This 
effort will encourage city dwellers to enjoy the outdoors by creating 
stepping stones of engagement to connect them to the outdoors on 
refuges and partner lands, through experiences which build on one 
another.
    Funding for FWS grant programs, with the exception of State and 
Tribal Wildlife Grants, remain level with 2014. In 2015, funding for 
State and Tribal Wildlife Grants totals $50 million. The request also 
includes $55 million for Land Acquisition and $15.7 million for 
Construction. In addition to direct appropriations, an estimated $1.3 
billion will be available under permanent appropriations, most of which 
will be provided directly to States for fish and wildlife restoration 
and conservation.
    The budget proposes $16.7 million, an increase of $2.5 million, for 
activities associated with energy development. Of this increase, $1.4 
million supports scientific research into the impacts of energy 
transmission and development infrastructure on wildlife and habitat. 
The research will identify potential impacts associated with the 
development of energy infrastructure and strategies to minimize the 
impacts on habitat and species. An increase of $1.1 million for the 
Ecological Services Planning and Consultation program supports 
assessments of renewable energy projects proposed for development.
    The budget request for the Resource Management account continues 
support for key programs with program increases of $65.8 million above 
2014. The request provides $252.2 million in Ecological Services to 
conserve, protect, and enhance listed and at-risk species and their 
habitat, an increase of $30.3 million. Within this request are 
increases of $4 million to support conservation of the greater sage 
grouse across 11 western States and $10.5 million to implement other 
species recovery actions.
    The request includes funding within Law Enforcement and 
International Affairs to combat wildlife trafficking. The budget 
provides $66.7 million for the law enforcement program to investigate 
wildlife crimes, enforce the laws governing the Nation's wildlife 
trade, and expand technical forensic expertise, with program increases 
of $2 million over 2014.
    The budget includes $138.9 million for Fisheries and Aquatic 
Resource Conservation, a program increase of $8.2 million. Within this 
request is $48.6 million for operation of the National Fish Hatchery 
system to address top priorities, an increase of $1.9 million for fish 
hatchery maintenance, and $4.4 million to prevent the spread of Asian 
carp in the Missouri, Ohio, upper Mississippi Rivers, and other high 
priority watersheds.
    Funding for Cooperative Landscape Conservation activity is $17.7 
million, an increase of $3.2 million, and funding for Science Support 
is $31.6 million, an increase of $14.4 million. The budget supports 
applied science directed at high impact questions to mitigate threats 
to fish and wildlife resources, including $2.5 million to address white 
nose syndrome in bats, and an increase of $1 million to study 
biological carbon sequestration.
    The 2015 budget proposes to eliminate the current funding 
contribution to the National Wildlife Refuge fund, a reduction of $13.2 
million below 2014. An estimated $8 million in permanent receipts 
collected and allocated under the program would remain available to 
counties. The budget also proposes cancellation of $1.4 million in 
prior year balances from the Landowner Incentive and Private 
Stewardship Grant programs, which have not received new budget 
authority in several years.
    National Park Service.--The 2015 budget request for NPS of $2.6 
billion is $55.1 million above the 2014 enacted level.
    In 2015, a total of $2.5 billion is requested for NPS as part of 
America's Great Outdoors. This includes $2.3 billion for park 
operations, an increase of $47.1 million over 2014. Within this 
increase is $30 million to support the NPS Centennial Initiative. The 
Centennial increase includes $16 million for repair and rehabilitation 
projects to improve high priority projects throughout the parks, $8 
million in competitively managed funds to support enhanced visitor 
services in the areas of interpretation and education, law enforcement 
and protection, and facility operations, $4 million for 21 CSC youth 
work opportunities to engage youth in service and conservation 
projects, and $2 million to support expanded volunteer opportunities at 
the parks. Across these Centennial increases, the budget provides an $8 
million increase for youth engagement and employment opportunities, and 
continues the NPS' efforts to attract qualified veteran candidates to 
fill Federal positions. The request for Park Operations also includes 
increases of $15.7 million for increased fixed costs and $2 million to 
support new park units.
    Also in preparation for the Centennial anniversary of the parks, 
the 2015 request includes $10 million in a separate account for 
Centennial Challenge projects. This funding will provide a Federal 
match to leverage partner donations for signature projects and programs 
at the parks. This program will be instrumental in garnering partner 
support to prepare park sites across the country for the centennial and 
through the second century of the NPS.
    The 2015 request for the Historic Preservation Fund is $56.4 
million, level with 2014. Of this total, $46.9 million is requested for 
grants-in-aid to States and Territories, $9 million for grants-in-aid 
to Tribes, and $500,000 to be awarded competitively to address 
communities currently underrepresented on the National Register of 
Historic Places.
    The budget includes $52 million within the National Recreation and 
Preservation account, which includes $10 million for the Rivers, 
Trails, and Conservation Assistance program, essentially level with 
2014, and $1.2 million for American Battlefield Protection Program 
assistance grants, also level with 2014. The request includes a program 
reduction of $9.1 million from Heritage Partnership programs to 
encourage self-sufficiency for these non-Federal organizations.
    Programs funded out of the Land and Water Conservation Fund are a 
key component of America's Great Outdoors. The budget requests $104 
million for the Land Acquisition and State Assistance account, an 
increase of $5.9 million. This includes $48.1 million for the State 
Conservation Grants program, level with 2014, and $55.9 million for NPS 
Federal land acquisition, a programmatic increase of $5.8 million. Of 
this amount, $13.2 million supports Collaborative Landscape projects in 
the California Southwest Desert and areas within the National Trails 
System.
    Funding for Construction totals $138.3 million, essentially level 
with 2014. Of this amount, the budget includes $61.7 million for line-
item construction projects, a $1.1 million program increase compared to 
2014. The request includes $6.7 million to reconstruct the historic 
cave tour trails in Mammoth Cave National Park and $3.9 million to 
stabilize and repair exterior walls of the historic Alcatraz prison 
cell house at Golden Gate National Recreation Area.
    Indian Affairs.--The 2015 budget includes $2.6 billion for Indian 
Affairs programs, an increase of $33.6 million from the 2014 enacted 
level. This includes an increase of $33.8 million for Operation of 
Indian Programs; and level funding of $35.7 million for Indian Land and 
Water Claim Settlements, $109.9 million for Construction, and $6.7 
million for the Indian Guaranteed Loan program.
    Within the Operation of Indian Programs, the budget includes full 
funding of $251 million for Contract Support Costs and the Indian Self-
Determination Fund, an increase of $4 million from 2014. Consistent 
with the 2014 Operating Plan, the 2015 request provides full funding 
based on the most current estimated need. The availability of contract 
support cost funding is a key factor in tribal decisions to assume 
responsibility for operating Federal programs important to the 
furtherance of self-governance and self-determination. To further 
facilitate Tribal 638 Contracting, the budget includes an additional 
$1.2 million to increase services from the Department's Office of 
Indirect Cost Negotiations which negotiates indirect cost rates with 
non-Federal entities, including tribal governments. Consistent with 
subcommittee direction and in collaboration with the Indian Health 
Service (IHS), the Department held its first formal consultation on 
March 11, 2014 with tribes to discuss long-term solutions to Contract 
Support Cost issues. The Department remains committed to working with 
IHS, tribes, and Congress to develop a long-term strategy for 
addressing this important issue.
    The 2015 budget for Indian Affairs includes an increase of $11.6 
million for the Tiwahe or ``family'' Initiative. The initiative takes a 
comprehensive and integrated approach to address the interrelated 
problems of poverty, violence, and substance abuse in Indian 
communities. The initiative builds on and expands social service, 
Indian child and family welfare, and job training programs. In 
recognition that adequate housing is essential to building stronger 
families, the budget maintains the 2014 level for the Housing 
Improvement Program. The goal of the Tiwahe Initiative is to empower 
American Indian individuals and families in health promotion and family 
stability, and to strengthen tribal communities as a whole. To better 
target funding and evaluate outcomes in meeting social service needs in 
Indian Country, the budget includes $1 million as part of the 
initiative.
    The budget provides strong support for the sustainable stewardship 
of land and resources in Indian Country, sustaining funding for trust 
land management and real estate services at 2014 levels and proposing 
program increases of $3.6 million for the stewardship of natural 
resources. Funding supports the development of natural resource 
science, information, and tools for application in the development and 
management of energy and minerals, water, forestry, oceans, climate 
resilience, and endangered and invasive species. Demonstrating the 
administration's commitment to resolving tribal water rights and 
ensuring that tribes have access to meet their water needs, $171.9 
million is provided across the Department for implementation of, and 
technical and legal support for, Indian water rights settlements, an 
increase of $13.8 million over 2014. A program increase of $1 million 
is also provided in Indian Affairs for deferred maintenance on Indian 
irrigation projects to help address drought issues in Indian Country.
    The budget supports improving educational outcomes in Indian 
Country, providing $794.4 million for the Bureau of Indian Education 
(BIE), an increase of $5.6 million from 2014. The request includes an 
increase of $500,000 for Johnson O'Malley Education Assistance Grants 
to support a new student count in 2015 and funding to address the 
projected increase in the number of eligible students. The budget 
includes $1 million to support ongoing evaluation of the BIE school 
system to improve educational outcomes. Within education construction, 
an increase of $2.3 million supports site development at the Beatrice 
Rafferty School for which design funding was provided in 2014. The 
budget also includes $2.3 million in increases for BIE funded post-
secondary programs including $1.7 million for post-graduate 
opportunities in science fields, and $250,000 for summer pre-law 
preparatory scholarships.
    Departmental Offices and Department-Wide Programs.--The 2015 
request for the Office of the Secretary is $265.3 million, an increase 
of $1.3 million from the 2014 enacted level. Of this, $122.9 million is 
for the Office of Natural Resources Revenue programs, an increase of 
$3.5 million, reflecting increases to strengthen production 
verification and meter inspections activities, including implementing 
an onshore production verification pilot and funding related data 
integration. Other changes include the proposed transfer of the Indian 
Arts and Crafts Board from the Office of the Secretary to the Bureau of 
Indian Affairs of $1.3 million, a decrease of $865,000 reflecting a 
shift from direct appropriations to fee for service for Indirect Cost 
Negotiations, and a program decrease of $266,000 in Valuation Services.
    The budget request for the Office of Insular Affairs is $92.2 
million, a decrease of $10.2 million from the 2014 enacted level. The 
budget includes an increase of $3 million to address urgent, immediate 
needs in the insular areas, and $1.8 million to improve safety 
conditions in insular school facilities. A decrease of $500,000 
reflects completion of an aerial bait system for brown treesnake 
control. Compact Impact is funded at $1.3 million, a decrease of $1.7 
million from 2014, and is supplemented by $30 million annually in 
permanent Compact Impact funding. Funding of $13.1 million for the 
Palau Compact Extension is not requested for 2015 as it is expected the 
Compact will be authorized and funded from permanent appropriations in 
2014.
    The Office of Inspector General (OIG) request is $50 million, a 
decrease of $784,000 from 2014. The budget includes a decrease of $2 
million reflecting completion of an effort to reduce OIG's physical 
footprint. Increases of $423,000 and $355,000 are included to support 
the council of the Inspectors General on Integrity and Efficiency and 
provide additional full-time equivalents (FTEs) for information 
security audits, respectively. The Office of the Solicitor request is 
$65.8 million, equal to the 2014 enacted level.
    The Office of the Special Trustee request is $139 million, $648,000 
below the 2014 enacted level. The 2015 budget decreases Business 
Management funding by $1.6 million reflecting $922,000 in efficiencies 
from the transfer of some mailing and printing services to the U.S. 
Department of the Treasury, a reduction of $500,000 in litigation 
support, and a decrease of $200,000 in funding for the Office of 
Hearings and Appeals.
    The 2015 request for the Department-Wide Wildland Fire Management 
program is $794 million without the proposed fire cap adjustment, and 
$1 billion including the adjustment. The request includes $268.6 
million for Suppression within the current budget cap, which is 70 
percent of the 10-year suppression average spending. This base level 
funding ensures the cap adjustment of $240.4 million would only be used 
for the most severe fires, since it is 1 percent of the fires that 
cause 30 percent of the costs. The new budget framework for Wildland 
Fire Management eliminates the need for additional funds through the 
FLAME Act. The 2015 budget includes a program increase of $34.1 million 
for Preparedness activities to enhance readiness capabilities. The 
budget includes $146.3 million for Fuels Management activities, 
formerly known as Hazardous Fuels Management. This is equal to the 2014 
enacted level with an increase of $1.3 million for fixed costs. 
Complementing this request is $30 million for Resilient Landscapes, a 
new component of the Wildland Fire Management program, to support 
treatments that improve the integrity and resilience of forests and 
rangelands. Resilient landscape projects will be leveraged with bureau 
efforts to reduce fire risk and improve overall resiliency. The budget 
request also includes a $2 million increase for the Burned Area 
Rehabilitation program to address greater post-fire rehabilitation 
needs caused by the 2012 and 2013 fire seasons.
    The 2015 request for the Natural Resource Damage Assessment and 
Restoration Fund is $7.8 million, a program increase of $1.5 million. 
The increase includes $1 million for a Department-wide onshore Oil 
Spill Preparedness Program, and additional resources for Restoration 
support. The budget includes $10 million for the Central Hazardous 
Materials Fund, an increase of $412,000 from 2014 to support additional 
cleanup work.
    The Department's 2015 request for the Working Capital Fund 
appropriation is $64.3 million, an increase of $7.3 million from the 
2014 enacted level. Within this request is $53.9 million for the 
operation and maintenance of the Financial and Business Management 
System, an increase of $1 million to continue support of the 
Department's Cultural and Scientific Collections Management initiative, 
a decrease of $1 million from the Department's Service First 
initiative, and an increase of $8.4 million to support Interior's 
Office Consolidation strategy in the DC metropolitan area.
                          mandatory proposals
    The 2015 budget includes 15 legislative proposals affecting 
spending, revenue and available budget authority, which require action 
by the congressional authorizing committees. Revenue and savings 
proposals will generate more than $2.6 billion over the next decade. 
The 2015 budget includes four spending proposals with an estimated $9.9 
billion in outlays over the next decade.
    Land and Water Conservation Fund.--The 2015 budget proposes $900 
million in current and permanent funding in 2015, and proposes 
permanent authorization of $900 million in mandatory funding for LWCF 
programs in the Departments of the Interior and Agriculture beginning 
in 2016. During a transition to permanent funding in 2015, the budget 
proposes $900 million in total LWCF programs funding, comprised of $550 
million permanent and $350 million current funding, shared by Interior 
and Agriculture.
    Centennial Initiative.--The Centennial Initiative includes a 
legislative proposal to authorize $1.2 billion in permanent funding 
over 3 years beginning in 2015 in the following areas: $300 million 
($100 million a year for 3 years) for a National Park Service 
Centennial Challenge fund to leverage private donations; $600 million 
($200 million a year for 3 years) for NPS deferred maintenance; and 
$300 million ($100 million a year for 3 years) for a multiagency 
Centennial Land Management Investment Fund to competitively award 
grants to Interior land management agencies and the U.S. Forest Service 
for deferred maintenance and conservation projects.
    Payments in Lieu of Taxes.--The Agricultural Act of 2014 included a 
1-year extension of permanent Payments in Lieu of Taxes (PILT) funding 
through 2014. The 2015 budget proposes to extend authorization of the 
program an additional year through 2015, while a sustainable long-term 
funding solution is developed for the PILT Program. The PILT payments 
help local governments carry out vital services, such as firefighting 
and police protection, construction of public schools and roads, and 
search and rescue operations. The cost of a 1-year extension is 
estimated to be $442 million in 2015. The 2015 budget for the U.S. 
Department of Agriculture (USDA) Forest Service includes a proposal to 
reauthorize the Secure Rural Schools Program for a 5-year period, 
covering lands managed by the BLM.
    Palau Compact.--On September 3, 2010, the United States and the 
Republic of Palau successfully concluded the review of the Compact of 
Free Association and signed a 15-year agreement that includes a package 
of assistance through 2024. The 2015 budget assumes authorization of 
permanent funding for the Compact occurs in 2014. The cost for this 
proposal is estimated at $178.3 million for 2015 through 2024.
    Federal Oil and Gas Reforms.--The budget includes a package of 
legislative reforms to bolster and backstop administrative actions 
being taken to reform the management of Interior's onshore and offshore 
oil and gas programs, with a key focus on improving the return to 
taxpayers from the sale of these Federal resources. Proposed statutory 
and administrative changes fall into three general categories: 
advancing royalty reforms, encouraging diligent development of oil and 
gas leases, and improving revenue collection processes. Collectively, 
these reforms will generate roughly $2.5 billion in net revenue to the 
Treasury over 10 years, of which about $1.7 billion would result from 
statutory changes. Many States will also benefit from higher Federal 
revenue sharing payments.
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels.--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the Abandoned Mine Land (AML) Fund. 
The proposal would return the fee to 35 cents a ton, the same level 
companies paid prior to the 2006 fee reduction. The additional revenue, 
estimated at $362 million over 10 years, will be used to reclaim high 
priority abandoned coal mines and reduce a portion of the estimated 
$3.9 billion needed to address remaining dangerous coal AML sites 
nationwide.
    Discontinue AML Payments to Certified States.--The budget proposes 
to discontinue unrestricted payments to States and Tribes certified for 
completing their coal reclamation work. This proposal terminates all 
such payments, with estimated savings of approximately $295 million 
over the next 10 years.
    Reclamation of Abandoned Hardrock Mines.--To address the legacy of 
abandoned hardrock mines across the United States and hold the hardrock 
mining industry accountable for past mining practices, the Department 
will propose legislation to create a parallel Abandoned Mine Lands 
Program for abandoned hardrock sites. A new AML fee on hardrock 
production on both public and private lands would generate an estimated 
$1.8 billion to reclaim the highest priority hardrock abandoned sites 
on Federal, State, tribal, and private lands.
    Reform Hardrock Mining on Federal Lands.--Interior will submit a 
legislative proposal to provide a fair return to the taxpayer from 
hardrock production on Federal lands. The legislative proposal will 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. The proposal is projected to generate net revenues to the U.S. 
Treasury of $80 million over 10 years, with larger revenues estimated 
in following years.
    Geothermal Energy Receipts.--The Department proposes to repeal 
section 224(b) of the Energy Policy Act of 2005. The repeal of section 
224(b) will permanently discontinue payments to counties and restore 
the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in estimated savings of $4 million in 2015 and 
$42 million over 10 years.
    Federal Land Transaction Facilitation Act.--The Department proposes 
to reauthorize this act to allow Federal lands identified as suitable 
for disposal in recent land use plans to be sold using this authority. 
The sales revenues would continue to fund the acquisition of 
environmentally sensitive lands and administrative costs associated 
with conducting the sales.
    Federal Migratory Bird Hunting and Conservation Stamps.--Federal 
Migratory Bird Hunting and Conservation Stamps, or Duck Stamps, are the 
annual Federal license required for hunting migratory waterfowl. The 
receipts generated from the sale of these $15 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The Department proposes legislation to increase these fees 
which have not increased since 1991, to $25 per stamp per year 
beginning in 2015. This increase will add an estimated $14 million for 
migratory bird conservation annually.
    Bureau of Land Management Foundation.--The budget proposes 
legislation to establish a congressionally-chartered National BLM 
Foundation. This Foundation will provide an opportunity to leverage 
private funding to support public lands, achieve shared outcomes, and 
focus public support on the BLM mission.
    Recreation Fee Program.--The Department of the Interior proposes to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
which will expire in December 2015. The Department currently collects 
over $200 million in recreation fees annually under this authority and 
uses them to enhance the visitor experience at Interior facilities.
           fire suppression and the discretionary budget cap
    The 2015 budget proposes to amend the Balanced Budget and Emergency 
Deficit Control Act of 1985, as amended, to establish a new framework 
for funding Fire Suppression Operations to provide stable funding for 
fire suppression while minimizing the adverse impacts of fire transfers 
on the budgets of other programs, as well as reduce fire risk, manage 
landscapes more comprehensively, and increase the resiliency of public 
lands and the communities that border them. Under this new framework, 
the 2015 budget request covers 70 percent of the 10-year suppression 
average within the domestic discretionary caps and a portion is funded 
in a budget cap adjustment. Extreme fires requiring emergency response, 
fires threatening urban areas, or requirements of an abnormally high 
fire season, would be permitted to be funded through the adjustment to 
discretionary spending limits. The cap adjustment does not increase 
overall current spending, as it reduces the ceiling for the existing 
disaster relief cap adjustment.
                    offsetting collections and fees
    The budget includes the following proposals to collect or increase 
various fees, so industry shares some of the cost of Federal permitting 
and regulatory oversight.
    New Fee for Onshore Oil and Gas Inspections.--Through 
appropriations language, the Department proposes to implement an 
inspection fee in 2015 for onshore oil and gas activities subject to 
inspection by BLM. The proposed fee is expected to generate $48 million 
in 2015, $10 million more than the corresponding $38 million reduction 
in requested appropriations, thereby expanding the capacity of BLM's 
oil and gas inspection program. The fee is similar to one already in 
place for offshore operations and will support Federal efforts to 
increase production accountability, human safety, and environmental 
protection.
    Grazing Administrative Fee.--The 2015 budget proposes a new grazing 
administrative fee of $1 per animal unit month. The BLM proposes to 
implement this fee through appropriations language on a 3-year pilot 
basis. The provision will generate an estimated $6.5 million in 2015 to 
assist BLM in processing grazing permits.
    National Wildlife Refuge Damage Cost Recovery.--The budget proposes 
appropriations language to authorize the Fish and Wildlife Service to 
pursue and retain recoveries from responsible parties, to be used to 
restore or replace damaged National Wildlife Refuge resources.
    Cost Recovery for Nontoxic Shot Approvals.--The budget proposes 
appropriations language to allow the Fish and Wildlife Service to 
retain and use fees collected for the review of nontoxic shot products. 
Nontoxic shot is a substitute for lead shot, banned for waterfowl 
hunting since 1991.
                               conclusion
    Thank you for the opportunity to testify on the President's 2015 
budget request for the Department of the Interior. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance the stewardship of lands and resources, 
renewable energy, oil and gas development and reforms, water 
conservation, youth employment and engagement, and improvements in the 
quality of life in Indian communities. I thank you again for your 
continued support of the Department's mission. I look forward to 
answering questions about this budget. This concludes my written 
statement.

    Senator Reed. Thank you very much, Madam Secretary.
    We will do 6-minute rounds. We have votes at 11 o'clock. I 
assume we can get through one round, and if necessary, we will 
have a second round. I think we do have that time.

                      WILDLAND FIRE CAP ADJUSTMENT

    Madam Secretary, can you walk us through the fire disaster 
proposal, how it will work? The reality is, that is a huge 
issue we confront every year in this bill. We have to pay for 
the emergency fires. Can you walk us through that? How much 
will you provide for fire suppression? How did you arrive at 
the funding level? And are you confident that it will be 
enough?
    Secretary Jewell. I will give a high-level overview, and I 
am going to turn to my colleague, Rhea Suh, who really worked 
very, very closely with the Office of Management and Budget 
(OMB) to craft this proposal in the President's budget 
alongside the companion legislation.
    In a nutshell, 1 percent of the most catastrophic fires 
consume 30 percent of our fire suppression budget. The proposal 
for fire suppression in the budget is 70 percent, which are the 
year-in, year-out regular fires. That is in the budget. The 
worst 1 percent of fires beyond that 70 percent number is what 
we are proposing to take off-budget into the emergency disaster 
relief. The 70 percent number is based on a 10-year suppression 
average of fires.
    What that enables us to do is consistently put money into 
hazardous fuels reduction and post-fire remediation so we don't 
end up in this negative spiral of robbing our accounts for 
hazardous fuel removal and post-fire remediation causing 
invasive species to come in, that causes worse fires in the 
future, so we have a downward spiral.
    I am going to turn it to Rhea to provide any additional 
details.
    Ms. Suh. Thank you very much, Madam Secretary. I will just 
add a few more comments here.
    As you know, in the President's request, 70 percent of the 
10-year average for fire is included in the discretionary part 
of the budget. The remaining 30 percent is included in the cap 
adjustment, which we are requesting.
    The cap adjustment was based on the same type of analytical 
forecast that the Federal Land Assistance Management and 
Enhancement Act (FLAME) scientists prepare for this committee 
on an annual basis. That includes data about weather, climate, 
drought, and historical expenditures.
    All combined, that is the amount of money we have put into 
the cap.
    Again, just to echo the Secretary's comments, this is 
really only to treat those fires that are truly disasters as 
disasters, and to allow both Interior and the Forest Service to 
be able to access those emergency funds.
    Senator Reed. Thank you.
    Madam Secretary, in order to implement this program, you 
have to get changes in the Balanced Budget and Emergency 
Deficit Control Act from the Budget Committee, I have been 
told, and also the FLAME Act from the Energy and Natural 
Resources Committee. And I just want your acknowledgment that 
you are aware of that and you are working on it; is that 
correct?
    Secretary Jewell. That is correct, Mr. Chairman. We very 
much modeled the President's request off of the bipartisan 
legislation that has been introduced in both houses. In the 
Senate, it is sponsored by Senator Wyden and Senator Crapo. 
That particular legislation specifically does amend the Budget 
Control Act.
    We are having conversations with staff around amendments to 
FLAME that would potentially be able to more clearly articulate 
the triggers involved in accessing those emergency funds.
    On both of those streams of work, we are very much aware 
and actively engaged with members in this house.
    Senator Reed. Thank you.

                        NATIONAL PARK CENTENNIAL

    As we have all noted, this is the hundredth year centennial 
just almost upon us, 2016, for the national parks. But we also 
have the National Heritage areas, and I note with some chagrin 
that the budget in this area has been decreased.
    In order to make this a truly national celebration, I think 
every State should have a sort of vested interest in this.

                             HERITAGE AREAS

    Can you comment on the role of these heritage areas as they 
connect to the parks and allow people to be outdoors? I think 
we shared the Blackstone Valley National Heritage together in 
kayaking, although I apologize the equipment did not come from 
REI, but forgive me.
    Secretary Jewell. Well, Senator, I did enjoy the kayaking, 
and the Blackstone River corridor as such a historic place is a 
great illustration of the potential of National Heritage areas. 
It is one that I have been working on personally for over 20 
years.
    The great thing about heritage areas is they engage the 
community in identifying areas of cultural, historic, and 
natural significance. In many cases, the local communities are 
who provide support for those initiatives.
    Yes, the budget was cut. Part of that is in recognition of 
the need for us to work closely with the communities on getting 
local support for National Heritage areas. The budget is 
tighter than we would like it to be as it relates to national 
parks overall, and we had to make some tough choices.
    We continue to work with you on heritage areas, and a path 
forward that engages private philanthropy and local community 
involvement to support these places, to earn the arrowhead logo 
but also the heritage status we believe is important to them.
    Senator Reed. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                             KING COVE ROAD

    Secretary Jewell, just a question, one question on the King 
Cove road issue, when you issued your release in December, you 
stated that the Department's commitment to assist in 
identifying and evaluating options would improve access to 
affordable transportation and health care for the citizens of 
this remote Alaska community.
    As I mentioned in my opening comments, I have not seen 
anything specific from you or from the Department in terms of 
what progress has been made in either identifying or evaluating 
options that would improve access.
    Can you outline for me the specific areas that you would 
propose in terms of alternatives, alternatives that would be as 
reliable and safe as a road, and affordable? And if you can 
identify any specific funding proposals that are included in 
the President's budget that would allow for improvement of the 
situation in King Cove?
    Secretary Jewell. Thank you, Senator.
    As we discussed yesterday, I very much appreciated the 
opportunity to meet with you, and to also meet with the 
residents of King Cove.
    We need suggestions from the people who live in the area on 
what alternatives would be potentially viable to them, if a 
road does not go through. It is very clear from my conversation 
in King Cove, as you and I made our visit there, and to Cold 
Bay, that the community feels very strongly that they want a 
road, as do you.
    I continue to be open to all conversations about 
alternatives.
    My team has had conversations with the Coast Guard about 
the 10 months of the year where they typically have a 
helicopter stationed in Cold Bay. I know they are very brave 
men and women that do this work, whether it is rescuing people 
on the high seas or facilitating humanitarian missions that you 
described earlier on land.
    I also know there are many villages in Alaska that are a 
long way away from medical care, and this clearly is an example 
of that, being 600 miles from Anchorage.
    We have had conversations with the Coast Guard. We will 
continue to do that. We have a conversation scheduled with the 
Corps of Engineers later on this week to better understand the 
alternatives they believe may be possible in that area, and I 
remain open to suggestions from the community, as we discussed 
yesterday afternoon, on areas they would like us to pursue that 
they believe would be viable for us to consider beyond the 
road, which clearly is your preferred alternative and that of 
the residents.
    Senator Murkowski. Well, as I mentioned yesterday, your 
search for viable alternatives is one that has been reviewed 
for decades now. And we are at this point where you have such 
unanimity in the community about the preferred alternative 
being the road because all other solutions have been tried and 
failed, or have been analyzed and determined too costly or not 
feasible given the situation.
    And I appreciate that you are new to the issue of King 
Cove, but I hope you would also appreciate that to them, this 
has been almost a lifetime of struggling to get this short 
connector road, a reliable, safe and secure, and affordable 
alternative in order to gain access.
    I would ask that you do more digging into the Coast Guard 
as a solution. I have talked not only to the admiral in the 
17th District, Admiral Ostebo, but also to Admiral Zukunft, who 
will be taking over as commandant. And I think it is very, very 
clear that the Coast Guard not only does not view this as a 
mission, it is not a mission that they wish to take on.
    In order to accommodate the people of King Cove on a 
somewhat reliable basis, they would require two additional 
helicopters at $26.1 million apiece. You would have to have an 
additional 20 personnel in order to allow for a level of safety 
for the pilots and the maintenance crew. Just the per diem 
alone to house them in Cold Bay would be a half million dollars 
on annual basis. That is just for the per diem.
    So, Madam Secretary, I encourage you to do your due 
diligence. But I will note that there has been nothing included 
in the President's budget for even the slightest alternative.

                            ARCTIC STRATEGY

    Let me turn very quickly here, this is a question that I am 
asking all Cabinet members. The national strategy for the 
Arctic region came out. We have the implementation plan for the 
national strategy, and within the implementation plan, the 
Department of the Interior has been designated as the lead 
agency in five different areas.
    Can you tell me what funding is included in the President's 
budget for the five areas that the Department of the Interior 
is tapped to be the lead agency for? You are also the 
supporting agency for numerous other projects. So I am trying 
to divine how much attention the administration is actually 
placing on the Arctic implementation plan.
    Secretary Jewell. Senator, and I know we are out of time, 
so I will make the answer very brief. I do not have a crosscut 
on all of the Arctic programs. I will be happy to get that to 
you very quickly. It wasn't one of the numbers that I prepared 
in advance for this gathering.
    But I will say the Arctic is very important to the United 
States of America, clearly very important to Alaska. We are 
very pleased to be involved with you and others in our Arctic 
strategy.
    From a scientific research standpoint, from a defense 
standpoint, from an oil and gas development standpoint, and the 
geopolitical standpoint, we think it is very important that we 
be at the table. I know that the Arctic Council will be meeting 
in Canada this year, that the United States will be hosting the 
following year, and we intend to fully engage in Arctic 
strategy issues, and we will get back to you with specifics.
    [The information follows:]
                            Arctic Programs
    The Department of the Interior is committed to full participation 
in the implementation of the National Strategy for the Arctic. This 
commitment involves the breadth of Interior's bureaus and offices with 
equities in the Arctic region with support from a myriad of programs 
and activities. The Department does not have a dedicated budget for 
Arctic activities but instead is supporting implementation of the 
Strategy by leveraging a diverse set of programs with multiple 
authorities and funding sources. Thus, there is not crosscut that 
identifies discrete funding for the Arctic Strategy, instead the 
Department is tracking actions and outcomes that are supported by 
Interior in total.

    Senator Murkowski. If you can get me those, I would 
appreciate it.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    And thank you all for your presence and helping us 
understand this budget.

                   OREGON AND CALIFORNIA GRANT LANDS

    One of the things that I wanted to address was the budget 
for the O&C lands that are in Oregon. We have millions of acres 
of second growth forest that needs to be thinned, needs to have 
hazardous fuel reduction work, restoration work, needs to be 
prepared for the work done for the various sales that would 
come out of it.
    But the budget has been cut by $10.5 million. So if we are 
going to go forward on resource management plans, which require 
significant additional resources, and if the budget is cut, and 
if the current projects in the forest are greatly underfunded 
as it is, doesn't this mean just further lack of management and 
more problems for the O&C lands?
    Secretary Jewell. Thank you, Senator.
    There are a number of things that are mixed in with the 
Oregon and California Railroad Revested Lands (O&C) budget. One 
of the things is that the Bureau of Land Management (BLM) 
completed a resource management plan in prior years, so that 
will not be repeated, and part of the budget cut has to do with 
that.
    I know we are working with your team in Oregon on a 
sustained yield level, and we have a plan in place to cut about 
200 million board feet a year. Is that the right number? I 
think it is, 200 million board feet a year.
    In this year it is going to be a little bit higher, because 
of some salvage logging that is going to be supported.
    We know it is a very important program to Oregon. We know 
it is an important source of funding for schools in Oregon, as 
is the Secure Rural Schools. We will continue to support what 
we believe in the BLM to be a sustainable forest yield level of 
200 million board feet.
    With the resource management plan completion, we don't 
think we will need as much money as we had last year to do an 
equivalent job, and that is the basis of the budget.
    Senator Merkley. OK, I will just leave that as a concern I 
have for that particular area and the challenges that are faced 
in managing it appropriately, because it is suffering from many 
decades of underinvestment as it is currently.

                    LAND AND WATER CONSERVATION FUND

    I want to turn to the Land and Water Conservation Fund and 
specifically, there have been projects from all over the 
country that involve particularly sensitive pieces of land for 
acquisition. And now largely the funds go to what are referred 
to as collaborative landscape projects. There seems to be a lot 
of mystery as to how these are created and designated, kind of 
a black box.
    Oregon doesn't have one. We keep inquiring how it could 
come to have one.
    But what it means, essentially, is only a couple States 
really benefit from the mass majority of these funds. And yet, 
these funds were meant to enable sensitive projects to be 
acquired all over the Nation.
    So could you just give us a little background on this 
collaborative landscape strategy, and why it makes sense to 
ignore most of the U.S. for just a couple projects?
    Secretary Jewell. Senator, for specifics, I will turn to 
Rhea, in terms of how the money is spent. Let me give you a 
high-level overview, because there are two places these 
landscape cooperative areas that you reference, that I have 
personally been to, one very recently is in Montana, the Crown 
of the Continent region around Glacier National Park.
    This is one of the largest intact landscapes in the United 
States. Much of the land is managed by ranchers and they would 
like to keep those lands in working ranches. But they are 
highly developable otherwise, which would very much impact the 
ability of many migratory species, such as elk, grizzly bears, 
and others.
    We work cooperatively with Canada, which has set a lot of 
land aside and taken some out of mining development, for 
example, and our private landowners in that region to really 
work collaboratively on putting those landscapes in 
conservation while maintaining them in ranching.
    Similarly, in the headwaters in Everglades, it is another 
major area where we have done that. We have prioritized part of 
the Land and Water Conservation Fund (LWCF) money, but by no 
means all of the LWCF money in those projects, because we know 
they are critical. If we don't focus, it is sort of a peanut 
butter spread, but we are not able to take care of some very, 
very threatened ecosystems throughout the country.
    Longleaf pine in the Southeast is another area, but by no 
means does this limit our willingness or ability to invest in 
individual projects, which does continue.
    Rhea, do you have any quick things, because I know time is 
short?
    Ms. Suh. Sure. Thank you, Senator, for that question.
    The collaborative projects, and the process we created 
several years ago now, are really designed to enable the 
Federal land management agencies to look across their 
jurisdictional boundaries and to identify national priorities 
that deserve the opportunity to work across those 
jurisdictions.
    Every year we have a competitive process that is vetted at 
a very technical level by each of the real estate functions of 
the land management agencies, elevated to the bureau director 
level of the four land management agencies, and collectively 
adjudicated in a process that outlines priorities.
    The priorities that show up in the budget are not 
necessarily all of the priorities we had, and the priority 
lists are much longer than the budgets we can actually afford.
    I would like to say I think part of what the administration 
is asking for in the Land and Water Conservation Fund full 
funding proposal is an ability to get more landscapes, both 
collaborative and core, onto the list in any given year.
    Senator Merkley. Thank you very much. I will be following 
up about that process. I do feel like there are a lot of very 
sensitive landscapes that have fallen off the list in recent 
years.

                      WILDLAND FIRE CAP ADJUSTMENT

    I am out of time, but just compliments on the fire 
suppression strategy of putting the big fires, essentially, 
into the emergency side. The Forest Service has been decimated 
by this continuous raiding of often fire prevention funds in 
order to fight fires, and thank you very much.
    Senator Reed. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman, Senator Murkowski, 
for the hearing.
    Welcome, Madam Secretary, to you and your team.
    I listened carefully to Senator Murkowski's passionate 
comments. I have known her a long time. I don't think I have 
ever heard her quite so strong in her comments. And I saw the 
Senator from California come in. It reminded me of an episode 
we had in our subcommittee, of which she is the chairman, where 
the general of the Army Corps of Engineers was trying to do the 
right thing, he thought, which was to close fishing below the 
dams on the Cumberland River. I thought that made no sense at 
all, because the dams aren't dangerous when the water is not 
coming through them, and the tracks aren't dangerous when the 
train is not coming. And he stuck to his guns, and we literally 
changed the law.
    But what Senator Feinstein said to him at that time was: 
Senator Alexander is a reasonable member; I would suggest you 
work something out.
    My thought is this, I have said in Tennessee, and I have 
said here, that I think you are one of the President's most 
able appointees. I think you will do a tremendous job as 
Interior Secretary. I know that Senator Murkowski is one of the 
most able and respected members of the United States Senate. 
And, except for this issue, the two of you would likely be 
close allies on a great many issues, so I hope you can work 
something out.

    JOINT CURATORIAL FACILITY AT GREAT SMOKY MOUNTAINS NATIONAL PARK

    I want to ask you in my time three or four pretty quick 
questions. One, I want to thank you for your visit to the Great 
Smoky Mountains National Park, and to you and your team for 
improving the joint curatorial collections that is half Federal 
dollars and half private funding. And I heard many good things 
about your visit. I thank you for that.

                            LAKE CUMBERLAND

    Also, I know that Senator McConnell, Senator Paul, Chairman 
Rogers, and Senator Corker, and I, appreciate the work that Dan 
Ashe of Fish and Wildlife and you did in putting a priority on 
getting Lake Cumberland back up to its proper level of water in 
time for the houseboat season. That may not seem like an 
important issue to many people, but it is to Chairman Rogers 
and the people in that part of Kentucky, because the water has 
been down for a long time. And you got done in what looks like 
35 or 45 days what could have taken 135, I think, something 
like that. And that is appreciated.

                            FISH HATCHERIES

    Now a couple of other issues, we are working together, the 
States of Tennessee and Georgia, the Tennessee Valley Authority 
(TVA), and Fish and Wildlife, again, Mr. Ashe, to try to come 
up with a plan for saving the fish hatcheries in Tennessee, the 
two of them. And TVA stepped in to do what it could, and that 
kept the fish hatcheries open. And that same group is now 
meeting to find a way for a permanent solution.
    This is important to the fishermen of Tennessee. It is 
important to the outdoors recreation of Tennessee, and to our 
tourism and jobs.
    So my question for you is, will you agree not to close down 
the two fish hatcheries in Tennessee during fiscal year 2015 
until you give this working group, including the two States, 
the TVA, and the Fish and Wildlife Service, a chance to come up 
with a solution that would have Congress pay for through the 
appropriate agencies the fish that were for sports fishing. In 
other words, we would separate the mitigation fish and the 
sports fishing.
    I would like to get a commitment not to close that down 
while we are trying to get a result.
    Secretary Jewell. Senator, thanks. I appreciate the 
importance of fish hatcheries on the sport fishery and on 
recreational fishing. And you know the challenges we have 
overall in the budget and the difficult decisions we have to 
make.
    We will not be closing any fish hatcheries in 2014. I do 
appreciate the TVA and the Army Corps stepping up to support 
their obligations, in terms of mitigation from their activities 
in terms of support for some of these hatcheries, which are for 
the downstream cold water sport fishing, as opposed to 
hatcheries that are necessary to maintain the integrity of 
species.
    Where we have people working together, cooperating on a 
long-term solution, is the kind of program we are very 
committed to supporting.
    I don't want to commit on any specific hatchery. It is my 
team that is working on that list, and they are working very 
cooperatively in Tennessee with other players. I think that is 
going to bode well for the hatcheries where there is 
cooperation. We are encouraging people in other States that 
have high-priority hatcheries for them to work with local and 
State partners to find long-term funding solutions.
    It feels a little like the base closure act when we talk 
about fish hatcheries.
    Senator Alexander. I am about out of time.
    Secretary Jewell. Oh, OK. Sorry. Go ahead.
    Senator Alexander. No, that is all right. But we understand 
what the Department's parameters are, and Mr. Ashe is working 
toward that, and we just want time to complete that. And the 
working group is pretty good because it has already had one 
success.

                   REIMBURSING STATES DURING SHUTDOWN

    The other one, Senator Flake has a bill to reimburse the 
States, which in our case were the counties, for the money lost 
that they spent reimbursing during the Government shutdown.
    My question is, will you support that legislation as it 
moves through Congress, to reimburse the State of Tennessee and 
the counties of Blount and Sevier for what they spent as a 
result of the Federal Government shutdown?
    Secretary Jewell. It is very clear the economic value of 
the national parks to local communities was evident during the 
shutdown. I will say I worked pretty much around the clock with 
very limited staff to facilitate the States' requests. We did 
some economic analysis, and it looks like close to a 10 to 1 
return that the States got for that investment.
    All unobligated funds were returned to the States. I did 
say at the time of these agreements that I couldn't obligate 
the Federal Treasury, and that it had to be congressional 
action, so I am supportive of the congressional action going 
forward. The decision will rest in your hands in terms of 
whether or not that happens.
    Senator Alexander. Thank you, Madam Secretary.
    I will submit in writing, if I may, Mr. Chairman, a 
question about white nose syndrome in bats, which you referred 
to in your statement.
    Thank you.
    Senator Reed. Thank you, Senator Alexander.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    And, Madam Secretary, thank you very much.

                           CALIFORNIA DROUGHT

    My statement and questions are going to be on drought and 
water in California.
    As you know, the Governor has called a state of emergency 
with respect to the drought. The snowpack is at 24 percent as 
of March 23. Shasta, Lake Oroville, San Luis Reservoir are all 
below 50 percent capacity.
    The California Farm Bureau estimates that a half-million 
acres are in the process of being fallowed, and that we will 
lose more than 100,000 head of cattle.
    It looks like 10 or more communities are going to run out 
of drinking water in the next few months.
    Now, a storm is approaching California right now, and this 
is the surge storm of the season. It is very important.
    I have asked my staff to bring down a copy of a letter that 
you have received from water contractors, so that you might 
look at it, as of yesterday. And they would like you and 
Secretary Pritzker to be on a conference call at 4 p.m. this 
afternoon.
    What is being asked, essentially--well, let me just give 
you a few data points. Salvage data from your agencies as of 
March 19 show no Delta smelt taken, 276 out of an allowed 
24,237 winter run salmon taken, and 148 out of an allowed 3,000 
steelhead taken.

                             WATER PUMPING

    So I think this data supports the notion that more water 
pumping can occur without jeopardizing fish species.
    And what I am essentially asking you to do is immediately 
consider emergency measures, which can increase pumping 
sufficiently to take advantage of this storm right now 
approaching our coast.
    It is really very important. This may be the one chance we 
have to pick up some additional acre-feet of water. So I would 
like to ask that now, of both you and your distinguished 
Commissioner of Reclamation.
    Secretary Jewell. Who has become my distinguished Deputy 
Secretary.
    Senator Feinstein. Excuse me, distinguished Deputy 
Secretary.
    Secretary Jewell. I will take a very high level. I was 
shown the letter by Mike in the car on the way here, so I 
haven't had time to fully digest it.
    [The letter follows:]
           Letter From the San Joaquin River Water Authority
                                        San Joaquin
                                     River Water Authority,
                                     Los Banos, CA, March 25, 2014.
    Re Request for Emergency Relief Due to Impending Storm Events.

Hon. Sally Jewell, Secretary,
Department of the Interior,
C Street NW, Washington, DC.
Hon. Penny Pritzker, Secretary,
Department of Commerce,
Constitution Ave. NW, Washington, DC.
    Dear Secretary Jewell and Secretary Pritzker: We are writing to you 
under the most urgent circumstances. As you are well aware, California 
is plagued by one of the worst droughts in its history. Water year 
2013-14 thus far has proven to be the second worst water year since 
recordkeeping began in 1850. While not quite as bad as 1977 standing 
alone, it comes on the heels of 2 prior years of extremely dry 
conditions. Yet, while the opportunities existed over the past 6 weeks 
to get more water to people and into storage south of the Delta, 
inaction has resulted in the loss of 225,000-450,000 acre-feet (af) of 
water supplies. Meanwhile, over 700,000 af flowed to the ocean. The 
situation for many in California is desperate.
    Now is the time that action is needed. The State cannot afford to 
lose another round of water supplies due to less than full 
implementation of proactive measures that are available to the State 
and Federal agencies.
    The Departments of Commerce and the Interior are in the unique 
position of having many of your stakeholders being those directly and 
profoundly impacted by this drought while at the same time having the 
ability to implement emergency measures that will provide a modicum of 
relief. The situation is as follows.
    Regulations imposed on the State Water Project (SWP) and Central 
Valley Project (CVP) (together ``Projects'') through biological 
opinions issued by your Departments are having a real-time adverse 
impact on California's water supply. With storms about to hit 
California, the Projects are collectively in the position of being able 
to capture significant amounts of water without adversely impacting 
listed fisheries.
    The National Marine Fisheries Service (NMFS) has been working with 
the U.S. Fish and Wildlife Service (USFWS) and their State counterparts 
to examine opportunities to provide flexibility to meet crucial water 
supply needs in the urban and agricultural sectors. Despite efforts to 
date, the Silicon Valley, which Secretary Pritzker recently visited and 
pledged to partner with to promote greater benefits for our economy and 
our citizens, is only receiving 75,000 acre-feet of the over 200,000 
acre-feet which it would be entitled under from State and Federal water 
sources. As a result, the local water district has requested its retail 
customers to reduce usage by 25 percent. Economic impacts of water 
rationing are severe. Similarly, in the agricultural sector, much of 
which is served by the Bureau of Reclamation, the Sacramento and San 
Joaquin Valleys are being devastated. Over 3 million acres of the 
Nation's most productive farm lands are receiving a zero surface water 
allocation this year. Permanent crops such as trees and vines are 
literally being ripped out due to lack of water. Hundreds of thousands 
of acres of permanent and annual crops will go fallow. The loss of 
permanent crops takes 5-10 years to restore. Annual crops fill 
irreplaceable supply chains that provide about 50 percent of the 
Nation's fruits and vegetables. Unemployment in the valleys will soar. 
Banks loans and insurance will become more expensive if the integrity 
of the water system is not maintained.
    The Endangered Species Act provides NMFS and USFWS with the tools 
necessary to support the emergency response actions necessary to 
provide much-needed relief that California needs and avoid the imminent 
loss of hundreds of thousands of acre-feet of irreplaceable water.
    Weather predictions indicate that another storm is heading to 
California today or Wednesday. We request that you allow for the 
maximum pumping of the flow that is going to develop from this storm 
based on the following conditions.
    Currently, protected fisheries in the Delta have experienced 
historically low take at the State and Federal water pumps. The nominal 
take is consistent with the monitoring data that has consistently and 
clearly demonstrated a lack of presence of protected fish in the 
central and south Delta in 2014. Because of this, we believe that 
maximizing pumping for the limited time that uncontrolled Sacramento 
River flows are elevated due to the storm is unlikely to jeopardize 
listed species. However, to ensure adequate levels of protection, we 
propose that if take reaches the levels of concern identified in the 
species specific incidental take statement, implementation of this 
emergency action be reassessed.
    As we explain on the attached pages, a temporary adjustment to the 
Delta smelt and Chinook salmon biological opinions (BiOps) would allow 
pumping--subject to take of fisheries--up to the full 11,280 cubic feet 
per second (cfs).
    Time is short. The storm is approaching and, practically speaking, 
we need a decision by close of business on Thursday, before Sacramento 
River flows arrive at the Delta. We therefore request that conference 
calls be set up for Wednesday and Thursday so that the situation may be 
addressed in real time with the most senior resource managers from both 
the State and Federal sectors as well as the water user and 
environmental communities.
    Once this storm series passes, and thinking ahead to the rest of 
this water season, the State is installing salinity barriers in the 
Delta. Further, State and Federal water managers are confident that 
they can control salinity in the Delta with fairly minimal flow amounts 
this summer, generally around 2,500 cfs. Water managers are proposing a 
longer term action plan that is being finalized. Continued real-time 
management will allow for improvements of water supply and protection 
of the upstream and Delta ecosystems.
    This letter is also being delivered to a number of other State and 
Federal officials that have a key role in California water decisions. 
We request that each of them become engaged in this rapid 
decisionmaking process and participate directly or through their 
delegates in these conference calls. However, we believe your direct 
leadership is necessary at this time and hope that you will participate 
personally. We have taken the liberty of setting up a conference line 
for the first call on Wednesday at 1 pm PDT (4 pm EDT). For 
convenience, we propose the same time be used for Thursday.
    The opportunity presented by this storm is upon us. We cannot 
afford inaction by either State or Federal regulators or water 
managers. We need your authority to impress upon your Departments and 
others that this is truly an emergency situation that requires 
immediate action. Failure to take action becomes a decision in and of 
itself and we are not likely to have another opportunity this year to 
help relieve this dire situation.
            Urgently and gratefully yours,
                                   Steve Chedester, Executive Director,
                                           San Joaquin River Exchange 
                                               Contractors Water 
                                               Authority.
                                   Daniel G. Nelson, Executive 
                                       Director,
                                           San Luis & Delta-Mendota 
                                               Water Authority.
                                   Ronald Jacobsma, General Manager,
                                           Friant Water Authority.
                                   Chase Hurley, General Manager,
                                           San Luis Canal Company.
                                   Randy Houk, General Manager,
                                           Columbia Canal Company.
                                   Christopher L. White, General 
                                       Manager,
                                           Central California 
                                               Irrigation District.
                                   Jeff Bryant, General Manager,
                                           Firebaugh Canal Water 
                                               District.
    Enclosures.
                            foregone pumping
Upcoming storms commencing March 23, 2014
    Currently the Projects are operating to a combined 2,000 cubic feet 
per second (cfs) export level resulting in about 5,500 cfs Delta 
Outflow and an Old and Middle River reverse flow limitation (OMR) of 
about -1,600 cfs. The export/inflow (E/I) ratio is about 25 percent, 
and San Joaquin River stream flow is about 700 cfs. Storms to Northern 
California are forecast to begin Tuesday evening and will bring 
precipitation throughout the week and into the weekend. It is 
anticipated that these storms will result in unregulated runoff within 
the Sacramento Valley similar in response to the storms experienced 
earlier in the month, resulting in excess flow in the Delta which 
potentially is available for delivery and storage south of the Delta. 
Although there are uncertainties in the timing and magnitude of the 
storm events, the following provides an explanation of the constraints 
upon exports that will result in foregone pumping in the near future.
    Without immediate relaxation of several pumping and outflow 
constraints the capture of a significant amount of the excess flow will 
be foregone, up to 125,000 acre-feet, similar to what has occurred 
during each of the storms of the last 2 months. The graphic below 
illustrates projected operations beginning today, through April 9. Of 
immediate issue are the OMR and E/I constraints. As inflow to the Delta 
increases due to the storms, pumping will increase. However, almost 
immediately pumping will be constrained by a maximum OMR flow of -5,000 
cfs and a maximum E/I ratio of 35 percent. While available pumping 
capacity is about 11,280 cfs, the pumps will be running at only about 
6,600 cfs, foregoing over 9,000 acre-feet of excess flow per day for 
several days. This effect is compounded by an outflow requirement of 
7,100 cfs for X2 which limits the amount of excess outflow that can be 
pumped, but which however, under the dire drought circumstances has 
been reduced by the State Water Resources Control Board (SWRCB) this 
year with the concurrence of State and Federal fishery agencies. 
Notwithstanding the SWRCB order, separate, but of significant impact on 
water supplies, will be the effect of the Reasonable and Prudent 
Alternative (RPA) condition in the Biological Opinions regarding the 
San Joaquin River Inflow to Export Ratio that would be exercised 
beginning April 1 and continuing through May. This action requires 
exports to be no greater than the inflow entering the Delta from the 
San Joaquin River (1:1), currently about 700 cfs. This action would 
constrain exports even lower than the actions already constraining the 
exports to 6,600 cfs, resulting in an additional 11,000 acre-feet per 
day of foregone pumping.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Secretary Jewell. I will say that the National Marine 
Fisheries Service and the Fish and Wildlife Service have 
exercised great flexibility so far this year in interpretation 
of their biological opinions to pump additional water, 
significantly more than last year.
    I also know the balance with the State needs and the 
salinity needs of the Delta, it is not just Delta smelt and the 
salmonids that are impacted.
    I am going to turn it to Mike to get into the specifics of 
this request and where we are with this incoming storm.
    Mr. Connor. Thank you, Secretary Jewell.
    Senator Feinstein, I can confirm that David Murillo, our 
regional director, will be participating in the call. We are 
still confirming availability of the key folks with Fish and 
Wildlife Service and National Oceanic and Atmospheric 
Administration (NOAA) fisheries in the discussion today.
    I would just note the discussion is really an ongoing 
discussion that has been going on over the last couple months. 
The precipitation event we have now happening in California is 
the third, as you referenced.
    We have taken significant measures and improved measures, 
quite frankly, improved our interpretation in our application 
of those biological opinions. As you remember in 2013 when we 
had similar events, and we can pump in the range of 5,000 to 
6,000 cubic feet per second (CFS). In 2013, we were down around 
2,000 to 2,500 CFS. That was the reference that a lot of people 
had to lost water.
    This year, in both of the events, we have maximized our 
pumping under the biological opinions. When Secretary Jewell 
was up there about 10 days ago, we were at 5,800 CFS. We 
actually got up to about 7,000 CFS of pumping at the high 
points during that runoff period. We intend to do the same with 
this runoff period.
    We are looking at some other additional measures we can 
take, and that is an ongoing discussion amongst the five 
agencies, the three Federal and two State agencies.
    We will engage the water users in that as part of the 
discussion today and continue to try to maximize how to make 
use of the runoff that comes during these precipitation events.
    Senator Feinstein. Mike, this may be the last opportunity 
we have to get enough additional water to make the five points 
in the drought bill that Senator Boxer and I have introduced 
that we are now trying to put together 60 votes on, to produce 
an additional 300,000 to 600,000 acre feet.
    So this storm is really important that we maximize the 
ability to save that water.
    Mr. Connor. Yes, absolutely. I would note several of those 
measures that are in your legislation are measures that we have 
taken this year that have significantly helped us increase the 
pumping.
    I think we can probably do more within the parameters of 
the biological opinions and the State permit we operate under. 
Those are the two constraints that we operate under, and we 
will do as much as we can.
    Can we get up to the 11,500 CFS maximum capacity of the 
pumps? I don't know that we can get there, but we are, 
certainly, going to try to keep moving up.
    Senator Feinstein. Well, what I have to say, you know, I am 
a lifelong Californian, I have never seen the level of 
desperation that exists all down the center of our State.
    And the unemployment rate is going up. The food lines are 
building. It is really a problem.
    We flew over with the President for 100 miles and just saw 
the devastation of the absence of water in that valley.
    So I know you are sincere. I know you want to do it. Please 
make that push now.
    Thank you, Madam--Mr. President--Mr. Chairman.
    Senator Reed. You honor me.
    Thank you, Madam Chairman, yourself.
    Senator Udall.
    Senator Udall. Thank you very much, Chairman Reed.

            OREGON MOUNTAINS-DESERT PEAKS NATIONAL MONUMENT

    And, Secretary Jewell, let me thank you very much for your 
visit to southern New Mexico. I know that you spent a couple 
days there. You had the opportunity to get around and see the 
Oregon peaks and Oregon Mountains-Desert Peaks National 
Monument and get the opportunity to get out and hike a little 
bit. And I hope that was fruitful for you.
    And I think it really prepares us to move forward with 
legislation on the monument, so I appreciate that visit.
    And it is always good to see Mike. Mike is a New Mexican, 
and we are very proud of you.

                                DROUGHT

    And as you are well-aware, Mike, New Mexico is suffering 
the same kind of drought that has been talked about here. In 
some areas, 13 years that we have been in drought, and it is 
severely impacting farmers and ranchers and people that live 
off the land, our tribes. And I know that the Bureau of 
Reclamation (BOR) has been working very diligently on that with 
all the groups have been involved.
    It really hit me in a way when I was out near Tucumcari, 
and there is a project out there that has been organized in a 
way where the community is involved and the Bureau of 
Reclamation is involved. And since the Great Depression, when 
the project was built, they always had water for farmers and 
ranchers.
    The last 2 years, not a single drop of water. And these are 
families with livestock and crops. They have to have water. If 
they can afford to haul water, they can do that, but it is 
obviously much more expensive.
    So we are in that difficult situation, too. And I 
appreciate all your work on that.

                             SEQUESTRATION

    Secretary Jewell, last year your Office of Natural Resource 
Revenue (ONRR) had determined that revenue paid to the States 
under the Mineral Leasing Act were subject to sequestration. 
You and I talked about that, and I asked you to reevaluate your 
position. And I really want to thank you for directing the ONRR 
to reverse its position and not sequester the funds.
    This revenue is vital to States such as New Mexico. It 
funds necessary items such as public schools, community 
colleges, emergency response activities, and basic 
infrastructure projects. So it was critical that these funds 
not be impacted by sequestration. We appreciate your attention 
to that.

                       PAYMENTS IN LIEU OF TAXES

    And I also would like to share my concerns regarding 
another form of critical support for local governments. That is 
the program Payment in Lieu of Taxes, or PILT. As you know, the 
PILT program provides critical funding to communities in New 
Mexico, like Cibola County, San Juan, Otero, Eddy counties, 
just to name a few of our 33 that get these funds.
    And I am very concerned there might be a lapse. We have 
been able to work in the appropriations process to get a 1-year 
extension. But I am wondering if you could share with me your 
thoughts on how we can make sure we have the funds there and 
how we can get congressional-executive cooperation to see that 
we have PILT funding in 2014 and beyond.
    Secretary Jewell. Thank you, Senator. It was a pleasure to 
visit your State. It was the first time I have seen a tarantula 
on the trail, so that was interesting.
    We are strong supporters of PILT as well as Secure Rural 
Schools. We recognize when Federal lands are in local 
communities, it takes them off the tax rolls, and that is the 
purpose of PILT.
    There is, in the President's budget, a 1-year 
reauthorization. As you know, for 2014, it passed on the farm 
bill.
    We would love to see a permanent fix. I think as we look at 
the authorization of the Land and Water Conservation Fund, 
potentially putting that together with PILT is an appropriate 
way of looking at a longer-term, permanent source of funding 
for both programs, which are so important for the reasons that 
I talked about in my opening statement, and in answers.
    I am happy to work with you. I think that makes sense for a 
rational path forward.
    Senator Udall. And I was going to ask also about the Land 
and Water Conservation Fund, but you hit on both of those. And 
they are absolutely key programs to the West and very much 
appreciate your help there.

                             PILOT OFFICES

    I wanted to also ask about the BLM pilot offices. As you 
know, the 2005 energy bill designated several pilot offices to 
receive extra resources to expedite permitting processing and 
conduct much-needed environmental oversight.
    These offices, which include the Carlsbad and Farmington 
offices in New Mexico, are already understaffed and overworked. 
But the looming expiration of this program at the end of 2015 
would further burden these offices.
    Can you provide some insight into the importance of this 
pilot program as it relates to the responsible energy 
development in States like New Mexico? And how does the 
investment in energy development translate into revenue for the 
American taxpayer?
    Secretary Jewell. In a quick nutshell, because I know we 
are running out of time. The pilot offices were a great 
experiment, but they went along political lines, along State 
lines, and oil and gas exploration resources don't know 
political boundaries.
    There is support in the 2015 budget for extension of the 
pilot office authority, but it also includes flexibility to be 
able to relocate the offices, to meet the demands of 
permitting.
    We have had dramatic reductions in the amount of time taken 
to process authorizations for permits to drill. We have 
improved the inspections, because of the investment in these 
pilot offices.
    We do find that there is sometimes a mismatch between where 
the pilot process is and where the demand has moved to because 
of the development. The offices have had a good return on 
investment, and we believe that is important to our strategy 
going forward, in addition to asking companies to pay for a 
portion of what it costs us, particularly in inspections and 
safety.
    There are some revenue proposals in this budget that enable 
us to charge fees to industry to inspect, and that will also 
help us fund these offices in terms of supporting future 
development.
    Senator Udall. Thank you, Madam Secretary.
    Senator Reed. Senator Johnson.
    Senator Johnson. Thank you, Chairman Reed. I share the 
concerns about the PILT program.

                                LANDSAT

    Secretary Jewell, I applaud you, the U.S. Geological Survey 
(USGS), and, in particular, the Eros Data Center in South 
Dakota for the extraordinary success of the Landsat program. 
With last year's launch of Landsat 8 and the inevitable 
expiration of Landsat 7 in a few years, the continuity of this 
imagery into the future will become a critical question.
    As such, Congress included language in the committee report 
to the fiscal year 2014 funding bill directing USGS and the 
National Aeronautics and Space Administration (NASA) to 
collaborate and develop a new path forward for the Landsat 
program.
    Can you give me an update about the status of those 
discussions, and how the short timeline for needing to launch 
the Landsat 7 replacement is factoring into these plans?
    Secretary Jewell. Thank you very much, Senator, for the 
questions.
    I did have an opportunity about 2 months ago to meet with 
NASA to talk about this program. It is very critical that we 
replace Landsat 7 before its batteries run out. It gives us, I 
think, an 8-day gap in data, which is very, very important.
    Landsat 8 provides a lot of new information that helps us 
deal with things like evapotranspiration, which are very 
important to understanding the impacts of drought and water 
across a lot of the country, and many other things.
    We are working closely with NASA on the potential of a 
clone to Landsat 8, and also an interim solution that gives us 
the data we need that NASA presented to us at our meeting.
    We are very committed to a path forward. We appreciate the 
support in the legislation and will continue to work with 
Congress on making sure we don't have a data gap on this 
support program.
    Senator Johnson. I appreciate your attendance at the Eros 
Data Center recently.

                    LAND AND WATER CONSERVATION FUND

    The Land and Water Conservation Fund has supported several 
recent projects in South Dakota, including an expansion of Wind 
Cave National Park, protection of grasslands in the Prairie 
Pothole Region, and the acquisition of key portions of the new 
Good Earth State Park.
    These projects have boosted tourism, protected our ranching 
heritage, and provided additional opportunities for hunting, 
fishing and other outdoor recreation.
    The administration budget has identified four priority 
projects for land or easement acquisition in South Dakota in 
fiscal year 2015 as a part of the Grasslands/Prairie Potholes 
Cooperative Landscape Partnership.
    However, much of the funding for these projects, and many 
others around the country, is proposed to come from a permanent 
funding mechanism that I support but does not yet exist. Should 
this funding mechanism not be enacted, what is your perspective 
on funding the projects on the list designated for permanent 
funding?
    Secretary Jewell. Thank you, Senator.
    The proposal for 2015 has $350 million in the current 
appropriations, and the balance, to the $900 million would 
require a legislative approval. The legislative proposal also 
includes full and permanent funding at $900 million in 2016 and 
beyond.
    There is $350 million in this proposal, in the budget 
proposal that you have before you.
    There are many projects that exceed what we have in LWCF 
funding, and we prioritize them according to their ability to 
address the biggest challenges we have and the biggest 
opportunities we have. The number of willing sellers who want 
to sell us land relative to our ability to buy them, and there 
are a lot more people that want to sell us land than we have 
money for.
    I know we have $7 million for the Dakota Grasslands 
Conservation Area, $3 million in the Tallgrass Prairie Wildlife 
Area, and $574,000 for Wind Cave.
    Rhea or Pam, do you know where those are within the $350 
million as opposed to the $900 million. And where they stack 
up?
    And if we don't know right away, Senator, we will get back 
to you with details on that.
    [The information follows:]
                     LWCF Projects in South Dakota
    The following projects are included in the $350 million 
discretionary request.
    FWS.--Dakota Tallgrass Prairie Wildlife Management Area, 
$3,000,000; Dakota Grassland Conservation Area, $7,000,000.
    The following projects are included in the $550 million mandatory 
request.
    FWS.--Dakota Tallgrass Prairie Wildlife Management Area, 
$3,887,000; Dakota Grassland Conservation Area, $7,000,000.
    NPS.--Wind Cave National Park, $574,000.

    Senator Johnson. Please do.
    Secretary Jewell. But the Prairie Pothole, the Nation's 
duck factory, it is really, really critical habitat and, as you 
know, disappearing very quickly from agricultural development, 
as well as other forms of development. It is very important to 
us.
    Senator Johnson. In South Dakota, visitor spending in and 
around our six national park units totaled $160 million in 
2011, and it supported more than 2,500 jobs.
    With the importance of the national park system to our 
national, State and local economies, we cannot continue to push 
deferred needs to the future without substantial risk.

                          MAINTENANCE BACKLOG

    The administration has proposed a substantial investment in 
our parks in the fiscal year 2015 budget, but it is clearly 
only a down payment, given the nearly $11 billion maintenance 
backlog nationwide. With flat or declining budgets and the 
upcoming centennial of the park system, what approaches do you 
see to redeem our stewardship responsibilities and address this 
backlog in an efficient and effective way over the next decade?
    Secretary Jewell. Senator, thank you very much for the 
question. This is a topic I am passionate about, and something 
where we only have one shot at the centennial.
    We know there will be increased visitation, and the 
National Park Foundation is working to raise awareness about 
the importance of national parks to all Americans and drive 
tourism, both domestically and abroad.
    The parks have prioritized the assets they have that need 
the most maintenance that are likely going to see the most 
visitors. We have a $40 million increase proposed in the 
budget. $10 million of that is for a matching fund, because 
there is a lot of private philanthropic interest, and that will 
be one way forward, to raise private money because people do 
love their national parks and are willing to support them. The 
match will help leverage those dollars even further.
    But it is just a down payment, as you point out. Even with 
the $1.2 billion recommendation we have in the President's 
budget for mandatory funding for the national parks over 3 
years, we are still not going to make a material difference in 
the maintenance backlog.
    The National Park Centennial will give people an 
opportunity to recognize these special places, and we believe, 
as the public speaks in a democracy, we will have the 
opportunity for additional support.
    I also just want to reference that in the Helium bill, 
Senator Murkowski was able to add additional $50 million for 
maintenance of the national parks, and we appreciate those 
efforts. They all add up.
    Senator Johnson. Thank you.
    Senator Reed. Thank you very much, Senator.
    We will begin a second round.

                                 YOUTH

    Madam Secretary, we have a common goal, which is to get 
young people involved in the outdoors through education. I have 
introduced, on several occasions, the No Child Left Inside Act. 
Your budget identifies almost $51 million in funding for youth 
engagement programs. Actually, it is a 37 percent increase 
since fiscal year 2014.
    Could you please walk us through the specifics on how you 
intend to use these funds, and how you measure success in this 
investment?
    Secretary Jewell. Thanks for the question.
    We have a four-tiered plan, if you will. We have a 
generational transformation going on in the country right now. 
The millennial generation is already larger than the baby boom 
generation. They came of age during a tough economy. Many of 
them have been more disconnected to nature and the outdoors 
than before, and yet we really need them to be in the kinds of 
positions that are necessary for the overall stewardship and 
development of our public lands.
    Part of this program is to engage that generation, but it 
is also a continuum, recognizing that the best introduction to 
nature and the outdoors comes in the form of play for children. 
Part of this budget supports programs in our regions to partner 
with 50 cities on increasing opportunities for children to play 
on public lands.
    Examples might be urban wildlife refuges, which are already 
incredible assets in urban areas. Some of the money will go to 
support connecting children to those places, and the next tier, 
which is learn.
    We have a goal of getting 10 million children engaged in 
playing on public lands and 10 million children learning on 
public lands. This recognizes and supports the ongoing programs 
and emphasizes them further.
    Then there are two more components, serve and work. Public 
service on public lands, volunteering on public lands, enables 
young people to never look at those lands in the same way. I 
make it a point of doing service projects regularly, to get out 
on the land, to work with my hands and to work with young 
people.
    Those efforts oftentimes are led by young people working in 
Youth Conservation Corps, and there is nothing I like better 
than being told what to do by a twentysomething who is working 
on a Youth Conservation Corps, who can teach me the difference 
between poison ivy and English ivy as I remove it in Rock Creek 
Park, or things like that across the country.
    We have a goal to engage by the end of this term a million 
hours of volunteer service on public lands--that is triple 
where we are right now--and a goal to create 100,000 jobs over 
4 years on public lands through working collaboratively with 
Youth Conservation Corps.
    We are very committed to this effort, and we will be 
building a new generation of young people that care and 
understand these resources and can learn from those who are 
already in these kinds of jobs.
    Senator Reed. Thank you, Madam Secretary.

                        HURRICANE SANDY FUNDING

    Before I recognize Senator Begich for his first round, let 
me ask one more question, and that is, Hurricane Sandy was 
devastating to my region, and there is about $100 million, 
which the National Fish and Wildlife Foundation is helping to 
administer through your office, in terms of grants.
    If you could get us up-to-date in terms of when do you 
anticipate these awards being made, and talk about the demands 
for these grants? And, indeed, what long-term goals are you 
trying to achieve through the grants?
    Secretary Jewell. Starting with the last question, we think 
that competitive grants that provide people with an opportunity 
to think how we can leverage these funds most effectively to 
achieve the objectives have just been very successful in other 
areas. The National Fish and Wildlife Foundation is 
administering them for us, and I appreciate the four letters 
you sent me on projects--I think it is four, maybe more--in 
your region.
    We had 378 proposals submitted, totaling $568 million for 
the $100 million in grants. It includes 10 proposals 
exclusively for the State of Rhode Island for $11.3 million. We 
have a panel of experts who are working through these proposals 
who really know these issues, and they expect to make a final 
decision by June of this year.
    Senator Reed. Thank you, Madam Secretary.
    Senator Begich.
    Senator Begich. Mr. Chairman, thank you very much. I am 
sorry, I had to step out there for a few minutes. But let me, 
if I can, I want to recap.

                             KING COVE ROAD

    I know we had a meeting yesterday, and I want to thank you 
for that, Madam Secretary, joining myself and the King Cove 
community in having the discussion, which I think was scheduled 
for a half-hour and ended up a little over an hour. And I 
appreciate the time that you took there.
    And I know the community laid out additional concerns, as 
well as some concerns with alternatives, and I want to walk 
through just a couple things, just to make sure to put it on 
the record for all of us.
    In the meeting, we talked about the King Cove community 
coming back by April 15 with information or additional 
information that they would like to present to you in regards 
to potential options that may be out there and the problems 
with those options. And I want to make sure I put that on the 
record and confirm that is your understanding, that by April 
15, they will be coming forward to you and to the delegation, 
but directly to your office, I think it was through Pat 
Pourchot, if I recall right, to give you kind of a list of 
concerns they would have with many of these alternatives that 
are being talked about or considered as an alternative to the 
road. Is that your understanding?
    Secretary Jewell. Yes.
    Senator Begich. On top of that, there is a letter that they 
sent to you, I think it was early January, and they had not 
received a response yet in regards to their concerns with the 
Environmental Impact Statement (EIS) and the actual elements of 
it. The commitment was, after that information was additionally 
given to your office after April 15, simultaneously, I should 
say, during that period of time, you will review with legal 
what your ability is to respond to that letter, how in depth or 
how minimal it will be, but you would not respond until this 
additional information comes in, so you might incorporate 
responses also to that. Is that your understanding?
    Secretary Jewell. It is my understanding they will be 
getting me additional information, and I need to consult with 
legal counsel. There are really complicated laws involved here 
that I am not familiar with. The timing of my response relative 
to the information I get is something I need to talk over with 
legal counsel. Because we met until late yesterday, I haven't 
had a chance to talk with them yet today on a path forward.
    Senator Begich. No problem. But I want to make sure that, 
one way or another, it may be a very short letter, it may be a 
very long letter, but there will be a response to the 
correspondence they sent in to you the beginning of January 
regarding the EIS.
    You may not be able to go into detail on it, because legal 
may tell you not, but they may tell you, sure, go ahead and 
respond. But either way, after April 15, once additional 
information is provided, you will have some sort of response to 
the original letter and the additional information. It may be 
limited or it may expanded, depending on what legal tells you; 
is that correct?
    Secretary Jewell. Yes, I will provide a response in both 
cases.
    Senator Begich. OK.
    And can I say that your conversation yesterday, that you 
were not closed to hear these issues with these alternatives 
that may be kicked around, but you wanted factual--for example, 
we talked about the weather conditions that would not allow 
some port activity because of the icing, and so forth. One of 
the concerns, I don't want to put words in your mouth, but you 
wanted to make sure that the data that comes from the King Cove 
community shows exactly why this would not work, which I agree 
with that. I mean, I would argue the King Cove community will 
give you plenty of information, why it ices up, why these 
conditions will just never allow this alternative.
    But your understanding is that you want to see that in data 
form on some site. Is that fair? I am trying to summarize here 
in a public forum what we talked about.
    Secretary Jewell. There are lots of facts that were 
incorporated into the record of decision. I haven't read the 
detailed EIS. I read an awful lot of material.
    There are legal parameters around records of decision that 
I don't fully understand. If there are additional facts and 
information, I am, certainly, willing to review those facts and 
information, particularly with regard to alternatives in 
supporting the residents of King Cove, and their needs for 
medical evacuation.
    Senator Begich. OK. And I think it is fair to say that the 
delegation's view, the King Cove community view, is there is 
one alternate. It is the road. Is that a fair, from your 
viewpoint at this----
    Secretary Jewell. Yes, in all of my communications with the 
community, and I think it is probably fair to say in the 300 or 
so consultations that have happened over the years, the 
community has been consistent in only wanting to assess one 
alternative, which is a road.
    Senator Begich. Let me, if I can because I will have more 
on that as we move down the process here, but I will have some 
additional stuff for you later, but let me ask you a couple 
quick things in regards to the budget.

                SITE CONTAMINATION AT TRANSFERRED LANDS

    I know I sent a letter in regard to contaminated lands that 
were transferred to the Alaska Native Corporation through the 
Alaska Native Lands Claims Settlement Act. This was an issue. I 
think there are 600 of these sites, or plus.
    There were six recommendations made in 1998. We sent you a 
letter to ask your Department to review these recommendations 
and what action you would take or not take in regard to these 
contaminated lands. It is almost, as you know, over 15 years 
since these recommendations.
    If you can give me a quick update on the status of 
responding to that letter in regard to those recommendations, 
for the record?
    Secretary Jewell. Are these regarding the legacy wells and 
the National Petroleum Reserve-Alaska?
    Senator Begich. No. These are lands that were transferred 
to native corporations. Some were polluted lands. They were BLM 
lands. And they were other type of contaminations.
    Secretary Jewell. OK, I am sorry, I don't have information 
on that, so let me get back to you for the record on that.
    [The information follows:]
                Site Contamination at Transferred Lands
    Secretary Jewell responded to Senator Begich's letter (co-signed by 
Senator Murkowski and Representative Young) on January 10, 2014. 
Secretary Jewell's letter explained that, among other things, the 
Bureau of Land Management (BLM) is reviewing the sites listed in the 
1998 BLM Report to Congress (``Hazardous Substance Contamination of 
Alaska Native Claims Settlement Act Lands in Alaska'') to better 
determine if the lands were Alaska Native Claims Settlement Act (ANCSA) 
conveyances. Since January, BLM-Alaska has organized a team to 
specifically focus on the contaminated lands conveyance issue in 
Alaska. This group is currently working to gather data and understand 
the scope of the issue. They are going through BLM's data to determine 
what contaminated lands may have been conveyed to whom, and whether 
potentially contaminated lands were contaminated prior to being 
conveyed or after, and by whom. A database of this information is being 
developed. BLM-Alaska is working cooperatively with the Alaska Native 
Village CEO Association on this issue and meeting regularly with them 
as it gathers information and compiles the inventory. The BLM's goal is 
to complete the inventory by August of this year.

    Senator Begich. I would appreciate that. That would be very 
important.
    Again, it is a direct letter that I wrote, but that would 
be very helpful.

                         CONTRACT SUPPORT COSTS

    Also, I do want to say your comments in regard to the BIA 
and the Indian Health Service funding and full funding, one, 
BIA, I will say, has done a good job on this in the sense of, 
one, getting this cap resolved, but also moving forward on 
settling the past due.
    Indian Health Services, they are not here today, because 
they are not part of this, has not done a very good job on 
this. But the Bureau of Indian Affairs (BIA) has done a good 
job, and I just want to give you credit on that, because these 
are monies owed. It is not a question of if they are owed, and 
the money is there, and Treasury has it in the legal fund in 
order to pay these. So I thank you for kind of aggressively 
moving.
    We are not done with this issue, as you know, because we 
need to make sure it is not just a 1-year, 2-year off issue 
that we are fully funding. We need to make sure that this is 
100 percent into the future, because these are contracted 
services that are being provided throughout the country for 
Indian Health Services or health care for first people in this 
country. So I want to just note that.

                         INDIAN AFFAIRS FUNDING

    And last, Mr. Chairman, and if I can, one note I want to 
put on the record, and maybe a response of why this is, but out 
of all the different major areas over the last decade, the BIA 
has had the smallest increase compared to any other unit within 
the Department of the Interior. I think it has only been, of 
the six largest units, it is the smallest increase.
    And we get this concern from our tribes on a very regular 
basis. Why are they--and I say ``they'' collectively--always on 
the backend in the increases that happened in the six largest 
areas in the Interior Department.
    And again, if you can answer now, that is great. I know I 
am out of time, but if you want to respond in writing, that 
would be fantastic.
    Secretary Jewell. Do I have time for a quick response, Mr. 
Chairman?
    Senator Reed. Yes, ma'am.
    Secretary Jewell. OK, thanks.

                         CONTRACT SUPPORT COSTS

    First on contract support costs, we fully support that. I 
have been asked by the White House to chair the White House 
Council on Native American Affairs. I can tell you from talking 
to my colleague, Kathleen Sebelius, and many other Cabinet 
secretaries, there is strong support for Indian country across 
the board. I think that forum gives us a chance to remind all 
of the bureaus and agencies about the role they play in 
upholding trust and treaty obligations to tribes.
    In terms of the budget, there is an increase in budget for 
Indian Affairs and Indian Education. It is higher than some and 
lower than others in this budget. I also want to say there is 
another I think $612 million across all of the bureaus to 
support programs in Indian country, whether it is the mineral 
development, because part of the BLM's responsibility is the 
mineral estate under tribal lands, or invasive species or fire. 
It is an important component of the fire budget as well.
    It needs to be taken holistically, but I am very 
appreciative of the President's budget and its support for 
Indian country. It is never enough, just as we have a backlog 
on our facilities and national parks, and it feels like you 
don't catch up, but it is, certainly, a strong statement about 
the administration's support. I am behind that and will 
continue to push.
    Senator Begich. Thank you, Mr. Chairman.
    I will send you a document from our tribes in southeast 
that I want to share with you and BIA. And I think it would be 
very important to see the comparisons, and I will share that 
with you in a follow-up letter.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                             KING COVE ROAD

    And, Secretary, as you are evaluating the information that 
the community of King Cove will provide to you prior to the 
15th of April, I want to make sure that you have a copy of the 
report that was conducted, I guess just completed the 24th of 
March, regarding the suitability of the landing craft as well 
as a letter from PeterPan Seafoods, in terms of a complete 
denial of any interest, recognizing that they would have no 
interest nor opportunity in a road, as well as information from 
Coast Guard that we are compiling. I think that that would be 
helpful for you.
    And I just also wanted to note that you made a comment 
about the fact that there are many communities in Alaska that 
experience difficulties in gaining access to medical care. That 
is absolutely true. But the difference between so many of them 
and the situation in King Cove, is King Cove is the only 
community that has a viable alternative right in front of them, 
or maybe 10 miles away from them.
    So I would hesitate to suggest that because other rural 
communities don't have good access, that that is somehow a 
reason to deny King Cove, because two wrongs don't make a 
right. I just wanted to add that.

                     ARCTIC OUTER CONTINENTAL SHELF

    I just wanted to ask very quickly, with my remaining time 
here, as we wrap up this hearing, about Arctic Outer 
Continental Shelf (OCS). As you know, Shell canceled its 
exploratory drilling program up in the Chukchi for this summer, 
based in part on the Ninth Circuit decision that came out that 
determined the EIS for the lease sale was deficient, and also 
failure to provide regulatory certainty from the Department, as 
far as how to move forward in the Arctic.
    So as I have talked with Shell, what they are hoping for, 
and what I am hoping to understand from you this morning, is 
how the Department intends to proceed with this. Will it be 
kind of a dual-track process where the Department will work to 
remediate the EIS that the Ninth Circuit struck down while at 
the same time committing to evaluate the exploration programs 
so that Shell can proceed with work in 2015, because the 
concern, of course, is that we just work on the legal track, 
but we are not working the regulatory track at the same time.
    Can you tell me how that is going forward and when you 
might expect that the regulations for offshore exploration 
might be released?
    Secretary Jewell. Thank you. Just to be clear, Senator, the 
decision that Shell made to not go forward was not based, from 
their conversations with us, on regulatory uncertainty.
    My colleague Brian Salerno, a former Coast Guard admiral 
who is running the Bureau of Safety and Environmental 
Enforcement, has been working hand-in-glove with Shell, 
including looking at its subsea containment system and working 
closely with them on a plan to pursue their activities in the 
Arctic that we consider to be a good illustration of where the 
regulations will come out. We are not slowing down the process 
of their ability to drill based on waiting for the regulations 
to come out.
    Senator Murkowski. No, and I wasn't suggesting that you 
were slowing down.
    Secretary Jewell. OK.
    Senator Murkowski. What I know is not complete, is that 
these regulations have not been released, so as Shell is trying 
to determine how they do proceed, they need some certainty. So 
I am just curious as to how we are coming with the timing of 
that, and how that is tracking with dealing with the deficient 
lease sale.
    Secretary Jewell. They are in the process of writing up the 
regulations consistent with what Shell was already checking 
for, and we expect to have them published in the Federal 
Register this year, so there should not be difficulty, if there 
is a green light through the Ninth Circuit Court, and the 
supplemental EIS, for them to proceed, as long as the court is 
satisfied.
    We understand the very limited drilling season. We 
understand the challenges of logistics and staging. We are 
working closely with the courts on what they expect of us, in 
terms of an update to the EIS. We are continuing to stay in 
close contact with Shell and Conoco Phillips on their interest 
in pursuing this.
    I do not anticipate the regulations that are being 
formulated to have any impact at all on their ability to 
operate once the courts have agreed on a path forward.
    Senator Murkowski. Well, just know that we are monitoring 
very carefully in terms of when these regulations will come 
out. Initially, it was anticipated that they would be out well 
by this point in time. You have now indicated that they will be 
done sometime this year. Just for planning purposes, knowing 
what the rules of the road are is critically important.

                      BEAUFORT AND CHUKCHI LEASES

    You mentioned the short drilling season that we have up 
North, another thing that we are facing is that many, if not 
all, as I understand, of the leases in the Beaufort and the 
Chukchi will expire before we can reasonably expect oil 
production to be brought online. And so while it may be a 
little premature at this point in time to talk about extension 
of those leases, I think it is something that the 
administration is going to have to look at in terms of its 
commitment to working with those who have leases in the Arctic, 
recognizing the challenges that we face with any kind of 
expiration opportunity up there, both on the environmental 
side, both on the regulatory side.
    But if there is a true commitment from this administration 
to advance Arctic expiration offshore, I think that is going to 
be a situation that we will have to look at, because the timing 
is not coming together as one might hope in terms of the 
lifetime of the leases and the ability to advance with 
exploration and the production. So I just put that in front of 
you.
    Secretary Jewell. Senator, I know my colleagues at the 
Bureau of Ocean Energy Management and Bureau of Safety and 
Environmental Enforcement are working closely with the 
operators there. The suspensions of leases are in active 
discussions. We understand that there are time delays. If an 
EIS isn't done right the first time, it throws you back and 
impacts the regulatory certainty for operators. It is 
unfortunate that occurred, but we are working actively with the 
companies up there in what they desire and what we think is 
appropriate for the American people as well.
    Senator Murkowski. I appreciate that.
    Mr. Chairman, I have a whole host of additional questions. 
As you well know, the Interior Department, the Secretary of 
Interior, have a great deal of influence in play in my State. I 
refer to the Department of the Interior and the Secretary's 
role as being effectively one as landlords, so we have 
pertinent issues as they relate to oil and gas development; 
legacy wells, as the Secretary mentioned; contaminated lands; 
national parks; Brooks Camp, what we are doing up there. So I 
will submit those in writing and look forward to responses.
    But I thank the Secretary and the other members of the 
panel this morning.
    Senator Reed. Thank you very much, Senator Murkowski.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record will remain open until April 2 for additional 
statements or questions by any of my colleagues.
    And I would ask you, Madam Secretary, to respond as quickly 
as possible. We thank you, Madam Secretary, for your testimony, 
and your colleagues. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
                       youth and veteran programs
    Question. Secretary Jewell, you recently committed to raise up to 
$20 million in private funding for youth engagement programs to 
leverage the Department's contributions. How do you plan on 
accomplishing this? Does the Department have the authority to solicit 
and hold private funding for these programs? How do you plan on 
administering the private funds you raise?
    Answer. The Take Pride in America Act authorizes the Secretary to 
carry out a number of activities, including: partnering with public and 
private organizations to promote participation in volunteer efforts 
through a public awareness campaign, soliciting and accepting donations 
in furtherance of the Take Pride in America Act, and accepting 
volunteer services from individuals and organizations. Interior's 
bureaus also have authority to accept volunteer services. Interior has 
partnered with the National Fish and Wildlife Foundation (Foundation) 
for the $20 million fundraising goal. Secretary Jewell and the 
Department will work to increase awareness of the opportunity to 
support youth and veteran engagement opportunities and inform 
prospective donors of the opportunity to make donations to the 
Foundation. The Foundation has established a separate fund (the 
Interior 21st Century Conservation Service Corps Account) to receive 
the funds, distribute those funds to nonprofit corps partners and be 
responsible for annual reporting on the associated projects and 
results.
    Question. Your budget also emphasizes making connections between 
veterans and land management agencies but doesn't provide many details 
on how you will accomplish that goal. How is the Department moving 
forward with veterans' programs? Are you partnering with the Veterans 
Administration or non-profit organizations?
    Answer. Since 2010, the Department has been active in establishing 
long-term relationships with Federal agencies, schools, veterans' 
organizations and military organizations. The Department and our 
bureaus have entered into formal agreements with the Department of 
Veterans Affairs and the Office of the Chief, Army Reserve. The 
Department was the first Federal agency to sign an agreement with the 
Office of the Chief, Army Reserve that focused on connecting reserve 
service members to employment opportunities; connecting military youth 
and families to America's great outdoors, history and culture; and 
expanding recreational opportunities for community-based wounded 
warrior programs. The Department also has partnerships with non-profit 
organizations such as Veterans Green Jobs and Mt. Adams Institute, to 
connect America's veterans to conservation and land management. These 
partnerships expand opportunities for veterans (and military families) 
to learn the importance of natural resource management and explore 
potential careers within land management agencies. Interior's work with 
these organizations is a critical aspect of our success in hiring 
veterans over the past 3 years, which reached 40 percent of our 
permanent hires in fiscal year 2013. Our goal is to continue building a 
talent pipeline of our Nation's veterans, by continuing and enhancing 
partnerships with the Department of Veterans Affairs, veteran service 
organizations and other non-profit organizations.
    The President's fiscal year 2015 budget for the Department of 
Veterans Affairs also includes $1 billion in mandatory funding to 
create the Veterans Job Corps program that would put thousands of 
veterans back to work over the next 5 years protecting and rebuilding 
America. The Department of Veterans Affairs proposal would authorize 
and provide funding to coordinate an interagency process and transfer 
up to $1 billion in mandatory funding over 5 years to establish the 
Veterans Job Corps. Funding will enable veterans to leverage skills 
developed in the military in jobs on the country's public lands and in 
its communities, ranging from conservation and infrastructure projects 
to law enforcement and first responder jobs, such as park rangers, 
police officers, and firefighters.
                    national park service centennial
    Question. The centennial of the National Park Service (NPS) in 2016 
is deservedly a major focus of your budget request. Specifically, you 
have requested $40 million for this proposal, including $30 million in 
visitor service and facilities projects and $10 million for Centennial 
Challenge grants to match Federal funding for infrastructure needs with 
contributions from non-Federal partners. How will these funds be 
allocated among park units? Where are your focus areas?
    Answer. The President's request includes a discretionary increase 
of $40 million to prepare for and celebrate the Centennial. This 
requested increase includes $30 million for operations to support 
visitors during the 2016 Centennial celebrations and to provide a 
stronger foundation for visitor services and infrastructure investments 
in its second century of preserving the parks for ongoing usage and the 
future enjoyment of visitors. Of the $30 million increase for 
operations, $4 million would support 21st Century Conservation Service 
Corps youth work opportunities to educate and engage the next 
generation; $2 million would support volunteer opportunities for young 
people to expand the capacity of the NPS to manage volunteers in parks; 
$8 million in competitively managed funds would support enhanced 
visitor services in the areas of interpretation and education, law 
enforcement and protection, and facility operations; and $16 million 
would support improvement in the condition of high priority park 
assets, such as visitor use facilities, historic structures, and 
trails. Across these centennial increases, the budget provides an $8 
million increase for youth engagement and employment opportunities, and 
continues the NPS' efforts to attract qualified veteran candidates to 
fill Federal positions.
    The remaining $10 million of the $40 million discretionary request 
is for the Centennial Challenge program, which would leverage Federal 
funds with partner donations for signature projects and programs at 
national parks. Preference would be given to projects that have a clear 
and immediate visitor benefit as well as a higher partner match. The 
Challenge will require at least a one for one match from non-Federal 
entities, with some projects leveraging more. While many parks and 
partners have expressed interest, projects would not be selected until 
funds are appropriated.
    In addition to this discretionary request, the President's budget 
also proposes $400 million a year for 3 years for Centennial activities 
to be provided as mandatory funding through authorization legislation. 
This includes $100 million a year for 3 years for Centennial Challenge 
projects and programs, $200 million a year for 3 years for deferred 
maintenance projects, and $100 million a year for 3 years for the 
multi-agency Centennial Land Management Investment Fund, which will 
provide an opportunity for all of Interior's public lands bureaus and 
the U.S. Forest Service to address conservation and infrastructure 
project needs.
    Question. How will the Centennial Challenge grant proposal actually 
work? Do you already have partners who are looking to match their funds 
for specific projects?
    Answer. Similar to the 2008 appropriation, once funding was known, 
an announcement would be made soliciting project ideas and partner 
matches. Preference would be given to projects that have a higher 
partner match, and clear visitor benefit. In order for a project to be 
chosen, a commitment letter from the partner is required as well as 
demonstrated park support. There is strong evidence of support for 
partner matching projects; several partners have already indicated 
willingness to match Federal funds for projects. The NPS is aware of 
potential partners from both large and small parks as well as local and 
national organizations.
                    land and water conservation fund
    Question. It is clear that the Department has taken notice of 
Committee direction about the Land and Water Conservation Fund (LWCF) 
and has assembled a more geographically diverse list of projects 
proposed for discretionary funding. Do you believe this budget balances 
the need to conserve smaller tracts in urban areas and larger 
landscapes?
    Answer. The 2015 budget requests funding for a diverse portfolio of 
projects through the Land and Water Conservation Fund's many programs, 
and were thoughtfully designed to ensure we balance the conservation 
and recreational access needs of diverse communities and landscapes 
across the country. For example, the budget requests a total of $100.1 
million ($48.1 million discretionary and $52 million mandatory) for the 
NPS-administered State and Local Assistance Grant program, which will 
provide grants to States and localities to plan for, acquire, and 
develop facilities for close-to-home recreation in communities in every 
State and territory. The budget requests a total of $100 million ($50 
million discretionary and $50 million mandatory) for Fish and Wildlife 
Service (FWS)-administered Cooperative Endangered Species Conservation 
grants, which will support State efforts to develop and implement plans 
for endangered species recovery and habitat conservation. These grants 
support small scale efforts in a wide variety of settings, including 
near developed communities and in rural areas.
    Across the discretionary and mandatory requests, the budget 
includes funding for 125 unique bureau land acquisition projects in 36 
States. This portfolio of projects reflects the reality that 
conservation and recreation needs vary widely across the Nation, and 
proposes funding strategies that are responsive to the unique needs of 
local communities and landscapes. The budget includes support for land 
acquisition projects that range from fee simple acquisition of a 5-acre 
inholding at Maine's Acadia National Park to the FWS easement 
acquisition of 30,000 acres--through conservation easement partnerships 
with multiple landowners--in the Dakota Grasslands of North Dakota and 
South Dakota.
    Question. Diversity in the project lists is key to engendering 
support nationally for LWCF, particularly as it needs to be 
reauthorized next year. What is the Department's plan for 
reauthorization? When should we expect to see a full legislative 
proposal and a concerted effort to engage the authorizing committees?
    Answer. The 2015 budget includes four mandatory spending proposals, 
of which one is mandatory funding for the Land and Water Conservation 
Fund. We are currently working within the administration, including 
with the Department of Agriculture, to ensure the reauthorization 
proposal is comprehensive and relevant to 21st century conservation 
needs.
    The administration anticipates working in collaboration with 
legislators and staff to develop a plan to authorize $550 million in 
mandatory funding for 2015, and to reauthorize the program permanently 
with full mandatory funding beginning in 2016. The administration looks 
forward to working with Congress on the details of legislation that 
would advance our LWCF proposal.
    Question. I am concerned about how Congress, and more specifically, 
the Appropriations Committee, will remain involved in this process if 
LWCF is switched to a mandatory program. The Committee has a 
longstanding role in determining how land acquisition funds are 
allocated and how priorities are set, and we value that role. How is 
the administration planning to continue to involve Congress in land 
acquisition decisions through your mandatory proposal? And 
specifically, what role do you foresee the Appropriations Committee 
playing if funds are made mandatory?
    Answer. The administration anticipates close collaboration with 
Congress as we develop a plan for reauthorizing LWCF with mandatory 
funding. The administration recognizes and values the role the 
Committee has historically played providing oversight to ensure the 
wise expenditure of LWCF funds, and looks forward to working with 
Committee staff to develop procedures for implementation of a mandatory 
funding regime which provides appropriate avenues for continued 
congressional input and oversight.
    Question. As you have traveled the country over the past year as 
Secretary of the Interior, including our trip to Rhode Island in May, I 
know you have seen the great diversity in our Federal lands and the 
great need to protect threatened lands for conservation. Those of us in 
the East are just as worried about protecting small inholdings in our 
urban centers as those in the West are in protecting our Nation's most 
dramatic landscapes. What do you see as your mark on the Land and Water 
program?
    Answer. One of my highest conservation priorities is securing 
reauthorization of the LWCF and ensuring the program is fully funded 
with mandatory funding. Authorizing permanent mandatory funding for the 
LWCF would realize the original intent of this law: to set aside a 
meaningful portion of the royalties that companies pay for developing 
America's offshore oil and gas reserves, and reinvest those funds in 
land and water conservation for the benefit of all Americans and future 
generations. Without mandatory funding, it appears likely we will 
continue to underinvest in land and water conservation programs as 
funding for these programs must compete directly with a wide range of 
other programs with varying objectives as part of the annual 
appropriations process. Mandatory funding will provide greater 
certainty this portion of our offshore royalties are used for their 
original intended purpose: to support the national endowment of lands 
and waters which provide our cities with clean drinking water, provide 
our children with safe places to play, and protect the way of life of 
our farmers, foresters and ranchers.
    Each community's vision for conservation of their lands and waters 
will be unique to its community, but our cities, towns and rural areas 
across the country all share a common need for resources to invest in 
public open space and conservation. A fully funded LWCF will provide 
the resources we need to fund the full spectrum of conservation and 
recreational access projects that communities want to invest in. We can 
fund city parks so kids can get outside and play in their own 
neighborhoods, and we can fund landscape scale conservation, 
collaborating with private landowners on conservation easements that 
keep working lands in production while protecting habitat, wildlife 
migration corridors and clean drinking water.
    Question. I am concerned that we continue to hear the unsupported, 
shopworn argument that securing more conservation land adds unduly to 
Federal land management and maintenance costs. Can you please provide 
the subcommittee with a fuller understanding of the ways that land 
conservation through LWCF improves management and reduces operating 
expenses for the Department? Can you highlight a few specific examples 
where LWCF spending has reduced operating and maintenance costs? What 
are the broader positive impacts of LWCF on agency budgets?
    Answer. The Department of the Interior LWCF programs work in 
cooperation with local communities, rely on willing sellers, and 
maximize opportunities to partner with private landowners on 
conservation easements where conservation and management objectives can 
be achieved without fee simple acquisition. Proposed Federal land 
acquisition projects are developed with the support of local 
landowners, elected officials, and community groups.
    Because there is a recognized need for funding to address 
maintenance needs on existing federally managed lands, the President's 
fiscal year 2015 budget proposes discretionary funding (a portion of 
the Opportunity, Growth, and Security Initiative) to address 
maintenance backlog needs for all natural resource agencies, and an 
additional $200 million in mandatory funding for the National Park 
Service to help prepare for the National Park Service Centennial in 
2016.
    Acquisition of inholdings does not generally require additional 
operating costs as no new staff or equipment is required to manage new 
lands within existing boundaries. Occasionally, agencies may incur up 
front costs to remove existing improvements (fences, buildings, etc.) 
from an acquired property. By removing unwanted structures on newly 
acquired land, agencies avoid adding to ongoing operations and 
maintenance (O&M) requirements.
    In fact, acquisition of inholdings can greatly simplify land 
management for Federal managers and neighboring landowners. Eliminating 
checkerboard ownership within Federal units simplifies nearly every 
aspect of land management:
  --Wildland fire managers can apply appropriate fuels reduction, 
        planned burns, and fire suppression treatments more easily 
        across an unfragmented landscape; fire management is more 
        challenging and costly when private inholdings and developed 
        properties are intermixed with federally managed forests and 
        public lands.
  --Law enforcement and public safety personnel can more easily patrol 
        and respond to emergencies when public ownership is 
        consolidated. An unfragmented unit allows unified signage, road 
        networks, and other infrastructure that will best enable safe 
        public access and allow for the efficient movement of emergency 
        personnel and vehicles to locations frequented by visitors.
  --Recreation managers can more easily provide access for the public 
        to enjoy their public lands. In some cases checkerboard 
        ownership can cause confusion among the public about acceptable 
        land uses, and can restrict the public's ability to access some 
        areas of public land.
  --Natural resource management is simplified in an unfragmented 
        landscape. When checkerboard ownership is eliminated, 
        biologists, geologists and other natural resource professionals 
        can move freely across the land that they are responsible for 
        surveying, and natural resource management actions can be 
        applied more efficiently across a landscape in single 
        ownership.
    Examples of enhanced management resulting from land acquisition 
include:
    St. Vincent National Wildlife Refuge.--St. Vincent National 
Wildlife Refuge (NWR) is an island off the panhandle coast of Florida 
in Apalachicola Bay, off the Gulf of Mexico. Acquisition of the 5-acre 
tract on the mainland of Apalachicola Bay provides permanent deep water 
mooring with launch site, secure parking and equipment storage. An 
important point is that dredging and channel maintenance are allowed in 
Apalachicola Bay. The lease at Indian Pass, the current deep water 
mooring and launch site, was ending and would not be renewed as the 
owners were looking to develop the mainland at the launch site. In 
addition, the upland portion of the leased Indian Pass site had been 
significantly reduced due to severe, continuing, and progressive 
erosion that the land owner failed to address.
    As the refuge is only accessible by water, the new deep water 
mooring and launch site reduces staff travel time from the refuge 
office to transfer supplies and heavy equipment. Daily boat access for 
St. Vincent NWR staff is required 24/7 for all island management 
activities, such as sea turtle nest monitoring and protection, habitat 
management, prescribed burning, hunting and fishing management and 
protection, and response to visitor emergencies.
    With the acquisition of the mainland deep water boat mooring and 
launch site, the Fish and Wildlife Service eliminates the annual 
$12,000 lease and has significant savings in fuel for vehicles. Staff 
traveling to and from the work site and hauling equipment to 
Apalachicola Bay from the refuge office, had to travel 20 miles to 
Indian Pass, then travel by watercraft to St. Vincent Island. At the 
end of each day, traveling was reversed back to the refuge office. 
Adequate parking for heavy equipment and vehicles is available at the 
new site.
    Prior to the acquisition of the deep water mooring and launch site, 
the Service conducted a critical review and analysis of deep water 
mooring and access options in the general vicinity of the refuge. Only 
two or three options were possible, with the acquisition of the 
acquired site being the most cost effective and safest for staff. The 
other sites involved longer nautical travel distances at nine miles, 
were more costly as public boat launch sites, and did not offer the 
security needed for refuge equipment.
    Yukon Flats National Wildlife Refuge.--The Service acquired five 
tracts totaling 480 acres within the Yukon Flats National Wildlife 
Refuge in Alaska. One tract contains prime river frontage along the 
Porcupine River with cliffs containing important nesting habitat for 
peregrine falcon. The other tracts contain frontage along Beaver Creek, 
Rock Slough, and the Black River. Most of these properties contain high 
quality wetland complexes and were isolated inholdings surrounded by 
Refuge land. Acquisition of these parcels greatly benefits Refuge 
wildlife management and provides a cost savings to the Government due 
to decreased fire management expenses.
    Canyons of the Ancients National Monument.--The Bureau of Land 
Management purchased the 800-acre Alexander (a/k/a Yellow Jacket 
Canyon) parcel within Canyons of the Ancients National Monument (NM) 
with funding from the Land and Water Conservation Fund on April 16, 
2014. This purchase is completely surrounded by Bureau of Land 
Management (BLM)-owned land within the boundary of the Monument. Just 
northwest of Cortez, Colorado, the 173,000-acre Monument was 
established to protect cultural and natural resources on a landscape 
scale. These remarkable cultural resources have been a focal point of 
explorers and researchers for 130 years.
    Approximately 45,000 visitors annually explore these ancient sites 
and camp, hike, horseback ride, mountain bike, use all-terrain vehicles 
(ATVs), hunt and view wildlife within the Monument. The Monument is 
important to Native Americans who maintain close ties to the sites 
occupied by their ancestors. The BLM estimates the Alexander/Yellow 
Jacket Canyon parcel may contain as many as 170 cultural sites 
associated with Yellow Jacket Pueblo, one of the largest and best 
studied Ancestral Puebloan sites in the Southwest. Purchase of this 
parcel also simplifies maintenance of the Monument as well as fire 
activities.
    Kennesaw Mountain National Battlefield Park.--The National Park 
Service acquired 41.55 acres at the Kennesaw Mountain National 
Battlefield Park in October 2013. It was the last privately owned 
parcel in the park and was slated for development through subdivision. 
Acquisition of this parcel allows the park to manage these lands in a 
way that preserves the battlefield resource of earthworks that marked 
both the Union and Confederate lines during the battle. The park 
contains the best set of earthworks of any Civil War site, and these 
would have been bulldozed to make way for development of a suburban 
housing tract. Acquisition of this land directly contributes to the 
reason this unit was created. Additionally, this land has served as an 
unofficial access point for equestrian trails, and with the acquisition 
this access can be managed to conserve the resources (landscape, flora, 
water quality in the nearby stream). Making this access official has 
already saved law enforcement costs in both time and fuel as rangers 
can now easily access the formal park trails that are adjacent to this 
land and more effectively monitor looting and poaching activities which 
have been known to take place in this area.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. California is in one of the worst droughts in its 
history. With most of the rain season behind us, the State reported 
that much of California has received only about 50 percent of normal 
precipitation. The snowpack is at 24 percent of normal as of March 23. 
Shasta, Lake Oroville, and San Luis Reservoir are all below 50 percent 
of capacity. The California Farm Bureau estimates that 500,000 acres of 
farm land are being fallowed, and more than 100,000 heads of cattle 
could be lost. Ten or more communities could run out of drinking water 
within the next few months.
    The Interior Department, specifically the Bureau of Reclamation and 
the United States Fish and Wildlife Service, play crucial roles in 
managing and regulating water operations in California.
    You have stated many times that you are looking to operate and 
manage the water system with flexibility. What specific steps have you 
taken to maximize operational flexibility?
    Answer. Reclamation has been coordinating with the California 
Department of Water Resources (DWR), California Department of Fish and 
Wildlife (DFW), National Marine Fisheries Service (NMFS), Fish and 
Wildlife Service (FWS), and the State Water Resources Control Board 
(SWRCB) to make the best use of water available in the system for water 
supply while protecting the fishery. Much of this coordination has been 
in the Real Time Drought Operations Team (RTDOT). Actions have included 
modifying both Endangered Species Act (ESA) and water rights permit 
objectives to improve our operational flexibility and increase Delta 
exports. The Central Valley Project (CVP) and State Water Project (SWP) 
have also shifted operations between the two projects to minimize 
impacts to the fish while exporting more water from the Delta and the 
CVP has delayed construction activities to accommodate operational 
flexibility.
    Question. Do I have your personal commitment that you will be 
deeply involved in finding ways to maximize operational flexibility so 
that more water can be provided to California water users?
    Answer. Yes, the drought will continue to be a high priority 
activity in the Department.
    California is experiencing another storm this week. This is only 
the third sizable storm to arrive in California in over a year. A group 
of water contractors wrote Secretary Jewell and Secretary Pritzker 
yesterday, urging emergency action to allow for more water to be 
captured during this storm.
    [The letter follows:]
           Letter From the San Joaquin River Water Authority
                                        San Joaquin
                                     River Water Authority,
                                     Los Banos, CA, March 25, 2014.
    Re Request for Emergency Relief Due to Impending Storm Events.

Hon. Sally Jewell, Secretary,
Department of the Interior,
C Street NW, Washington, DC.
Hon. Penny Pritzker, Secretary,
Department of Commerce,
Constitution Ave. NW, Washington, DC.
    Dear Secretary Jewell and Secretary Pritzker: We are writing to you 
under the most urgent circumstances. As you are well aware, California 
is plagued by one of the worst droughts in its history. Water year 
2013-14 thus far has proven to be the second worst water year since 
recordkeeping began in 1850. While not quite as bad as 1977 standing 
alone, it comes on the heels of 2 prior years of extremely dry 
conditions. Yet, while the opportunities existed over the past 6 weeks 
to get more water to people and into storage south of the Delta, 
inaction has resulted in the loss of 225,000-450,000 acre-feet (af) of 
water supplies. Meanwhile, over 700,000 af flowed to the ocean. The 
situation for many in California is desperate.
    Now is the time that action is needed. The State cannot afford to 
lose another round of water supplies due to less than full 
implementation of proactive measures that are available to the State 
and Federal agencies.
    The Departments of Commerce and the Interior are in the unique 
position of having many of your stakeholders being those directly and 
profoundly impacted by this drought while at the same time having the 
ability to implement emergency measures that will provide a modicum of 
relief. The situation is as follows.
    Regulations imposed on the State Water Project (SWP) and Central 
Valley Project (CVP) (together ``Projects'') through biological 
opinions issued by your Departments are having a real-time adverse 
impact on California's water supply. With storms about to hit 
California, the Projects are collectively in the position of being able 
to capture significant amounts of water without adversely impacting 
listed fisheries.
    The National Marine Fisheries Service (NMFS) has been working with 
the U.S. Fish and Wildlife Service (USFWS) and their State counterparts 
to examine opportunities to provide flexibility to meet crucial water 
supply needs in the urban and agricultural sectors. Despite efforts to 
date, the Silicon Valley, which Secretary Pritzker recently visited and 
pledged to partner with to promote greater benefits for our economy and 
our citizens, is only receiving 75,000 acre-feet of the over 200,000 
acre-feet which it would be entitled under from State and Federal water 
sources. As a result, the local water district has requested its retail 
customers to reduce usage by 25 percent. Economic impacts of water 
rationing are severe. Similarly, in the agricultural sector, much of 
which is served by the Bureau of Reclamation, the Sacramento and San 
Joaquin Valleys are being devastated. Over 3 million acres of the 
Nation's most productive farm lands are receiving a zero surface water 
allocation this year. Permanent crops such as trees and vines are 
literally being ripped out due to lack of water. Hundreds of thousands 
of acres of permanent and annual crops will go fallow. The loss of 
permanent crops takes 5-10 years to restore. Annual crops fill 
irreplaceable supply chains that provide about 50 percent of the 
Nation's fruits and vegetables. Unemployment in the valleys will soar. 
Banks loans and insurance will become more expensive if the integrity 
of the water system is not maintained.
    The Endangered Species Act provides NMFS and USFWS with the tools 
necessary to support the emergency response actions necessary to 
provide much-needed relief that California needs and avoid the imminent 
loss of hundreds of thousands of acre-feet of irreplaceable water.
    Weather predictions indicate that another storm is heading to 
California today or Wednesday. We request that you allow for the 
maximum pumping of the flow that is going to develop from this storm 
based on the following conditions.
    Currently, protected fisheries in the Delta have experienced 
historically low take at the State and Federal water pumps. The nominal 
take is consistent with the monitoring data that has consistently and 
clearly demonstrated a lack of presence of protected fish in the 
central and south Delta in 2014. Because of this, we believe that 
maximizing pumping for the limited time that uncontrolled Sacramento 
River flows are elevated due to the storm is unlikely to jeopardize 
listed species. However, to ensure adequate levels of protection, we 
propose that if take reaches the levels of concern identified in the 
species specific incidental take statement, implementation of this 
emergency action be reassessed.
    As we explain on the attached pages, a temporary adjustment to the 
Delta smelt and Chinook salmon biological opinions (BiOps) would allow 
pumping--subject to take of fisheries--up to the full 11,280 cubic feet 
per second (cfs).
    Time is short. The storm is approaching and, practically speaking, 
we need a decision by close of business on Thursday, before Sacramento 
River flows arrive at the Delta. We therefore request that conference 
calls be set up for Wednesday and Thursday so that the situation may be 
addressed in real time with the most senior resource managers from both 
the State and Federal sectors as well as the water user and 
environmental communities.
    Once this storm series passes, and thinking ahead to the rest of 
this water season, the State is installing salinity barriers in the 
Delta. Further, State and Federal water managers are confident that 
they can control salinity in the Delta with fairly minimal flow amounts 
this summer, generally around 2,500 cfs. Water managers are proposing a 
longer term action plan that is being finalized. Continued real-time 
management will allow for improvements of water supply and protection 
of the upstream and Delta ecosystems.
    This letter is also being delivered to a number of other State and 
Federal officials that have a key role in California water decisions. 
We request that each of them become engaged in this rapid 
decisionmaking process and participate directly or through their 
delegates in these conference calls. However, we believe your direct 
leadership is necessary at this time and hope that you will participate 
personally. We have taken the liberty of setting up a conference line 
for the first call on Wednesday at 1 pm PDT (4 pm EDT). For 
convenience, we propose the same time be used for Thursday.
    The opportunity presented by this storm is upon us. We cannot 
afford inaction by either State or Federal regulators or water 
managers. We need your authority to impress upon your Departments and 
others that this is truly an emergency situation that requires 
immediate action. Failure to take action becomes a decision in and of 
itself and we are not likely to have another opportunity this year to 
help relieve this dire situation.
            Urgently and gratefully yours,
                                   Steve Chedester, Executive Director,
                                           San Joaquin River Exchange 
                                               Contractors Water 
                                               Authority.
                                   Daniel G. Nelson, Executive 
                                       Director,
                                           San Luis & Delta-Mendota 
                                               Water Authority.
                                   Ronald Jacobsma, General Manager,
                                           Friant Water Authority.
                                   Chase Hurley, General Manager,
                                           San Luis Canal Company.
                                   Randy Houk, General Manager,
                                           Columbia Canal Company.
                                   Christopher L. White, General 
                                       Manager,
                                           Central California 
                                               Irrigation District.
                                   Jeff Bryant, General Manager,
                                           Firebaugh Canal Water 
                                               District.
    Enclosures.
                            foregone pumping
Upcoming storms commencing March 23, 2014
    Currently the Projects are operating to a combined 2,000 cubic feet 
per second (cfs) export level resulting in about 5,500 cfs Delta 
Outflow and an Old and Middle River reverse flow limitation (OMR) of 
about -1,600 cfs. The export/inflow (E/I) ratio is about 25 percent, 
and San Joaquin River stream flow is about 700 cfs. Storms to Northern 
California are forecast to begin Tuesday evening and will bring 
precipitation throughout the week and into the weekend. It is 
anticipated that these storms will result in unregulated runoff within 
the Sacramento Valley similar in response to the storms experienced 
earlier in the month, resulting in excess flow in the Delta which 
potentially is available for delivery and storage south of the Delta. 
Although there are uncertainties in the timing and magnitude of the 
storm events, the following provides an explanation of the constraints 
upon exports that will result in foregone pumping in the near future.
    Without immediate relaxation of several pumping and outflow 
constraints the capture of a significant amount of the excess flow will 
be foregone, up to 125,000 acre-feet, similar to what has occurred 
during each of the storms of the last 2 months. The graphic below 
illustrates projected operations beginning today, through April 9. Of 
immediate issue are the OMR and E/I constraints. As inflow to the Delta 
increases due to the storms, pumping will increase. However, almost 
immediately pumping will be constrained by a maximum OMR flow of -5,000 
cfs and a maximum E/I ratio of 35 percent. While available pumping 
capacity is about 11,280 cfs, the pumps will be running at only about 
6,600 cfs, foregoing over 9,000 acre-feet of excess flow per day for 
several days. This effect is compounded by an outflow requirement of 
7,100 cfs for X2 which limits the amount of excess outflow that can be 
pumped, but which however, under the dire drought circumstances has 
been reduced by the State Water Resources Control Board (SWRCB) this 
year with the concurrence of State and Federal fishery agencies. 
Notwithstanding the SWRCB order, separate, but of significant impact on 
water supplies, will be the effect of the Reasonable and Prudent 
Alternative (RPA) condition in the Biological Opinions regarding the 
San Joaquin River Inflow to Export Ratio that would be exercised 
beginning April 1 and continuing through May. This action requires 
exports to be no greater than the inflow entering the Delta from the 
San Joaquin River (1:1), currently about 700 cfs. This action would 
constrain exports even lower than the actions already constraining the 
exports to 6,600 cfs, resulting in an additional 11,000 acre-feet per 
day of foregone pumping.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. What is Reclamation doing in response to this storm so 
that the maximum amount of water can be captured before it flows out to 
the ocean?
    Answer. Our response has been primarily through the RTDOT. The 
agencies evaluate both the water supply that can be captured as well as 
the biological effects of the actions.
    Question. What are the pros and cons of invoking emergency 
consultation with the fish agencies to allow for even higher levels of 
water pumping?
    Answer. Emergency consultation allows for immediate action if there 
is an imminent threat of loss of life or property. However, a 
traditional consultation must ultimately be completed and mitigation 
actions implemented. Potential benefits are quick action, as in the 
case of a flood when an emergency flood wall must be constructed. If 
however the impacts of the action are extensive, extensive mitigation 
could be required.
    Salvage data from the agencies as of March 19, 2014 show that no 
Delta smelt has been taken; 276 out of an allowed 24,237 winter run 
salmon have been taken; and 148 out of an allowed 3,000 steelhead have 
been taken.
    Question. Does the data support the notion that more water pumping 
can occur without jeopardizing fish species?
    Answer. Take limits associated with the Incidental Take Statement 
in a biological opinion (BiOp) identify the amount of take that can 
occur while operating consistent with the BiOp and implementing the 
reasonable and prudent actions in a jeopardy BiOp. Jeopardy 
considerations include not only take at the pumps but also access to 
quality spawning and rearing habitat including in-stream temperatures 
and flows to improve out-migration of smolts. Through the RTDOT 
process, the project operators and regulatory agencies are doing all 
that is possible to improve exports while protecting the species.
    Question. What other emergency measures can be implemented within 
your discretion to maximize water supplies without jeopardizing 
endangered species? And are you prepared to implement those measures 
immediately?
    Answer. Reclamation and DWR continue to work in collaboration with 
the regulatory agencies (NMFS, FWS, DFW, SWRCB) through the RTDOT 
process to ensure that exports are maximized while protecting species 
of concern. The RTDOT participants are willing to implement measures 
that improve exports while protecting species.
    Question. How will the need for carryover storage affect the water 
projects' ability to export more water as opposed to storing it?
    Answer. There will be some tradeoff between releasing water from 
storage for water supply and retaining some in storage to maintain 
operations in a continuing drought.
    Question. How much carryover storage is needed going into the 2015 
water year?
    Answer. We are planning the operations to satisfy the regulatory 
objectives in 2014 and maintain a carryover storage that should carry 
us through a dry 2015 in the event that the drought might continue. We 
are assuming that if the drought continues there will be extraordinary 
operations similar to what we are experiencing in 2014.
    Question. California must expand water storage to capture water 
from the wet years for the dry years, so that we have a better chance 
of getting through conditions such as the ones we are experiencing now.
    However, Reclamation's feasibility studies for new storage projects 
have been going on for over a decade and have cost over $91 million 
with no results yet.
    Meanwhile, California is likely to vote on a water bond this year 
that could make up to $3 billion available starting mid-2015 for 
storage projects that have completed feasibility studies and favorable 
benefit-to-cost ratios.
    What will it take to get all storage studies completed by the end 
of 2015?
    Answer. Reclamation has completed public review and comment on 
draft Feasibility Reports for expanding Shasta Lake and increasing 
storage in the Upper San Joaquin River basin. The draft Environmental 
Impact Statement (EIS) for Shasta was released for public review and 
comment last summer, and the draft for Upper San Joaquin is due out 
this summer. Both studies to support Federal decisionmaking are on 
track to be completed by the end of 2015, with Shasta completed by the 
end of 2014.
    All four storage studies have been affected by a significant 
reduction of non-Federal funding and ability to participate. As a 
result, while the Draft EIS for both Shasta and Upper San Joaquin meet 
the requirements for an Environmental Impact Report (EIR), the State is 
unable to release a Draft EIR for these two projects at this time. In 
addition, the North-of-the-Delta Offstream Storage Investigation 
(NODOS) and continued study of Los Vaqueros Expansion (LVE275) are 
delayed due to a lack of non-Federal cost share. In the past, the State 
has provided an estimated 90 percent and 50 percent of the funding for 
these studies respectively. These two projects would require 
significant non-Federal funding and resources.
    Question. Do you see any obstacle that would delay the completion 
timeframe beyond 2015?
    Answer. Endangered Species Act consultations may continue beyond 
2015 for Upper San Joaquin. The lack of non-Federal cost sharing 
presents significant obstacles to completing NODOS and LVE275.
    Question. What are those obstacles, and what can be done to 
mitigate or remove them?
    Answer. Non-Federal cost sharing partnerships could mitigate the 
obstacles, particularly when cost shares are provided via in-kind 
services. Many potential cost share partners are contributing 
significant funding to other projects, have been impacted by the State 
economy, and are fully engaged in drought activities. Reclamation will 
continue to seek non-Federal cost sharing opportunities.
    We clearly need some leadership and accountability at the top level 
of the Department to get these feasibility studies done.
    The initial and partial construction cost estimate for expanding 
San Luis Reservoir is $360 million; about two-thirds are for seismic 
repairs that must be done regardless of whether storage is expanded. 
Therefore for an incremental cost of approximately $120 million, the 
project could yield additional average annual Delta exports of 43,000 
acre feet.
    We clearly need some leadership and accountability at the top level 
of the Department to get these feasibility studies done.
    Question. Can you commit to completing all the studies by the end 
of 2015 so the projects could potentially be eligible for State funding 
if worthy?
    Answer. As described above, Reclamation can commit to completing 
the studies for Shasta and Upper San Joaquin by the end of 2015. Also 
noted in previous responses is the lack of non-Federal cost share for 
NODOS and LVE275.
    Question. Can you please share with me your overall schedule for 
completing the San Luis feasibility study?
    Answer. A detailed schedule is still being completed and a non-
Federal cost-share agreement is still being negotiated, but it is 
reasonable to assume the studies could be completed as early as 
December 2017. Data and analysis to support the Safety of Dams risk 
reduction will be analyzed this summer, including an evaluation of the 
strength of the dam and potential response to seismic activity. This 
information is also required for reservoir expansion alternatives.
    Question. As you may know, the proposed Cadiz water project in the 
Eastern Mojave Desert has been a longtime concern for me because of its 
potential impact on the Mojave National Preserve, pristine public lands 
that surround it and the plant and wildlife that depend on rare desert 
water supplies. The project proposes to extract between 50,000-75,000 
acre feet of water from the desert aquifer for sale to municipal water 
users in Southern California. However, independent studies estimate a 
recharge rate between 2,000 and 10,000 acre feet per year.
    The Cadiz project had hoped to use the Arizona & California 
Railroad's Right-of-Way to construct a 43-mile-long pipeline connecting 
their project site with the Colorado River Aqueduct. However, based on 
a November 4, 2011 opinion from the Interior Department's Solicitors 
office (known as the M Opinion) which stipulates that railroad 
companies lack authority to permit activities along their right-of-way 
unless the projects directly benefit railroad operations, it is my 
understanding that the Bureau of Land Management thus far denied Cadiz 
permission to use the right-of-way.
    Can you provide me with an update of the status of this project?
    Answer. The BLM's evaluation of the project is on hold and is 
awaiting publication of additional guidance by BLM on the 
implementation of the M Opinion.
    Question. It is my understanding that the BLM is currently 
developing guidelines for implementing the M Opinion. What is the 
status of those guidelines?
    Answer. The guidelines for implementing the M Opinion have been 
drafted and the BLM is coordinating within the Department to finalize 
the guidelines.
    Question. Once those guidelines are completed, does the BLM intend 
to issue a decision on whether the Cadiz project's proposed pipeline is 
within the scope of the Arizona & California Railroad's Right-of-Way?
    Answer. Once the guidance is issued the BLM California will 
complete its evaluation of the proposed Cadiz project and determine if 
the activity derives from or furthers a railroad purpose. Once the 
evaluation has been completed, the BLM will notify the party 
undertaking the activity of its determination of whether additional 
approvals are required from the BLM prior to undertaking the project.
    Question. There are an estimated 500,000 abandoned mine lands 
throughout the United States, many on public lands managed by the 
Bureau of Land Management, the Forest Service and the National Park 
Service. According to the Mine Safety and Health Administration, every 
year about 20 to 30 people die in accidents that occur in abandoned 
mines across the United States.
    This has been an enduring concern for me, given that California is 
home to roughly 50,000 abandoned mines. That is why I pushed for 
language that was included in the fiscal year 2014 Omnibus 
Appropriations bill to prioritize the closure of abandoned mines which 
present the greatest threat to public safety, in particular those mines 
with dangerous vertical shafts that pose risks to unsuspecting 
visitors.
    I understand that the President's budget proposes creating a 
Hardrock Mining and Abandoned Mine Cleanup program, which would fund 
abandoned mine clean-up by rescinding a 2006 reduction in fees paid by 
coal mines. While this is estimated to generate an additional $53 
million in 2014, this proposal has been made in previous budgets but 
has failed to gain traction in Congress.
    Can you tell me how many abandoned mines were closed by the 
Department of Interior last year? How many of these were in California?
    Answer. The BLM closed 4,947 abandoned mine land features in fiscal 
year 2013; 99 of those sites were in California. There were no known 
abandoned mine land closures completed on National Park Service (NPS) 
lands in 2013. It should be noted that a single mine may have numerous 
features.
    Question. How is Interior prioritizing closure of abandon mines?
    Answer. The BLM uses a comprehensive approach to determine which 
sites are addressed first based on the readiness of Federal and State 
partnerships and risks to public health, safety, and the environment. 
High priority sites include physical safety sites such as mine shafts 
and adits that are in close proximity to populated places such as 
residences, schools, and recreational areas. Sites impacting water 
quality are a similarly high priority because mine waste or tailings 
may threaten human health and the environment.
    Priorities are established annually with project funding 
distributed to State offices on a competitive basis. The Abandoned Mine 
Lands (AML) Program priorities are documented in the AML Program 
strategic plan, including State office Annual Work Plans. Typically, 
the AML Program strives to complete ongoing projects before undertaking 
new projects. Where appropriate, temporary mitigation measures, such as 
posting appropriate signage and using fencing, may be used until 
permanent or long-term remediation actions can be completed. In some 
cases, an imminent risk to public safety may require the BLM to take 
urgent action in order to address conditions at a site not previously 
identified or prioritized as a high risk site.
    The NPS completed an on-site AML inventory in 2013 where inspectors 
rated each AML feature for degree of hazard, accessibility (likelihood 
of visitation), resource significance (both natural and cultural), and 
resource impacts. Features with a likelihood of serious injury or death 
were ranked high.
    Question. Can Interior please provide me an inventory of the 
abandoned mines on Federal lands in California, and estimated cost and 
schedule to close them?
    Answer. The BLM Abandoned Mine Site and Cleanup Module database 
identified 1,672 AML sites containing 5,643 physical safety features in 
California. The average cost to mitigate each physical safety hazard 
feature is $19,400. It would cost approximately $110 million to close 
all identified physical safety features in the State. The 2015 budget 
request continues the legislative proposal to create an Abandoned Mine 
Lands Program for abandoned hardrock sites that will be financed 
through the imposition of a new AML fee on hardrock production on both 
public and private lands. These fees would provide resources to allow 
the BLM to more aggressively address the highest priority abandoned 
sites on Federal, State, tribal, and private lands nationwide.
    The NPS has 27,900 features at 1,211 sites in 13 NPS units in 
California. Of those, 793 features have been mitigated and 2,298 
features at 632 sites remain at an estimated cost of $32 million for 
mitigation. Shovel-ready projects in California (those where National 
Environmental Policy Act (NEPA) planning and compliance are complete) 
are estimated at $9.9 million. There is no schedule for this work at 
this time.
    Question. The National Park Service recently released its final 
environmental impact statement (FEIS) relating to the Merced Wild and 
Scenic River Plan. The plan is the third in the last decade and was 
necessary to comply with the Ninth Circuit's 2008 opinion requiring the 
Park Service to protect the river's ``outstanding remarkable values.''
    Responding to over 30,000 public comments, the Final EIS attempts 
to balance resource protection and visitor access in Yosemite Valley. I 
appreciate the National Park Service's efforts to develop a plan that 
complies with the requirements of the Wild and Scenic River Act but 
also protects much loved recreation activities, historic structures and 
visitor service facilities in Yosemite Valley.
    I am glad to see that the new plan will allow continued bike, river 
rafts and horse rentals and winter ice skating and retain the historic 
Sugar Pine stone bridge and the Ahwahnee and Yosemite Lodge swimming 
pools. I applaud the Park Service's efforts to resolve this dispute, 
but would like to know more about the budget assumptions and schedule 
to implement the plan while meeting other obligations at Yosemite 
National Park.
    Given the estimated $210 million cost to implement the FEIS, can 
you explain the National Park Service's funding expectations and 
schedule to implement the changes proposed in the Merced River FEIS?
    Answer. Potential funding to implement the plan will be derived 
from three primary sources: (1) Recreation fee program (entrance and 
camping fees); (2) concessions franchise fees; and (3) other Federal 
sources such as Federal lands transportation programs.
    Both recreation fee revenue and concession franchise fees are 
annual revenue sources collected by the park. Over the course of the 
next 20 years, assuming reauthorization of recreation fee authority, 
the park anticipates that both of these fund sources (currently the 
park collects approximately $18 million in fees annually) will be 
available to implement the changes proposed. Based on projected 
revenues, the park is confident there will be financial resources to 
implement a myriad of projects within the next 15-20 years for all 
three plans mentioned.
    During the first 5 to 10 years of implementation, the focus will be 
to improve the transportation system to alleviate traffic congestion 
and to conduct ecological restoration of high use areas to better 
accommodate visitor use. Projects include adding and modifying parking, 
realigning failing intersections and restoring eroded riverbanks. 
Concurrent to the improvements to transportation/parking, the park will 
work towards creating additional camping opportunities and replacing 
tent cabins with hard sided lodging.
    Question. The new location of some facilities was not identified in 
the FEIS, such as the new bike racks, river rafting facilities and 
maintenance buildings. When and how will the location of the facilities 
be chosen and how will the public have an opportunity to engage in that 
process?
    Answer. The locations of minor facilities, such as bicycle rental 
stands and raft rental operations, will be located outside of the 
quarter-mile river corridor boundary, yet remain within the primary 
visitor services nodes. The park does not anticipate further 
environmental review and public involvement for these actions. The 
minor shift of the location of these facilities outside the corridor is 
an operational decision that will be determined after the 2016 
concessions contract is awarded. The cost is expected to be minimal.
    Question. How will other Yosemite obligations be affected (deferred 
maintenance--$500 million, implementation of the Mariposa Grove Plan--
$36 million and the draft Tuolumne River Plan--$64.5 million) while 
implementing the Merced River plan?
    Answer. Implementation of both river plans will be completed 
simultaneously over a 15-20 year period. The Mariposa Grove project 
will be completed in the next few years, and relies heavily on 
financial support from the nonprofit Yosemite Conservancy, supplemented 
with other revenues from recreation fees and transportation funds. As 
noted above, project revenue will allow the park to make a substantial 
investment in major actions called for in the plans, as well as 
continue to address a significant number of deferred maintenance needs. 
For example, by implementing some of the major transportation 
improvement components such as road realignments and expanded day use 
parking lots, much of the deferred maintenance for these areas will be 
addressed. In addition, the park will continue to prioritize cyclic 
maintenance, operational funding, and repair and rehabilitation funding 
to strategically reduce deferred maintenance priorities.
    Question. How do you intend to prioritize the needs identified in 
these plans?
    Answer. As noted above, the first priority for plan implementation 
will be to alleviate traffic congestion and to restore riverbanks and 
meadows. Once these steps are accomplished, current levels of 
visitation can be managed more successfully. Concurrently, other 
priorities will be implemented to enhance the visitor experience by 
providing additional campsites and increasing the availability of year-
round visitor accommodations.
    Priority projects seek to accomplish four major goals:
  --Correct identified impacts to river resources to ensure continued 
        protection;
  --Alleviate crowding and congestion and provide for easy access to 
        key park facilities and shuttles;
  --Enhance camping opportunities and winter lodging; and
  --Replace temporary non-code compliant employee housing.
    Question. Can you explain what the cumulative impact of all these 
plans is expected to be on the current visitor experience?
    Answer. All of the plans address long standing issues with visitor 
use and user capacity management in the most heavily visited 
destinations within the park, most notably by calling for actions that 
will improve the efficiency of the transportation system. Key actions 
such as relocating and retrofitting day use parking areas, adding 
campsites, and increasing the amount of year-round lodging in Yosemite 
Valley, will improve access and the overall quality of the visitor 
experience. In addition, the wide array of recreational opportunities 
available throughout the park will be maintained and boating 
opportunities will be expanded. Once implemented, the plans will 
provide for a higher quality visitor experience by improving access to 
the most popular areas in Yosemite and by providing lasting protection 
for the natural features within those areas. Overall, the park expects 
implementation to improve the visitor experience.
    Question. I applaud the National Wildlife Trafficking Strategy that 
your Department put forward as part of the President's Taskforce on 
Wildlife Trafficking.
    Wildlife crimes are a global threat to conservation and put iconic 
species like African elephants and rhinoceroses at risk of extinction. 
What is equally disturbing is that wildlife crimes are also driving and 
funding transnational criminal networks and global terrorism.
    It is clear to me that the current criminal penalties for these 
crimes are too weak and that congressional action is needed to address 
the wildlife poaching crisis.
    This is why I am drafting legislation to make wildlife trafficking 
crimes a predicate offense under Federal racketeering and money 
laundering statutes, as well as under the Travel Act. Law enforcement 
already uses these laws to crack down on other major crimes like drug 
trafficking.
    Secretary Jewell, how important will these strengthened tools be in 
helping your Department end the practice of wildlife trafficking?
    Answer. Strengthening enforcement tools for those that enforce our 
wildlife trafficking laws is extremely important. Doing so would 
rightly elevate the stature of wildlife crimes within the U.S.'s 
judicial system to be on par with other serious crimes. Some judicial 
districts and U.S. Attorneys' Offices are reluctant to act upon 
wildlife crimes, such as cited in the Lacey Act, Endangered Species 
Act, Marine Mammal Protection Act, and the Migratory Bird Treaty Act 
because they view them as less serious, especially when they are 
legislatively structured as weaker and sometimes even ``petty'' 
offences that have weak penalties and cannot serve as predicates for 
laws that thwart organized crime. This ill informed view has often 
frustrated us at Interior because our agents have long known that 
wildlife trafficking violations are not isolated infractions worthy of 
a misdemeanor.
    Wildlife crimes are serious crimes that have insidious effects upon 
society. In addition to destabilizing the ecology that human 
communities depend upon, wildlife that is poached from iconic national 
parks and world heritage sites robs the surrounding communities of 
steady income, encourages corruption, and facilitates other crimes. 
More recently, we are even told of links to terrorism. Additionally, 
many lives are being lost in the war that is being waged to extract 
rare wildlife for consumption. Scores of park rangers have been 
murdered in recent years across Africa and Asia in their noble and 
nearly futile attempts to protect their wildlife from international 
crime syndicates. What used to be viewed as mere subsistence poaching 
has morphed into activity by highly motivated and ruthless criminal 
organizations that willfully murder park rangers on the lands they 
protect in order to slaughter and extract wildlife. Wildlife 
trafficking crimes are intrinsically organized trans-border crimes that 
undermine the general rule of law and the integrity of communities and 
rob them of their ability to manage and benefit from their natural 
resources. Our judicial system responds to the priorities set by the 
legislative system. Strengthening our wildlife trafficking laws would 
send a clear signal throughout the justice system from officers in the 
field to judges on the bench that these laws matter.
    Question. What other resources would be useful to the Department in 
addressing this issue?
    Answer. The United States is among the world's largest consumers of 
wildlife, both legal and illegal. As with any black market trade, it is 
difficult to determine the exact market value or rank the U.S. role in 
comparison to other nations. However, we remain a significant market 
for wildlife and wildlife products, including elephant ivory.
    On February 25, 2014, the Service issued a Director's Order to help 
protect populations of elephants and other endangered or threatened 
species that are subject to illegal trade. Poaching and illegal trade 
have been decimating African elephant and rhinoceros populations in 
recent years. The changes in the Director's Order are among a set of 
administrative actions specifically called for under the National 
Strategy on Combating Wildlife Trafficking, which was issued by 
President Obama on February 11, 2014.
    The most significant gaps in the regulatory regime in place before 
the National Strategy was announced was the continued allowance of some 
commercial imports and the largely unregulated domestic trade of 
African elephant ivory. The administrative actions we are taking or 
have taken include listing the Southern White Rhino under the 
Endangered Species Act based on similarity of appearance to other 
listed endangered rhino species, implementing a prohibition on all 
commercial imports of African elephant ivory regardless of age, 
implementing a prohibition on the sale of African elephant ivory across 
State lines, and implementing stricter controls over sale of elephant 
ivory within the United States, including within States.
    The fiscal year 2015 President's budget requests the subcommittee's 
support of a $3 million increase for its Law Enforcement and 
International Affairs programs as part of the administration's new 
National Strategy for Combating Wildlife Trafficking. The funding will 
be used to combat expanding illegal wildlife trafficking and support 
conservation efforts on the ground in Africa and across the globe. The 
budget includes important funding to expand wildlife forensic research 
to produce key advancements needed to pinpoint the origin of illegal 
wildlife products which is critical information necessary to prosecute 
criminal activity.
    We believe that these actions will dramatically reduce the U.S. 
role in the illegal ivory trade and position the Nation to encourage 
other major ivory consuming countries to take similar actions. In 
addition, we continue to evaluate whether there are additional tools 
that could be used to combat wildlife trafficking.
    Question. Secretary Jewell, you are no doubt familiar with the 
March 17 earthquake that struck the Los Angeles area. It is my 
understanding that this 4.4 magnitude earthquake is one of the 
strongest earthquakes to hit Southern California in recent years.
    I firmly believe that it is a matter of when, and not if, our next 
significant earthquake event will occur.
    In fact, the Southern California Earthquake Center estimates that 
California has a 99.7 percent chance of having a magnitude 6.7 or 
larger earthquake within the next 30 years. The chance of having a 
catastrophic earthquake with a magnitude greater than 7.5 during this 
period is nearly 50 percent.
    Given the millions of lives and billions of dollars at risk of the 
next major earthquake, can you give me an update on the status of 
developing an earthquake early warning system for the West Coast?
    Answer. Since 2003, the U.S. Geological Survey (USGS) has funded 
university research on earthquake early warning (EEW), and has invested 
approximately $10 million in research, system development and seismic 
network modernization in California and elsewhere so that the networks 
are capable of generating earthquake early warnings. In addition, in 
January 2012, the Gordon and Betty Moore Foundation awarded $6 million 
over 3 years to the University of California-Berkeley, Caltech, and the 
University of Washington to perform further research leading to a 
prototype EEW capability for the U.S. West Coast. As a result of these 
efforts, in January 2012, the ShakeAlert earthquake early warning 
system began sending test notifications to a small number of test 
users, which include California emergency response organizations, 
utilities, rail operators and a number of private companies.
    Before public warnings can be issued routinely, the current 
ShakeAlert test system must meet quality, speed and reliability 
standards. Those standards include having enough sensors to ensure 
coverage near earthquake sources. Currently there are not enough 
sensors in the Advanced National Seismic System (ANSS) network to 
provide fast and reliable alerts uniformly across the U.S. West Coast. 
Although the Los Angeles and San Francisco Bay areas have better sensor 
coverage than other parts of the State, it is estimated that several 
hundred additional stations will be needed to cover all of the 
earthquake source regions.
    Question. What funding and assistance will your Department provide 
towards completing this critical project?
    Answer. In 2014, Congress appropriated an additional $850,000 for 
earthquake early warning development, which was added to a base funding 
amount of $600,000. As part of the 2015 President's budget 
justification, the Department's request for fiscal year 2015 maintains 
these amounts.
    Question. Secretary Jewell, I continue to be concerned about the 
management and well being of the wild horse populations on public lands 
managed by the Bureau of Land Management.
    It is my understanding that there are now nearly 50,000 horses in 
long- and short-term holding facilities, and that the population of 
horses that remain in the wild is expected to surpass 60,000 during the 
next fiscal year.
    It is my understanding that last year, the holding costs for horses 
was $46 million, more than half of the Wild Horse and Burro programs' 
annual budget.
    This practice of placing horses into costly holding facilities is 
not sustainable. Long-term solutions for managing the wild horse 
population in a humane and efficient manner are desperately needed.
    Secretary Jewell, how do you plan to ensure that BLM is on the 
right fiscal path in reducing the number of animals in holding 
facilities and meeting its goals with on-the-range management 
techniques?
    Answer. For the BLM to sustainably manage wild horses and burros, 
two things are absolutely essential: forging a path forward to slow 
population growth and finding homes for families that are already off 
the range. To immediately address these issues, the BLM is implementing 
key recommendations from the June 2013 National Academy of Sciences 
(NAS) report:
  --Population Growth Suppression.--Population growth suppression 
        methods that are effective on western herds are needed to curb 
        herd growth and reduce the need for removals. In April 2014, 
        the BLM and the U.S. Geological Survey (USGS) initiated a 
        second pasture research trial to evaluate the effectiveness of 
        new formulations of the SpayVac vaccine, which is currently the 
        most promising contraceptive vaccine available. The BLM has 
        also issued a Request for Applications (RFA) for grant funding 
        to support research projects developing techniques and 
        protocols for contraception or the spaying/neutering of on-
        range male and female wild horses and burros. The RFA closes in 
        May 2014.
  --Population Estimation.--The BLM has entered into a new Interagency 
        Agreement with the USGS to acquire the technical expertise and 
        assistance necessary to implement NAS-endorsed population 
        survey (census) methods. In 2014, the BLM will survey one-third 
        of its Herd Management Areas using the NAS-endorsed methods to 
        help account for undetected animals. Accurate population data 
        is critical for effective land use planning and herd 
        management.
    The BLM is also collaborating with the White House Office of 
Science and Technology Policy to explore the feasibility of launching a 
prize challenge to inspire a scientific solution to wild horse and 
burro population management challenges. Through continued collaboration 
with stakeholders and an emphasis in developing effective population 
growth suppression methods built on the best available science, the BLM 
remains committed to reforming the Wild Horse and Burro Program and 
maintaining rangeland health on public lands.
    A key component to ensuring long-term program sustainability by 
reducing the number of animals in holding facilities. Toward that goal, 
the BLM is implementing the following actions to curb off-range holding 
costs and reduce holding facility levels.
  --Adoption Reforms.--The BLM is entering into new partnership 
        agreements to increase the number of trained animals available 
        for adoption. The BLM has finalized a new agreement with the 
        Humane Society of the United States, and also launched the Wild 
        Horse and Burro Inmate Training Initiative to increase the 
        number of inmate training programs. The BLM is also in 
        discussions with the Defense Services Cooperation Agency and 
        Heifer International to explore the possibility of providing 
        animals for humanitarian purposes in developing nations.
  --Lower Cost Holding Facilities.--The BLM continues to seek lower 
        cost holding facilities and is currently reviewing three new 
        ecosanctuary proposals. The BLM will also be issuing a new 
        Request for Proposals for lower cost long-term holding 
        contracts.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
    Question. According to the President's June 26, 2013, Executive 
Order, the White House Council on Native American Affairs was 
established to ensure that the Federal Government engages in a true and 
lasting government-to-government relationship with federally recognized 
tribes in a more coordinated and effective manner, including by better 
carrying out its trust responsibility. It states that this policy is 
established as a means of promoting and sustaining prosperous and 
resilient tribal communities, which includes promoting infrastructure 
to drive economic growth and security and to support special efforts to 
confront historic health disparities and chronic diseases.
    The Executive Order also states that the Council shall work across 
executive departments to improve the quality of life for Native 
Americans, and make recommendations to the President concerning policy 
priorities, including improving the effectiveness of Federal 
investments in Native American communities.
    The Mni Wiconi Project Act of 1988 was enacted to ensure a safe and 
adequate water supply for the residents of the Pine Ridge, Rosebud and 
Lower Brule Indian Reservations. The Project delivers clean drinking 
water to the Reservations and the neighboring non-Indian communities. 
It is a significant Federal investment intended to improve the quality 
of life on the Reservations. The act clearly states that the United 
States has a trust responsibility to ensure that adequate and safe 
water supplies are available to meet the economic, environmental, water 
supply and public health needs of the Reservations. As you know, the 
health disparities between Native Americans and non-Indians are vast, 
with the Native Americans suffering from high rates of illness and low 
life expectancy especially on reservations such as those named above 
where poverty is rampant and access to healthcare is difficult.
    The Mni Wiconi Project is nearly complete, but remaining pieces 
still must be built on the Pine Ridge and Rosebud Reservations to 
ensure the intended beneficiaries are served. Further, the existing 
community systems that are intended to become a part of the Project 
need to be upgraded and transferred into the Project. Also, the Project 
needs sufficient operation, maintenance and replacement funds to ensure 
the Project can function as intended especially given the United 
States' substantial investment in the Project to date.
    The Cheyenne River Sioux Indian Reservation also has vast water 
infrastructure needs. The Federal Government, through the U.S. 
Department of Agriculture (USDA) Rural Development, has invested more 
than $65 million in the Mni Waste water system in recent years. This 
funding will replace and upgrade the core components of the water 
system, addressing an acute water shortage that threatens public health 
and safety and inhibits economic growth. The Cheyenne River Sioux Tribe 
and surrounding communities also face longer term concerns about the 
state of water distribution infrastructure, however. The cost of major 
upgrades and an expansion of the distribution system to serve the 
approximately 7,000-acre service area in Dewey, Ziebach, Perkins and 
Meade counties could reach several hundred million dollars.
    It is clear to me that addressing infrastructure needs of this 
magnitude on Indian reservations will require substantial engagement 
and investment from a number of different Federal agencies.
    What will you do as Chairwoman of the White House Native American 
Affairs Council to ensure that these critical water infrastructure 
projects, which are intended to meet basic human needs on Indian 
reservations, are adequately considered and furthered by the Council?
    Answer. The United States has a unique legal relationship with 
Indian tribal governments as set forth in the Constitution of the 
United States, treaties, statutes, Executive Orders, and court 
decisions. The Federal Government has enacted numerous statutes and 
promulgated numerous regulations that establish and define a trust 
relationship with Indian tribes. Moreover, the administration 
recognizes that federally recognized Indian tribes are sovereign, self-
governing political entities that enjoy a government-to-government 
relationship with the United States Government, as expressly recognized 
in the U.S. Constitution. The President is a strong supporter of the 
principle of tribal self-determination and he is committed to working 
toward fully enabling tribal self-governance.
    In my capacity as Chairwoman of the White House Native American 
Affairs Council, I will advise the President about the full range of 
issues affecting our Native American communities throughout the 
country, especially those issues addressing their health and safety. 
Critical water infrastructure leading to access to adequate potable 
water is an area on which I and my staff within the Department of the 
Interior have spent considerable time, especially given their 
importance. I am fully engaged in improving the circumstances of Native 
Americans and their access to clean water, though developing or 
improving water infrastructure projects, such as rural water projects 
with tribal components, and by coordinating the use of limited Federal 
resources by multiple Federal, State and local agencies.
    The Department of the Interior supports the goal of interagency 
cooperation and efforts to engage other agencies to participate in the 
Mni Wiconi Project utilizing their existing authorities. An interagency 
agreement, as proposed by the Bureau of Reclamation during the August 
8, 2012 Joint Consultation Meeting With Federal Agencies, has the 
potential to achieve this objective. The draft agreement discussed at 
that meeting provides that the agencies will meet quarterly during the 
first year to evaluate and prioritize potential system improvements. 
The agencies then would develop a schedule to fund and implement these 
improvements. By coordinating this effort, the agencies, utilizing 
existing authorities, could leverage multiple funding sources, and make 
more effective use of available Federal funds to accomplish the system 
improvements.
    This proposed interagency agreement and effort also meets the 
intent of the Memorandum of Understanding Among the Department of 
Agriculture, Department of Health and Human Services, Department of 
Housing and Urban Development, Department of the Interior, and the 
Environmental Protection Agency To Better Coordinate the Federal 
Government Efforts in Providing Infrastructure and Promoting 
Sustainable Practices To Support the Provision of Safe Drinking Water 
and Basic Sanitation in American Indian and Alaska Native Communities 
signed in March 2013.
    Also within my Department, and in cooperation with the Office of 
Management and Budget, I have charged senior staff with coordinating 
and improving the planning for future and current operations of Indian 
water settlements. Staffs from the Bureau of Indian Affairs, Bureau of 
Reclamation, the Office of Special Trustee, the Secretary's Indian 
Water Rights Settlement Office, and my immediate office are meeting to 
develop strategies to ensure the continuation of positive collaboration 
with tribal nations in successful resolving complex, contentious and 
longstanding litigation over water rights.
    The administration will continue to commit significant Federal 
resources to improving the lives of Native Americans, and the 
availability of potable water is at the top of my agenda.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
               wildfire cap adjustment emergency proposal
    Question. For more than a decade, this subcommittee has provided 
the Forest Service and Department of the Interior with 100 percent of 
the funds requested to fight fires. That amount has been equal to the 
10-year average. This has been an agreement between the Office of 
Management and Budget (OMB), the Congressional Budget Office (CBO) and 
the subcommittee. As the cost and severity of fires have increased, the 
agencies have run out of money mid-year and had to borrow money from 
other programs to pay for fire suppression. Fire borrowing has caused 
this subcommittee to appropriate additional funding the following year 
to back pay the borrowed accounts from the previous year. This has 
taken over $1 billion out of programs across the bill over the last 2 
years. We can all agree that this is an inefficient and problematic way 
to budget. I appreciate the proposal to create a wildfire cap 
adjustment to end fire borrowing, but there are many questions that 
remain unanswered.
    Under the new proposal, the Department of the Interior (DOI) and 
Forest Service would only need to request 70 percent of the 10-year 
average and any amounts above that would be eligible for disaster cap 
funding. Can you tell me why the administration chose the 70 percent 
level?
    Answer. In the proposed new budget framework, the administration 
wanted to limit the use of the cap adjustment to just extraordinary 
fire costs. The 70 percent level is representative of the amount of 
funding historically needed for wildfires which occur in the expected 
seasonal activity level. The other 30 percent, which would be covered 
in the cap adjustment, represents the level of funding historically 
necessary to cover the wildfires that are above expected seasonal 
activity. More to the point, roughly 99 percent of fires comprise 70 
percent of the costs in an average year, and thus requesting funding 
for 70 percent of the 10-year average within the discretionary budget 
caps is essentially funding all but extraordinary fires that carry 
outsized costs.
    The Department of the Interior and Forest Service derived the 70 
percent figure by analyzing their total number of fires for the years 
2008 through 2011 and categorizing them according to each fire's total 
cost. Specifically, Interior's universe of fires was grouped into total 
fire cost categories of $500,000 or less; $500,000 to $1 million; 
greater than $1 million; greater than $5 million; and greater than $10 
million. The Forest Service's (FS's) universe of fires was grouped into 
total fire cost categories of less than $2 million; $2 million to $3 
million; $3 million to $5 million; $5 million to $10 million; $10 
million to $15 million; $15 million to $20 million; $20 million to $30 
million; $30 million to $50 million; and over $50 million. The total 
number of Interior fires for the years 2008 thru 2011 was 42,719 fires. 
The number of fires less than $1 million in cost was 42,449 or 99 
percent of the fires. The total number of Forest Service fires for the 
years 2008 through 2011 was 28,642. The number of fires less than $10 
million was 28,596 or 99 percent of those fires.
    The total cost of Interior fires for the years 2008 to 2011 was 
$1,247,755,482 (in fiscal year 2013 dollars). The total cost of fires 
which were $1 million or less per fire was $784,791,923 (in fiscal year 
2013 dollars) in those same years, or 63 percent of the costs. The 
total cost of Forest Service fires for the years 2008 to 2011 was 
$5,127,000,000 (in fiscal year 2013 dollars). The total cost of fires 
which were $10 million or less per fire was $3,836,000 (in fiscal year 
2013 dollars) in those same years, or 75 percent.
    The averages when both Interior's and Forest Service's data were 
combined resulted in a percentage split of approximately 70/30. In 
other words, for the two agencies combined, 99 percent of fires 
consumed 70 percent of total suppression costs, while 1 percent of 
fires consumed 30 percent of total suppression costs.
    Question. For fiscal year 2014, the amount appropriated for fire 
suppression at DOI which was equal to the 10-year average was close to 
$400 million. Isn't it the case that under your new proposal you would 
have only had to request 70 percent of $400 million thereby freeing up 
funds (roughly $100 million) to be used elsewhere in your budget? In 
fact, you have touted that these funds can now be used for fire 
prevention activity.
    Answer. The new budget framework for suppression costs aims to stop 
the crippling fire transfers and create a more responsible way to 
budget for suppression operations that allows for improved agency 
planning and management. The budget includes increases of $34.1 million 
in Preparedness, $2 million in Burned Area Rehabilitation, $4.2 million 
for fixed costs increases, and $30 million to establish a new Resilient 
Landscapes program. It also funds the hazardous fuels reduction program 
at approximately the 2014 enacted level.
    Question. Have you considered continuing to use the 10-year average 
as the benchmark and only amounts above that level would be eligible 
for disaster funds?
    Answer. As reflected in its proposed new budget framework, the 
administration believes it is prudent to budget for wildfire 
suppression costs similarly to how the Federal Government budgets for 
other natural disasters. This means funding the more predictable 
suppression costs within the domestic budget caps and funding the 
unpredictable and extraordinary suppression costs through the cap 
adjustment. As explained in the response to the question above, the 10-
year average includes the costs of all wildfires. This includes those 
wildfires that are above an expected seasonal activity level. The 
administration determined that funding 70 percent of the 10-year 
average within the discretionary budget caps is essentially funding all 
but extraordinary fires that carry outsized costs.
    The underlying premise of the new budget framework for suppression 
costs is to stop the crippling fire transfers and create a more 
responsible way to budget for suppression operations that allows for 
improved agency planning and management. The proposed 2015 framework 
also allows for significant investments in other components of the 
Wildland Fire Management program which, over the long term, will help 
control suppression costs. Limiting the budget cap adjustment to only 
costs exceeding the 10-year average would undermine both of these 
attributes of the 2015 President's budget proposal.
    Currently, the administration has not sent up any specific language 
on this issue but has instead been working with Senators Wyden and 
Crapo and Congressman Simpson on their companion bills.
    Question. Does the administration plan to send up a specific 
proposal of its own?
    Answer. The Department of the Interior and U.S. Department of 
Agriculture (USDA)/Forest Service, in conjunction with the Office of 
Management and Budget (OMB), are meeting with appropriations and 
authorizing committees about the proposal. The administration has also 
offered technical assistance in drafting authorizing language.
    S. 1875, the Wildfire Disaster Fund Act of 2013, which would enact 
the proposed wildfire cap adjustment, has been referred to the Budget 
Committee, but last year the administration asked that we carry it in 
the Omnibus Appropriations bill for fiscal year 2014.
    Question. If the Budget Committee does not take action on this 
bill--which appears unlikely with Chairman Ryan's objection--would the 
administration request we do it as part of the Interior appropriations 
bill?
    Answer. The administration has been working closely with the 
committees of jurisdiction including the House and Senate Budget 
Committees. An amendment to the Balanced Budget and Emergency Deficit 
Control Act of 1985 (BBEDCA) is needed to authorize the cap adjustment 
and this authorization must be enacted prior to enactment of any bill 
containing the appropriation of wildfire suppression cap adjustment 
funding. Thus, the amendment could be included in authorizing 
legislation or in an appropriations bill that advances ahead of the 
bill containing that appropriation.
    Question. If we were to do it on the fiscal year 2015 Interior 
bill, what would be the scoring impact?
    Answer. Although the language to amend BBEDCA to authorize the cap 
adjustment does not itself score, it must be enacted in advance of an 
Interior bill that contains an appropriation for wildfire suppression 
cap adjustment funding. This is because the language establishing the 
cap adjustment must already be in law prior to the consideration of the 
funding for the cap adjustment in order to permit the Budget Committees 
to increase the 302(b) allocation by the amount of such funding. If the 
amendment is included in the same bill that contains that 
appropriation, the Budget Committees will instead count the cap 
adjustment funding against the Interior subcommittee's 302(b) 
allocation for purposes of congressional enforcement.
    Question. Can you explain whether we could utilize the funding cap 
adjustment in 2015?
    Answer. Yes, as long as the amendment to BBEDCA authorizing the cap 
adjustment is enacted prior to the consideration of any bill containing 
the appropriation of wildfire suppression cap adjustment funding, the 
cap adjustment can be utilized in fiscal year 2015.
    Currently, CBO scores the Interior bill with the full outlays 
associated with the 10-year average. With your proposal, you would only 
be requesting 70 percent of the 10-year average.
    Question. Would CBO continue to score the bill with 100 percent of 
the outlays for the 10-year average, or how would this change under 
your proposal?
    Answer. Once the cap adjustment for wildland fire is enacted, we 
expect that CBO would continue to score budget authority and outlays to 
the Interior bill based on the total amount for that purpose provided 
in the legislation. However, only 70 percent of the 10-year average 
would be counted for purposes of enforcing the 302(b) allocation. The 
Budget Committee would permit an increase in the 302(b) allocation for 
the remaining funding provided for wildfire suppression as part of the 
cap adjustment, subject to the terms of the cap adjustment.
                         contract support costs
    Question. In fiscal year 2014, the administration proposed capping 
the amounts available to tribes for contract support costs, in what I 
believe was an effort to circumvent the tribes' victory in the Ramah 
case decided by the Supreme Court. Thankfully, my colleagues on both 
sides of the aisle and in the House and Senate determined this was not 
the right approach. Since then, the administration has announced it 
will pay full contract support costs for the current fiscal year and 
has also requested the full amount in the Bureau of Indian Affairs 
(BIA) and Indian Health Service budgets for fiscal year 2015. For BIA, 
this is $251 million. I have a few questions about this that go to how 
your budget is formulated so I'll ask Ms. Suh.
    How are these estimates for contract support costs estimated for 
your budget submission?
    Answer. Indian Affairs used a number of factors to estimate the 
Contract Support Cost (CSC) amount that is requested in the President's 
budget request. The factors included prior year CSC Shortfall reports, 
estimating the CSC need based on the amount of funding requested in the 
Operation of Indian Programs account, and estimating the potential 
change in the cost associated with administering new and expanded self-
determination or self-governance compacts for tribes or tribal 
organizations. After this analysis, Indian Affairs estimates the total 
CSC need for fiscal year 2015 at $251 million ($246 million for 
Contract Support Cost and $5 million for the Indian Self-Determination 
Fund). This is similar to the methodology used to develop the CSC 
amount included in the Indian Affairs 2014 Operating Plan which was 
$247 million ($242 million for Contract Support Cost and $5 million for 
the Indian Self-Determination Fund).
    Question. For years, we've had shortfall reports which have come in 
after the fact and indicated that a sufficient amount was not 
appropriated in a particular year for contract support costs. How, if 
at all, has the process been improved to more accurately estimate the 
need in the upcoming year for contract support costs?
    Answer. The methodology for estimating the CSC shortfall amount and 
total CSC funding need has been refined over the years. With each 
subsequent year, with an additional year of data and greater 
experience, Indian Affairs has aspired to become more accurate in 
estimating these costs. In recent years, one refinement has been 
greater emphasis on basing the CSC estimate on the amount of funding in 
the Operation of Indian Programs account, which is a major driver of 
CSC.
    Question. Isn't it also the case that the need for contract support 
costs may change based on how Congress treats your budget? For example, 
if you get an increase in several program lines, that will also 
increase the need for the contract support costs that go to the tribes 
to deliver the programs.
    Answer. Yes, the total CSC funding need can vary based on the final 
appropriated amounts that Congress enacts. If Congress increases 
funding for program lines that call for CSC, the CSC need will rise. If 
Congress reduces program lines that call for CSC, the CSC need will 
also decrease.
        greater moose's tooth--national petroleum reserve-alaska
    Question. The Bureau of Land Management (BLM) is working to 
finalize the Supplemental Environmental Impact Statement (EIS) for the 
Greater Moose's Tooth development project. This EIS tiers off the 
National Petroleum Reserve-Alaska (NPRA) Final Integrated Activity Plan 
and EIS, and the Alpine Satellite Development Plan Final EIS. GMT-1, as 
it's referred to, will allow for the first oil production from the 
NPRA, which the administration has specifically stated is part of its 
all-of-the-above energy strategy. As with all development projects in 
Alaska, construction timelines are tight, and several permits must be 
in place before the project may move forward. Simply put, GMT-1 cannot 
move forward until the EIS is finalized, as subsequent permits will be 
based on this document.
    The public comment period on the Supplemental EIS is 60 days and 
does not close until April 22.
    Given that this is a Supplemental EIS and tiers off two other Final 
EISs, do you agree that 60 days is sufficient for public comment?
    Answer. The public comment period was not extended and the BLM 
expects to have ongoing public engagement.
    Question. After the public comment period closes, how much time 
(weeks, months?) does the Department expect to need to finalize the 
document?
    Answer. Public comments received will be reviewed and considered as 
the BLM prepares the Final Supplemental EIS.
    Question. When do you expect the Final EIS to be released?
    Answer. The BLM is working diligently to complete the Final 
Supplemental EIS; however, it is important to note this is a complex 
undertaking. The project continues to move forward as planned and will 
be released upon consideration of public comments and preparation of 
the Record of Decision.
    Question. Does the Department have adequate resources to make sure 
this project moves forward this year?
    Answer. The BLM has an interdisciplinary team focused on completing 
the requirements to move this project forward.
                oil and gas development on public lands
    Question. Domestic oil and gas development plays a critical role in 
our Nation's economic and national security. We see daily evidence of 
this as we continue to watch events unfold in Ukraine. Unfortunately, 
rather than encouraging onshore development, Federal policies make 
public lands less attractive to investment when compared to State and 
private lands. This results in important resources, revenues, and jobs 
left in the ground. I think it is unfortunate that resource rich States 
and our Nation are not able to take advantage of the myriad benefits 
responsible domestic development provides.
    For perspective, for every dollar invested in onshore oil and gas 
development on public lands, $88 in revenue is generated. In 2012 this 
resulted in $3.5 billion in onshore lease and royalty revenues to 
American taxpayers.
    I was dismayed to see the Department's proposals for oil and gas 
development, which focus on increased fees, higher royalty rates, and 
shorter lease terms. Especially since activities designed to improve 
permitting, such as continued funding for pilot offices, were not 
prioritized and the leasing reforms put in place have primarily served 
to give anti-development interests another bite at the apple when it 
comes to litigation. Contrast this with the budget's request for 
renewable energy which is designed to ``continue to aggressively 
facilitate and support solar, wind, and geothermal energy 
development.'' I support responsible renewable energy development on 
public lands, but I do not support favoring it over traditional energy 
development.
    Do you know how much revenue is generated by the renewable energy 
industry on public lands compared to the onshore program on public 
lands?
    Answer. Total revenues from solar, wind, and geothermal 
authorizations and leases on public land were approximately $25 million 
in fiscal year 2012 and $25.5 million in fiscal year 2013. Revenues 
will increase substantially as construction is completed on many 
projects and these facilities enter operation and begin to deliver 
energy to the electric grid. Until recently, there were no commercial 
scale solar energy facilities operating on public lands managed by the 
Department.
    The total revenues from the onshore oil and gas program were 
approximately $2.9 billion in fiscal year 2012 and $3 billion in fiscal 
year 2013 from oil and gas royalties, rents, and bonus bids.
    Question. Do you believe we should also aggressively facilitate oil 
and gas development on public lands? Why or why not?
    Answer. Promoting the efficient, safe, and responsible development 
of public land energy resources is a critical part of the 
administration's broad all-of-the-above energy strategy. The BLM 
actively facilitates oil and gas development on public lands as a 
critical contributor to both the national economy and energy portfolio, 
while also continuing to meet various Federal environmental 
requirements, such as the National Environmental Policy Act (NEPA) and 
Endangered Species Act (ESA). Following these mandates, the BLM 
supports vital oil and gas development activities which help our Nation 
achieve a more secure energy future.
    Question. Do you believe the budget proposal increases or decreases 
competitiveness of public lands?
    Answer. Federal oil and gas production is an important component in 
fulfilling our Nation's energy needs and the Department has an 
obligation to the public to ensure a fair return on that production. 
The Department deems the proposed changes necessary to ensure this fair 
return, and we do not believe they will make Federal lands less 
competitive compared to the States. Onshore Federal oil and gas royalty 
rates, which are currently 12.5 percent, are lower than most States' 
royalty rates.
    The administration believes that American taxpayers should get a 
fair return on the development of energy resources on their public 
lands. We feel industry should pay the cost of inspecting and 
monitoring oil and gas activities, as is the case for other industries, 
including offshore oil and gas. This is consistent with the principle 
that the users of the public lands should pay for the cost of both 
authorizing and oversight activities.
    The Department's intent behind the proposed fee on non-producing 
leases is to encourage more timely development of Federal lands. The 
fee will provide an incentive for oil and gas companies to either put 
their leases into production or relinquish them so the Department can 
re-lease those tracts to companies who want to develop them. Many 
States also have similar fees (e.g., escalating rental rates) to 
encourage development. Therefore, the Department does not believe the 
proposed changes will make Federal lands less competitive compared to 
the States.
    The President's 2015 budget request also includes a more than 20 
percent funding increase to strengthen the BLM's Onshore Oil and Gas 
Program and supports continued implementation of leasing reforms, 
enhanced oversight, and a strengthened inspections process. Leasing 
reforms launched in 2010 have cut the rate of protests from nearly 50 
percent in fiscal year 2009 to approximately 18 percent in fiscal year 
2013, leading to reduced costs and greater certainty for lessees. It is 
also important to note the BLM issued 1,468 leases in fiscal year 2013.
    Question. Given the constraints of our current budget, does the 
Department consider the impact to investment that increased fees and 
duplicative regulations have on generating revenue for taxpayers when 
making funding request decisions?
    Answer. The Department has not proposed duplicative or unnecessary 
regulations. Moreover, we believe that the modest fees proposed on oil 
and gas operations in the 2015 budget request will have a negligible 
impact on other revenue generation while providing important resources 
to fund the programs that support responsible oil and gas development 
on Federal lands.
    The BLM's 2015 budget request for authority to collect inspection 
and enforcement fees aligns onshore oil and gas inspections and 
enforcement with the authority the Congress has enacted annually since 
2010 for oil and gas inspection and enforcement on the outer 
continental shelf. The Department estimates the fees will generate $48 
million which will allow for a $38 million decrease in net BLM 
appropriations while still providing for an increase of $10 million for 
BLM to expand and strengthen onshore oil and gas inspection and 
oversight.
    The additional funding provided by the fee authority is necessary 
to improve the BLM's capacity for production accountability, safety, 
and environmental protection. The BLM will use the funds to expand 
capacity to correct deficiencies identified by the Government 
Accountability Office (GAO) in a February 2011 report, designating 
Federal management of oil and gas resources as high risk. Funds from 
the fees will be used to increase inspections of Federal and tribal 
high risk oil and gas cases and complete more environmental inspections 
to ensure environmental requirements are being met in all phases of 
development. Expanding BLM's capacity to conduct production 
accountability inspections will better ensure American taxpayers are 
properly compensated for the value of oil and gas resources developed 
on the public lands.
    The proposed inspection fees would also enable the BLM to be more 
responsive to market demand. This funding will be used to hire new 
inspectors and improve the tools and systems necessary to implement the 
risk-based inspection program.
                npra land planning/other land plan costs
    Question. The U.S. Fish and Wildlife Service more than 3 years ago 
began work on a new land management plan for the Arctic National 
Wildlife Refuge. The preliminary plan seemed to propose that most of 
the 19 million-plus-acre refuge, including all of the 1.5 million acres 
of the Arctic coastal plain that the U.S. Geological Survey (USGS) 
predicts contains between 6.7 billion and 16 billion barrels of oil--
America's largest on shore petroleum resource--would be proposed for 
wilderness, rather than just the 8 million acres already placed in 
wilderness by the Alaska lands act in 1980. In 2013, however, efforts 
to finish the land management plan seemed to have gone into suspended 
animation, which means the area is being managed as if the new land 
plan is already in effect.
    Where is the planning process at present and when is a final NPRA 
revised land plan likely to be unveiled?
    Answer. The BLM released the National Petroleum Reserve in Alaska 
(NPR-A) Final Integrated Activity Plan (IAP)/EIS on December 19, 2012. 
On February 20, 2013, the Record of Decision for the Final IAP/EIS was 
released and superseded previous land use plans in the management of 
the 23-million-acre reserve.
    As for the Arctic National Wildlife Refuge (ANWR), the U.S. Fish 
and Wildlife Service published a draft revised Arctic National Wildlife 
Refuge Comprehensive Conservation Plan/Draft Environmental Impact 
Statement (CCP/EIS) for public comment on August 15, 2011. The CCP/EIS 
proposed six alternatives ranging from recommending Wilderness 
designation for the Brooks Range, the Coastal Plain, and the Porcupine 
Plateau and Wild River designation for the Atigun, Hulahula, Kongakut, 
and Marsh Fork Canning rivers to recommending current management 
practices remain unchanged. A preferred alternative was not identified. 
Over 612,000 public comments were received on the draft. These included 
communications by mail, e-mails, faxes, Web site submissions, and 
statements at public meetings. The Department is considering the 
comments received and continues to prepare a final CCP/EIS.
    Question. Also, can you supply for the record what both the Fish 
and Wildlife Service and the BLM are planning to spend in fiscal year 
2015 on updating land management plans in Alaska overall?
    Answer. The BLM funding allocation for updating land management 
plans in Alaska in fiscal year 2015 is $2.1 million and the Fish and 
Wildlife Service (FWS) estimates that it will spend $300,000 in fiscal 
year 2015 for updating Comprehensive Conservation Plans on National 
Wildlife Refuges in Alaska. The FWS will also provide section 7 
consultations to Federal agencies in Alaska in 2015, though the cost of 
these consultations is not tracked by agency.
    Question. There are at least three other plans throughout western 
and central Alaska in varying stages of updating/completion, some 
before their normal planning windows. I'm curious about what they are 
costing the Department.
    Answer. Following is a funding schedule for the Eastern Interior 
RMP, the Bering Sea/Western Interior Resource Management Plan (RMP), 
the Central Yukon RMP, and the NPR-A.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal year--
               Plan name                ----------------------------------------------------------------  Total
                                           2009     2010     2011     2012     2013     2014   2015 \1\
----------------------------------------------------------------------------------------------------------------
Eastern Interior RMP...................     $763     $608      $44     $150     $300      $70       $50   $1,985
Bering Sea/Western Interior RMP........  .......  .......  .......  .......      659      825       948    2,432
Central Yukon RMP......................  .......  .......  .......  .......      561      675     1,020    2,256
NPR-A..................................  .......      195      940      977      500  .......  ........    2,612
----------------------------------------------------------------------------------------------------------------
\1\ Anticipated. Actual allocation may vary based on needs, scheduling, and competing priorities.

                          legacy well cleanup
    Question. Madam Secretary, we have spoken often about the need for 
the Department to speed up the cleanup of 136 abandoned oil and gas 
exploration wells in northern Alaska, wells drilled by the Government 
in both the 1940s and late 1980s and early 1990s. You had about $1 
million in your budget last year for such cleanups. Fortunately, in the 
Helium bill last fall we were able to increase your cleanup funding by 
$50 million so that the Department will be able to tackle the worst of 
the wells in coming years and gain efficiencies by being able to reduce 
mobilization costs and improve coordination of the cleanup efforts. But 
that $50 million will not solve all of the problems.
    Will the Department change its priorities and increase its regular 
budgetary funding to tackle environmental cleanups of abandoned Federal 
wells on an annual basis, since their cleanup truly is a Federal 
responsibility, so that we aren't back in the same position in 6 years 
of having insufficient funding to clean up environmental problems on 
Federal lands?
    Answer. The Department appreciates your role in the passage of the 
Helium Stewardship Act of 2013, which allows BLM to continue to provide 
stability to the helium market and support 21st century jobs and 
industry. The bill also provides a major funding source to address the 
worst abandoned oil and gas exploration wells. This funding will 
significantly increase the speed of remediation efforts at those high 
priority wells.
    When Congress transferred administration of the Naval Petroleum 
Reserve No. 4 in 1976 (legislatively renamed the National Petroleum 
Reserve-Alaska or NPR-A), the Department inherited a massive legacy of 
federally drilled oil and gas exploration wells. Some of these wells 
have never been properly plugged and closed and the workload was well 
beyond the scope of the DOI environmental cleanup budget. To date, 
nearly $90 million has been spent cataloging, monitoring and 
remediating these legacy wells.
    The BLM will continue to coordinate efforts with the State of 
Alaska and the North Slope Borough in addressing well plugging and 
cleanup activities so these wells can be closed in a manner consistent 
with State and Federal law. Although it is premature to discuss budget 
priorities for the years 2020 and beyond, the BLM will keep the 
subcommittee fully informed of its progress over time with the 
objective of ensuring no surprises as we work through this legacy 
workload.
              national park service centennial initiative
    Question. The Department's budget contains a proposal in support of 
the Park Service Centennial in 2016. We all support the National Parks 
and recognize the importance of this event. The most significant 
feature of this proposal is the request for $300 million in each of the 
next 3 years in mandatory funding, $100 million to be matched by 
private partners, for what your budget describes as signature projects 
and $200 million for deferred maintenance projects. The budget also 
indicates that you plan to send up a legislative proposal for this 
initiative later this year.
    Can you explain to me what you mean by signature projects? In other 
words, what are the criteria for qualifying for a project with these 
funds?
    Answer. The minimum eligibility requirement for a project is that 
they have a one to one partner match to Federal funds. Preference will 
be given to projects with a higher partner match, a clear and immediate 
visitor benefit, and an ability to be obligated in a timely manner. The 
visitor benefit may include projects such as educational programing, 
providing increased visitor access, or rehabilitating a visitor use 
asset. All parks and partners are eligible.
    Question. Will these projects also address the backlog or will they 
be for new construction? My concern is that many folks who may give 
private donations may be interested in new facilities rather than 
fixing up many existing sites.
    Answer. These projects would support both infrastructure and non-
infrastructure needs. There is evidence of strong partner support for 
projects other than new construction. For example, the Yosemite 
Conservancy is interested in repairing water lines to save the habitat 
of the giant sequoias, and the Gettysburg Foundation is interested in 
rehabilitating the Little Round Top visitor use area. These projects 
would be in addition to the deferred maintenance projects funded 
through the $200 million proposal, which will have specific performance 
measures to track the restoration of the highest priority park assets 
to good condition.
    Question. Will more rural States with less philanthropic resources 
be at a disadvantage in competing for funds against wealthier areas?
    Answer. Our partners are very diverse, and their ability to raise 
funds varies widely, but we feel we will be able to match our myriad 
Centennial efforts to an appropriate partner--or partners--as 2016 
approaches and the Centennial Initiative gains momentum. Our experience 
with managing the Centennial Challenge program from fiscal year 2008 to 
fiscal year 2010 does not indicate that rural States would be at a 
disadvantage. For example, successful projects were at rural parks such 
as Tallgrass Prairie National Preserve, Mesa Verde National Park, 
Redwood National Park, and Andersonville National Historic Site. Many 
parks in rural States have well established friends groups.
    Question. While I support efforts to address the backlog which $200 
million of this proposal does, what offsets will be used to pay for 
this new mandatory funding?
    Answer. The administration looks forward to working with Congress 
on the details of legislation that would advance the Centennial 
proposal, including the necessary offsets for this new spending. That 
includes revenue generating proposals in DOI's 2015 budget that are 
estimated to result in savings to the Treasury of more than $2.6 
billion over 10 years. While the fiscal climate requires prudence, 
national parks have a proven track record as economic engines. For 
example, the recently released, peer reviewed National Park Visitor 
Spending Effects report found that national parks across the country 
continued to be important economic engines, generating $26.75 billion 
in economic activity and supporting 243,000 jobs. In terms of 
leveraging Federal funds, for every dollar invested by taxpayers, $10 
is returned to the American economy.
    Question. As an appropriator, it always gives me pause when we move 
portions of an agency's budget offline. What role will this Committee 
have in overseeing how these funds are expended?
    Answer. The administration recognizes the help the Appropriations 
Committee has provided in addressing deferred maintenance in national 
parks, so we would want a legislative proposal to provide for 
appropriate oversight by this Committee. There are a number of options, 
such as consultations on criteria to be used and notifications now 
included in annual congressional justifications on the planned 
allocation of Recreation Fee permanent appropriations.
                       katmai/brooks camp bridge
    Question. Madam Secretary, your budget request includes $4.4 
million for the first phase of a $7.5 million project to replace the 
existing floating bridge at Brooks Camp in Katmai National Park with an 
elevated bridge and walkway. This new bridge will be a minimum of 10 
feet above the ground. The purpose is to minimize human-bear 
interactions which frequently cause lengthy delays for workers and 
visitors getting back and forth across the Brooks River.
    While these objectives may be worthwhile, I'm troubled by the fact 
that this bridge is part of what I view as an outdated Development 
Concept Plan (DCP) completed in 1996 that also calls for moving the 
entire existing Brooks lodge to the other side of the river. I 
completely disagree with that not only because it would be totally cost 
prohibitive, but also because of the historic significance of this 
facility. It was created by one of Alaska's aviation pioneers who built 
this camp before Katmai National Park was established. I don't want to 
see the construction of this bridge if it is part of an effort by the 
Park Service to move Brooks lodge.
    Is it still the DOI's position that the Brooks lodge facility must 
be moved to the other side of the Brooks River?
    Answer. The National Park Service (NPS) does not plan to move the 
historic Brooks lodge facility. Once the bridge is finished, the NPS 
will complete the supporting infrastructure at the Valley Road 
Administrative Area and move the majority of NPS housing to the south 
side. This combined effort will significantly reduce development on the 
north side, mitigating impact to cultural resources and bear use areas. 
It will greatly improve the visitor experience. The lodge, campground, 
cultural exhibits, and limited concessioner housing will remain on the 
north side.
    Question. Would the Department agree to go back and re-do the 
existing DCP so that it reflects the latest science and budget 
realities that we are operating under?
    Answer. The 2013 Brooks River Visitor Access EIS amended the 1996 
Development Concept Plan (DCP) by retaining existing floatplane access 
on Naknek Lake and Lake Brooks, and approving an elevated bridge and 
boardwalk system across Brooks River. It improves visitor safety by 
reducing the risk of bear interactions and provides for permanent, 
reliable access across the river.
    The NPS utilized scientific expertise in formulating the 2013 plan 
(Amended EIS). For instance, NPS convened a panel of State, Federal, 
and university brown bear experts to advise the planning team during 
project scoping. Other special studies of cultural resources, river 
hydrology, geotechnology, and bear movements informed the plan. The 
plan was vetted through full public involvement, including project 
scoping and meetings conducted in Anchorage, King Salmon, and Brooks 
Camp.
                red devil mine/native land contamination
    Question. First, I want to thank the Secretary for proposing to 
include $2.7 million to speed remediation of mine waste at the old Red 
Devil Mine site in Southwest Alaska--a situation that has been under 
consideration between Interior and the State of Alaska for more than a 
decade. However, Red Devil also brings up the broader issue of 
environmental pollution and contamination on lands already conveyed to 
Alaska Natives under the Alaska Native Claims Settlement Act. 
Currently, there are more than 650 such sites on Native lands--lands 
contaminated prior to conveyance--where the Federal Government is 
statutorily responsible for the cleanup. In 1988, the Department 
studied the subject and proposed a six-point effort to speed up cleanup 
of such contamination but nothing happened. Last fall, I wrote and 
asked you about the Department's plans for cleanup. In January, you 
promised the Department would update its contaminated lands survey--and 
I understand you have assigned staff to update that survey.
    My question is how quickly might the updated survey be finished and 
more importantly, how quickly will the Department devote actual funding 
and resources to clean up contamination caused by Federal agencies?
    Answer. The Department shares your concern that contaminated lands 
may have been conveyed to the Alaska Native Claims Settlement Act 
(ANCSA) corporations. As I stated in my January 2014 letter, the 
Department is committed to determining what sites identified were 
conveyed under ANCSA in order to continue follow up on the six 
recommendations. The BLM is working cooperatively with the Alaska 
Native Village CEO Association on this issue and meeting regularly with 
them to gather information and complete the inventory. The BLM's goal 
is to complete the inventory by late summer this year.
    Since January 2014, the BLM-Alaska has designated a full-time 
project manager to focus specifically on the contaminated lands. The 
project manager's group is reviewing the BLM's data to determine what 
contaminated lands may have been conveyed. A database of this 
information is being developed, which will allow us to prioritize 
future actions. Once the inventory is completed, the Department will be 
better able to assess the resources appropriate to remediate the 
contaminated lands.
                   alaska volcano observatory funding
    Question. The United States Geological Survey operates the Alaska 
Volcano Observatory, a joint entity with the University of Alaska. USGS 
operates five such observatories in the western United States. The 
observatory maintains a series of seismic monitors on volcanoes in 
Alaska, largely on the Alaska Peninsula and the Aleutian Chain, near 
the air corridor for flights to America from Asia. Ash from eruptions 
is particularly dangerous to such flights as shown by the near crash of 
a jumbo jet years ago.
    According to USGS's own count, many of the seismic monitors need to 
upgrade to digital technology, as well as the replacement of antennas 
and batteries since the stations are rapidly going off line. Not only 
is this causing a real health and safety issue not just for Alaskans, 
but international passengers on trans-Pacific flights. Your budget 
contains several increases, such as a $17.1 million increase just for 
climate change research, while it appears to contain roughly flat 
funding for the Natural Hazards Program, even though tracking and 
predicting earthquake and volcanic eruptions would seem to be one of 
the Department's most important health and safety responsibilities. 
Your budget seems to call for increases of just $314,000 for the 
Earthquakes Program--a sore subject in this the 50th anniversary year 
of the strongest earthquake in North American history--the Good Friday 
quake in Alaska in 1964--and just $187,000 for the Volcano Program, 
even though the estimate just to maintain just the Alaska seismic 
monitoring network will cost millions additionally a year for 
maintenance to keep the network from collapsing.
    I'm afraid we're going to reach a point in the very near future 
where we simply don't have enough information available to predict and 
monitor the volcanic activity in Alaska, which could have catastrophic 
consequences. The fiscal year 2014 Conference Report contained language 
noting these challenges and concerns.
    What is USGS doing to make sure that these monitoring systems don't 
collapse in the near future, as is predicted?
    Answer. The fiscal year 2014 Omnibus Appropriations report provides 
$400,000 toward rapid response to ash forming eruptions and network 
restoration activities. As proposed in the 2015 President's budget 
request, these funds will be applied toward installation of monitoring 
instrumentation at other U.S. volcanoes prone to ash-forming eruptions 
in Washington and Oregon. Restoration of existing Alaskan volcano 
networks is a long-term project with anticipated duration of 3 to 4 
years at the current funding level.
    The Alaska Volcano Observatory (AVO) received an additional 
$119,000 in 2014 to support maintenance work on geophysical monitoring 
networks on Alaska volcanoes. Of this amount, the USGS will spend 
$73,000 on equipment and maintenance costs for ailing monitoring 
networks and $46,000 for helicopter support will be routed to the 
Alaska Division of Geological and Geophysical Surveys through a 
cooperative agreement to support maintenance of monitoring networks. 
The high priority targets for AVO maintenance work in the summer of 
2014 will be the repair of instruments on Shishaldin, Westdahl, and 
Fisher volcanoes on Unimak Island, where all seismic instruments are 
operating at an impaired level. Shishaldin is experiencing an ongoing 
low level effusive eruption and seismic instruments are critically 
needed. Additionally, AVO plans network maintenance on the Katmai 
volcanoes of Spurr, Redoubt, Augustine, Akutan, Makushin, and Okmok in 
2014, where seismic instruments are also operating at an impaired 
level. No maintenance is planned in 2014 for Aniakchak or Four Peaked 
volcanoes where networks have recently failed. AVO hopes to re-engineer 
these networks so they will be more robust and cost effective to 
operate and plans to make repairs/upgrades in 2015 pending availability 
of funds.
    AVO is also partnering with a National Science Foundation (NSF) 
funded archeology project through the University of Kansas and Whitman 
College to place two new monitoring stations on Cleveland volcano. 
Cleveland volcano has been the most consistently active volcano in 
Alaska over the past 5 to 10 years and is currently not monitored with 
ground based instrumentation. This maintenance will lower the hazard 
risk posed to NSF-funded researchers and accompanying USGS scientists 
and provide the means to detect and warn of future eruptions of 
Cleveland much more rapidly than is currently possible. This 
partnership significantly lowers the logistical costs on placing 
monitoring instrumentation on this very active and very remote Aleutian 
volcano. Future commitments by the NSF GeoPrisms initiative suggest 
that cost effective ship and helicopter access for maintenance work 
will continue for at least several more years.
    Question. Could you provide this subcommittee with the current gaps 
in the monitoring infrastructure at the Alaska Volcano Observatory and 
the estimated costs to maintain a sufficient monitoring system?
    Answer. Currently AVO seismic networks on Aniakchak, Little Sitkin, 
Four Peaked, Wrangell, and Semisopochnoi volcanoes are not operational 
and seismic networks on Gareloi, Westdahl, Fisher, Shishaldin, Dutton, 
Peulik, Katmai, and Pavlof volcanoes are operating at an impaired 
level. To repair and consistently maintain these networks AVO would 
need an additional $2.5 million a year for an annual budget of $6.5 
million to $7 million. AVO currently has no ground-based monitoring at 
several moderate to high threat volcanoes including Kiska, Kasatochi, 
Seguam, Amukta, Yunaska, Carlisle, Cleveland, Herbert, Kagamil, 
Vsevidof, and Chiginagak and these volcanoes represent significant gaps 
in our ability to address volcanic hazards in Alaska and on North 
Pacific air routes.
    The Volcano Hazards Program (VHP) has to balance the high threat 
volcanoes in Alaska needing instrumentation with the Very High Threat 
volcanoes in the conterminous United States whose monitoring networks 
are inadequate for the threat they pose--most notably Glacier Peak, 
Washington (virtually no instrumentation); Baker, Washington; Mt. Hood, 
Oregon; Lassen Peak, California; and Mt. Shasta, California.
                    land and water conservation fund
    Question. Your fiscal year 2015 proposal asks for $550 million in 
mandatory spending for the Land and Water Conservation Fund (LWCF) 
program. The administration has been making similar requests to use 
mandatory funds for LWCF over the last several years and Congress has 
not enacted any of them. Your budget documents indicate that in fiscal 
year 2016, the administration will propose the fully authorized level 
of $900 million for LWCF, paid for entirely through mandatory 
appropriations. I wholly disagree with this. In a time of tight budgets 
and overwhelming debt, why should Congress, and especially this 
subcommittee support putting this program on auto pilot? LWCF has 
received roughly $300 million over the last few budget cycles in 
discretionary funds.
    Why should this program be placed above other critical priorities 
in the Interior bill like Indian schools and healthcare and receive 
guaranteed full funding?
    Answer. The Department of the Interior is entrusted with overseeing 
Federal lands for the benefit of current and future generations. The 
Land and Water Conservation Fund is an innovative program that has, for 
nearly 50 years, used revenues from offshore oil and gas development to 
enhance parks and open spaces in every county across the country. The 
LWCF Act has been one of our Nation's most effective tools for 
protecting our Nation's cultural resources, protecting important 
habitat, expanding access for hunting and fishing, creating ballfields 
and other places for kids to play and learn, and protecting Civil War 
battlefields.
    Congress passed the LWCF Act and established $900 million as its 
authorized funding level to ensure balance between the depletion of one 
national resource--our offshore oil and gas reserves--and the permanent 
conservation of our lands and waters. Authorizing mandatory funding for 
the LWCF would realize the original intent of this law: to set aside a 
meaningful portion of the royalties that companies pay for developing 
America's offshore oil and gas reserves, and reinvest those funds in 
land and water conservation for the benefit of all Americans and future 
generations. Mandatory funding will not remove all congressional 
discretion over the use of the funds, but will provide greater 
certainty that this portion of our offshore royalties are used for 
their intended purpose: to support the national endowment of lands and 
waters which provide our cities with clean drinking water, provide our 
children with safe places to play, and protect the way of life of our 
farmers, foresters and ranchers.
    Wisely utilizing the revenues that are deposited into the LWCF 
account has been a high priority for the Department across many 
administrations, regardless of political affiliation. However, it is 
one of many priorities that must be balanced. The administration is 
also committed to ensuring that Native American youth who attend Bureau 
of Indian Education-funded schools benefit from academically rigorous, 
culturally appropriate education that will prepare Indian students to 
be successful citizens and future leaders in their communities and help 
build safer, stronger, healthier, and more prosperous Indian 
communities and economies. Improving education and literacy in tribal 
nations is essential to vitalizing community life, stimulating economic 
development, increasing employment opportunities, and improving 
standards of living for future generations of Native Americans. A 
thriving educational system for American Indian students is a critical 
component of the broader initiative to strengthen tribal communities.
    Indian Affairs owns or provides funding for a significant inventory 
of buildings and other facilities across the Nation, including 
education facilities in Indian country. Currently, Indian Affairs 
provides funds for facility programs for 183 academic and resident-only 
campuses. From 2002 through 2014, over $2 billion, including $300 
million of funding made available in the American Recovery and 
Reinvestment Act, has been provided for construction, improvement, and 
repair projects that have reduced the number of schools in poor 
condition from more than 120 of the 183 schools to 63 today. 
Appropriations for education construction over the last 15 years has 
funded 42 complete school replacements and 62 major renovations, which 
are either completed, funded or under construction. The budget supports 
progress in completing the 2004 Replacement School Construction 
priority list, providing funding for the Beatrice Rafferty School.
                         alaska land conveyance
    Question. I was disappointed to see that the Department is once 
again proposing to cut funding for completion of Alaska land 
conveyances. The State of Alaska and the Alaska Native corporations are 
still awaiting conveyance and patenting of the 149 million acres 
promised them in 1959 and 1971 in the Statehood Act and the Alaska 
Native Claims Settlement Act. The last official numbers I saw showed 
that combined, the Government still owes the State and Natives interim 
conveyance of approximately 7 million acres and patents to about 46 
million acres.
    Only 4 years ago, the funding for these conveyances was roughly $34 
million, but the administration proposed to cut that by over 50 percent 
to just $16.6 million in fiscal year 2013. In fiscal year 2014, 
Congress provided $22 million, which should help to speed up the 
required land surveys. I was disappointed, then, when your fiscal year 
2015 budget request of only $19 million again proposes to cut funding 
for this important program. While $3 million may not seem significant, 
the extra funding could help complete conveyances within 5 to 10 years, 
instead of the 20 or 30 years that likely would be result if funding 
fell back to fiscal year 2013 levels.
    Why is the Department again seeking to cut conveyance funding when 
completing the conveyances is clearly a legal obligation under three 
different Federal laws?
    Answer. The BLM has innovated and modernized its survey and 
business practices in Alaska and is already achieving faster and 
improved outcomes with a smaller investment. Under previous processes, 
the remaining conveyances would have taken decades to complete (until 
approximately 2045). To accelerate the timeframe for completing the 
remaining survey and conveyance requirements, the BLM transformed its 
survey technique to expedite land transfers. The new approach reduces 
physical monuments in the ground and provides precise geospatial data 
for land boundaries, reducing the cost of surveys by up to 50 percent 
and accelerating timeframes for the final patenting of lands to the 
State. With this new initiative, the BLM will meet its obligation to 
the State and Alaskan Natives substantially sooner and more 
economically. The 2015 request level plots a course for completing all 
surveys and land transfers in 10 years.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. In February 2013 a study was released that estimated 
National Heritage Areas contribute $12.9 billion annually to our 
Nation's economy. The study also reported that the 49 National Heritage 
Areas across the country support 148,000 jobs and contribute $1.2 
billion in Federal taxes annually. Would the President's budget 
proposed 54 percent reduction in funding for the Heritage Partnership 
Program have an effect on the economic impact and jobs supported by 
National Heritage Areas?
    Answer. The reduction proposed in the President's budget supports 
the directive for the more established National Heritage Areas (NHAs) 
to work toward becoming more self-sufficient. This directive was 
provided in the House Report 111-180 for the fiscal year 2010 Interior 
appropriations bill. As NHAs develop other sources of non-appropriated 
funding to attain operational self-sufficiency, appropriated funds 
would still leverage significant economic benefits, including job 
creation, through tourism and visitor spending.
    The budget provides support to sustain critical functions of the 
National Park Service's (NPS') valued NHA partners, especially those 
areas that are in the process of developing and implementing their 
sustainability plans and forming networks of operational and financial 
partnerships. The performance-based funding formula currently in the 
process of being implemented for NHAs will, once fully implemented, 
reward NHA entities that bring in additional non-Federal investment and 
which have also developed a sustainability plan.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                          white-nose syndrome
    Question. In February 2010, white-nose syndrome was confirmed in 
the State of Tennessee and continues to spread. I am very concerned 
about this because of the potential long-term impact it could have on 
Tennessee.
    Bats are consumers of enormous numbers of insects that threaten 
crops and forests. Because of the insects and the amount of insects 
that bats consume, economic analysis estimates that the value of pest 
suppression bats have per acre ranges from $12 to $173, with an average 
benefit of $74 per acre. The same study estimates the total annual 
agriculture benefit of bats ranging from $3 billion per year to $53 
billion per year, with the most likely annual benefit of $22 billion 
per year.
    As of 2011, agriculture and forestry industries in Tennessee impact 
the State's economy with $66.4 billion in total economic activity and 
more than 337,880 in employment according to the Tennessee Department 
of Agriculture. So the loss of these bats could severely damage the 
Tennessee economy.
    Would you provide an update on the research the Department has 
conducted on the spread of white-nose syndrome and what the 
Department's goals for white-nose syndrome are and how do you plan to 
achieve them?
    Answer. Since discovered in 2007, white-nose syndrome (WNS), caused 
by the fungus Pseudogymnoascus destructans (Pd), has killed over 5 
million bats, and the disease has spread to 25 U.S. States and five 
Canadian provinces. The National Park Service has detected the fungus 
in 10 park units. Formally accepted in 2011, the National Plan for 
Assisting States, Federal Agencies, and Tribes in Managing White-nose 
Syndrome in Bats (National Plan) provides a framework for coordinating 
the WNS investigation and identifies research and management goals for 
the collective response to the disease. Numerous discoveries stemming 
from collaborative research conducted over the last several years at 
the U.S. Geological Survey (USGS) and other centers, universities, and 
State and Federal laboratories have contributed to current 
understanding of WNS and the ability to closely monitor disease spread. 
The result of this research has enabled the USGS to develop an enhanced 
molecular method (real-time Polymerase Chain Reaction) to detect Pd, 
demonstrate that bat hibernacula serve as long-term reservoirs for Pd, 
characterize the influence of temperature on growth of Pd, determine 
that infection by Pd disrupts the physiology of hibernating bats, and 
demonstrate that Pd was likely introduced to North America from Europe.
    This fundamental understanding of WNS and the fungus that causes it 
has facilitated the USGS' ability to shift the focus of research from 
disease and pathogen characterization to disease management, in 
accordance with the goals identified in the National Plan. Some of the 
objectives defined below (e.g., enhanced disease surveillance) are 
sufficiently developed for immediate implementation, while others 
(e.g., vaccination of bats or implementation of a bio-control-based 
disease management) will require further development and longer-term 
investment. Ongoing and proposed management-based WNS research efforts 
at the USGS will:
  --Enhance disease surveillance to more precisely define where the 
        fungus Pd occurs and monitor the efficacy of proposed 
        management actions.
  --Investigate the role that environmental conditions play in the 
        outbreaks of WNS to provide information to managers to 
        manipulate the environment as a strategy to manage the disease.
  --Define the host (bat) response to infection by Pd and what causes 
        the manifestation of the disease to support the development of 
        a vaccine.
  --Develop and disseminate an edible vaccine to protect bats against 
        infection by Pd.
  --Define a host (bat) response to fungal infection to support bio-
        control-based suppression of WNS by manipulation of microbial 
        populations naturally found on bat skin (micro-biomes).
  --Characterize soil microbial communities that suppress Pd in 
        underground bat hibernation sites to support a bio-control-
        based strategy to reduce pathogenic environmental reservoirs of 
        the fungus.
  --Develop a coordinated bat population monitoring database (NABat) to 
        support regional and range-wide inferences about trends in 
        distributions and abundances of bat populations in North 
        America facing mortality from stressors such as white-nose 
        syndrome and wind energy.
  --Develop an online national wildlife mortality event reporting 
        system that will facilitate the sharing of disease event 
        information, such as outbreak onset and ending date, location, 
        species involved, numbers involved, diagnoses, laboratory, and 
        contact names.
    Question. Does the research partnership between multiple Federal 
agencies and State agencies provide the best platform to solving this 
issue of white-nose syndrome? Are we seeing signs of improvement or 
should there be a more aggressive approach to solving this issue?
    Answer. White-nose syndrome is still a significant problem and the 
continued spread of the disease is anticipated to threaten hibernating 
bat species throughout North America. The National Plan for assisting 
States, Federal agencies and tribes in managing WNS in bats was 
formally accepted in May 2011 and serves as the framework for the 
coordination of agency and partner efforts to respond to WNS. The 
multi-agency response to WNS has been greatly enhanced by operating 
collectively under the National Plan by providing a governance 
structure and mechanism for collaboration to ensure agency actions are 
coordinated, meeting the priority needs, and are not duplicative. A 
sister Canadian plan, adapted from the U.S. National Plan, has also 
facilitated research and response activities with many agency and 
academic partners in Canada. The National Plan identifies seven 
elements that are critical to the investigation and management of the 
disease and describes the goals, objectives, and action items of the 
working groups established to handle each element. Collectively, the 
objectives and actions identified in the base plan address the greatest 
needs and knowledge gaps that must be covered in order to manage the 
disease. The objectives also reflect a scientific approach that is 
solidly based in research, which is necessary when facing the many 
questions inherent in the response to the outbreak of an emerging 
disease.
    The response to WNS has been significantly enhanced by the 
partnerships and collaborations that have developed to combat this 
novel disease, and the participation of State and Federal agencies has 
been integral to the efforts. The progress that has been made since the 
discovery of the disease in 2007 is considerable, and is virtually 
unprecedented in a wildlife disease response of this nature. WNS has 
brought Federal and State agency researchers and managers together with 
academics and non-government researchers across multiple disciplines 
and multiple countries. State agencies are largely responsible for 
monitoring populations of susceptible bat species, most of which are 
State trust species, and for managing the disease at the local level. 
State agencies also provide critical support for research projects 
conducted by Federal and non-government researchers. Federal agencies 
fund and conduct research, facilitate cross-border collaboration, and 
promote consistent approaches among States and on Federal lands. 
Additionally, the ability of the Fish and Wildlife Service to make 
funds available to State and Federal agencies, as well as academic and 
other private researchers, has also helped to promote collaboration, 
maintain critical State activities, and further the research 
achievements.
    WNS has continued to spread, and observations this past winter 
suggest that impacts to bats may be just as severe in the Southeast and 
Midwest as they have been in the Northeast and eastern Canada. There is 
cause for hope, however, in that there is evidence of small numbers of 
little brown bats persisting in the affected area and the USGS is 
studying these populations to learn how and why they are surviving. The 
advancements to our understanding of disease mechanics and 
transmission, along with promising research into possible treatment 
options, are also cause for hope that the USGS will be able to develop 
new tools to manage the disease. These advancements have allowed 
researchers to shift their focus from basic science to management and 
conservation efforts. These efforts will continue to require attention 
and resources from all agencies and partners engaged in the 
international response, and will continue to be guided by the National 
Plan.
    The progress and successful collaborations fostered by the national 
response to WNS support the use of the WNS National Plan as a model for 
future wildlife disease response by formalizing this collaborative 
arrangement into a robust infrastructure to address emerging wildlife 
diseases. The USGS is working with partners to create a National Fish 
and Wildlife Health Network designed to build a collaborative, 
operational framework by which Government agencies, tribes, 
universities and professional conservation organizations will cooperate 
to assist tribal, State and Federal agencies in their responsibilities 
to manage wildlife diseases, and wildlife-associated pathogens. The 
mission of the Network will be achieved through collaborative 
partnerships and the collective, voluntary adoption of protocols and 
actions to address fish and wildlife health issues, such as has been 
seen with the response to WNS. As currently planned, a Coordinating 
Committee will oversee and coordinate implementation of the Network. 
The Network will consist of agencies and organizations with the 
technical expertise to implement the guidelines and plans. The primary 
stakeholders are the tribal, State, and Federal government agencies 
responsible for managing the health of free ranging fish, wildlife, and 
marine animal populations. Specific areas of focus for the Network will 
include: (1) wildlife diagnostic laboratory protocols; (2) disease 
information management and dissemination; (3) coordinated disease 
surveillance; (4) interagency communication and response plans; and (5) 
species specific health issues. The Network will endeavor to address 
deficiencies in fish and wildlife disease monitoring and prevention 
programs where they exist, and facilitate the work of existing systems. 
The creation of this Network will be an important step in addressing 
this critical need.
    In addition to interagency collaboration, the USGS has been working 
with non-governmental organizations in support of the Network, 
including the Marine Mammal Commission, the Wildlife Society, the 
American Fisheries Society, and the Association of Fish and Wildlife 
Agencies. Activities include hosting a successful subject matter expert 
workshop, developing a concept paper, and drafting a coordinating 
committee charter.
    The National Park Service (NPS) has detected the fungus in 10 park 
units. The NPS restricts access to caves serving as bat hibernacula or 
maternity roosts and restricts cave access to visitors which have been 
screened and hold permits or tour tickets. Show caves such as Mammoth 
Cave National Park remain open with screening and decontamination 
procedures in place. The NPS only approves requests for scientific or 
educational permits when benefits outweigh the risk.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
    Question. Secretary Jewell, when you came before this Committee on 
May 7, 2013, we discussed at length the CityArchRiver project in St. 
Louis. As you and Director Jarvis have both stated, public-private 
partnerships will be a part of the new vision for Park Service 
operations. I wanted to review the topics you addressed in the hearing 
last year. If you can please provide the subcommittee with a written 
response to these items I would appreciate it.
    You stated that:
  --You would visit the Arch soon. I appreciate that you and Secretary 
        Foxx visited on August 2, 2013 for the highway groundbreaking 
        allowing time to meet with local elected officials, Civic 
        Progress, and Regional Business Council leaders and to tour the 
        ground.
  --You would look into the pending agreement between the National Park 
        Service and Bi State Development Agency, the long-term 
        agreement having expired in December 2012. I am appreciative of 
        your personal attention. The new agreement was signed finally 9 
        months after in January 2014. However I have concerns the delay 
        has cost the project time and money.
  --You would appoint one point person with whom the local partners can 
        talk and help get decisions made. You stated that Peggy O'Dell, 
        the Deputy Director was such a point person. Peggy O'Dell has 
        been helpful and I know she is in charge of operations at the 
        Park Service headquarters. However it is my understanding Ms. 
        O'Dell is not the person who regularly interacts with the 
        project partners, such as the Missouri Department of 
        Transportation (MoDOT), Great Rivers Greenway or CityArchRiver. 
        The partners need a facilitator who can provide consistent and 
        transparent communication. The facilitator should meet in 
        person with key partners to work through open issues, ensuring 
        that decisions are timely. Project partners have brought an 
        enormous amount of resources to the table. When the Park 
        Service is inconsistent or not transparent in communicating and 
        resolving schedule and policy issues, there are consequences, 
        including financial impacts.
  --You were willing to look at public private partnerships ``in a 
        different way'' and to understand partnerships only work in a 
        collaborative way. I again want to stress that while I 
        appreciate that the Park Service is in agreement with this 
        goal, words must be put into action. Schedule delays because of 
        slow legal reviews or document processing cost the project 
        considerably. Current proposed schedule changes will already 
        impact the schedule with a delay of 2 months to 1 year. I have 
        been informed that extra costs resulting from these schedule 
        delays could total approximately $8.7 million. In the joint 
        report language accompanying the 2014 Omnibus Appropriations 
        bill, the Committee included language encouraging the use of 
        public-private partnerships. I will repeat it and ask that you 
        include in your responses to these questions the Park Service's 
        plans to meet this charge:

          The Committees encourage the use of public-private 
        partnerships as an important tool in the successful operation 
        of land management agencies. These partnerships, which leverage 
        Federal dollars with State, local, nonprofit and philanthropy 
        entities, have proven effective at achieving partner and 
        Service goals and objectives. The Committees urge the 
        Department and Service to reassess recent policy 
        interpretations and review procedures to facilitate 
        partnerships that have historically proven beneficial to 
        national parks and partners.

    Answer. The National Park Service is extremely pleased to have 
successfully executed a new agreement with the Bi-State Development 
Agency. This 50-year partnership serves as one of the best partnership 
models in the Service and we look forward to a continued relationship. 
The delay in construction start, along with the associated financial 
impact, is not a result of the delay in the execution of the Bi-State 
Development Agency agreement. The project team, including 
representatives of all key partners and the National Park Service (NPS) 
project management and technical team, meet daily to work through 
design, schedule, and funding issues. The NPS team strives to 
communicate the legal and policy requirements of the project, and to 
explore all opportunities to expedite and benefit the project. We 
continue to work closely with the Foundation to help them develop an 
approach to fulfill their commitment to fund increased operation and 
maintenance (O&M) costs resulting from implementation of the proposed 
project. The Foundation-managed design process is also approaching 
completion. Once the Supplemental O&M Agreement with the Foundation is 
executed, completed designs are delivered, and construction funding is 
in place, we will be able to move forward into long anticipated 
construction phase. The Great Rivers Greenway-funded landscape 
construction is anticipated to begin soon, with the Foundation-funded 
Arch Visitor Center/Museum project following.
    Question. I understand that the Department of the Interior, through 
the U.S. Fish and Wildlife Service, along with other Federal agencies 
and the State of Missouri, is engaged in discussions with The Doe Run 
Company concerning their legacy liabilities in Southeast Missouri. I 
had a meeting with your Deputy, Michael Connor, on this topic before he 
was confirmed. Mr. Connor also assured me he would inform you of the 
issue, which I have been told he has. As I hope you will appreciate, 
Doe Run is vital to the regional economy of Southeast Missouri, and the 
continued viability of the company is a matter of keen interest and 
importance to me.
    Are you aware of the ongoing discussions involving your Department?
    Answer. Yes, I am aware of the discussions.
    Question. I would also like to ask for your personal assurance that 
you will pay close attention to this matter, and that you will make 
sure that Doe Run receives fair treatment, consistent with the 
importance of this company to the long-term economic interests of 
Southeast Missouri.
    Answer. The importance of Doe Run to Southeast Missouri is well 
understood by the Department, as it has been in operation for over 150 
years. Close attention is being paid to the Doe Run situation. Senator 
Blunt's concerns have been heard and Doe Run will receive fair 
treatment.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. You were recently quoted as saying that you anticipate 
releasing your new regulations for fracking on public land ``sometime 
in 2014.'' As you know, I have had serious concerns about new Federal 
regulations of hydraulic fracturing on Bureau of Land Management (BLM) 
lands, which is why I introduced the Empower States Act, allowing 
States and tribes the ability to regulate hydraulic fracturing on 
Federal lands, like BLM land.
    Our tribes still have concerns about the proposed regulation. On 
March 18, 2014, the Three Affiliated Tribes on the Fort Berthold 
Reservation participated in a consultation with the BLM and the Bureau 
of Indian Affairs (BIA) on the proposed rule for Hydraulic Fracturing 
on Federal and Indian Lands. Following the consultation, the Three 
Affiliated Tribes sent you a letter expressing their concern that your 
Department is not seriously considering the tribal impacts of the 
proposed rule.
    How does your Department plan to work with the tribes to develop a 
rule that affirms tribal self-determination and authority and to comply 
with the Department's tribal consultation policy?
    Answer. The goal of the hydraulic fracture (HF) rule is to ensure a 
consistent, minimum baseline standard for operations across all public 
and tribal lands that are available for oil and gas development, and 
aims to streamline and minimize the efforts required to comply with any 
new requirements, while also protecting Federal and tribal interests 
and resources. The BLM has revised the proposed rule to reduce some of 
the information requirements and avoid duplication with the 
requirements of States (on Federal land) and tribes (on tribal land). 
The BLM has included various options in the revised proposed HF rule to 
encourage streamlining, flexibility, and more efficient operation on 
both public and tribal lands. The BLM is committed to working closely 
with tribes to address any concerns on the impacts of the revised 
proposed rule for hydraulic fracturing. The BLM has been actively 
engaged in tribal consultations from the onset of this rulemaking 
effort.
    Question. North Dakota and other States regulate hydraulic 
fracturing on State, Federal, and private lands. Why do you believe we 
need the Federal Government to add additional regulations when the 
States regulate this area and FracFocus discloses the chemicals?
    Answer. The BLM has an important role to play in ensuring the safe 
and effective use of hydraulic fracturing techniques on Federal and 
tribal lands. The current rules covering these operations are 30 years 
old. The goal of the rulemaking is to ensure a minimum baseline 
standard for operations across Federal lands and for Indian trust 
minerals, including in States and on Indian reservations that are not 
regulating hydraulic fracturing. The BLM intends to continue to work 
with the State and tribal regulatory agencies to avoid duplication of 
requirements from certain States (on Federal land) and tribes (on 
tribal land), while also protecting Federal and tribal interests and 
resources. The revised proposed rule also adds a provision allowing the 
BLM to approve a variance that would apply to all lands within the 
boundaries of a State, a tribe, or described as field-wide or basin-
wide, that is commensurate with the State or tribal regulatory scheme. 
The BLM must determine that the variance would meet or exceed the 
effectiveness of the revised proposed rule. States and tribes would be 
invited to work with the BLM to craft variances that would allow 
technologies, processes, or standards required or allowed by the State 
or tribe to be accepted as compliance with the rule. Such variances 
would allow the BLM and tribes to improve efficiency and reduce costs 
for operators and for the agencies.
    Question. The President's budget provides for $310 million for 
Public Safety and Justice, which funds law enforcement activities on 
approximately 56 million acres of Indian country in 35 States. Programs 
under this activity include investigative, police, and detention 
services; tribal courts; fire protection; and facilities maintenance.
    In North Dakota, we've had significant population growth in the 
Bakken, which includes the Fort Berthold Reservation, and the BIA 
recently assumed the child social services on the Spirit Lake 
Reservation.
    I need to know if you believe this money will help reduce crime on 
the reservations and help ensure children on the Reservation are safe.
    Answer. The 2015 budget includes a comprehensive and integrated 
approach to address the interrelated problems of poverty, violence, and 
substance abuse faced by Indian communities. In addition to continuing 
the robust funding support for public safety programs, the 2015 budget 
incorporates an increase of $11.6 million for social services and job 
training programs as part of the Tiwahe Initiative. As a longer term 
effort to address conditions that contribute to crime in Indian 
communities, the Tiwahe Initiative will support culturally appropriate 
services with the goal of empowering individuals and families through 
health promotion, family stability, and strengthening tribal 
communities as a whole.
    Beyond funding, the BIA Office of Justice Services constantly looks 
for ways to improve program effectiveness with other tools and 
resources. For example, the lessons learned from a successful pilot 
program to reduce violent crime at four reservations were published in 
a handbook in June 2012. This compendium of best practices serves as a 
valuable resource to guide law enforcement entities operating 
throughout Indian country. It includes strategies that proved effective 
and those that didn't. The information it offers ranges from general 
approaches to communities policing to detailed instruction on specific 
crime reduction plans.
    The BIA fully utilizes all resources at its disposal to help reduce 
crime and ensure children are safe in Indian communities across North 
Dakota, as well as throughout the Nation.
    Question. As you are aware, North Dakota's BLM Field Office in 
Dickinson has been facing a backlog of permit applications for drilling 
on Federal lands. I am pleased that my bill to create the Montana/
Dakotas State Office became law last December. The BLM has also used 
innovative approaches to help tackle the workload--bringing in strike 
teams to the Miles City district headquarters, using teleworkers, and 
securing land for employee housing.
    In one notable example, the BLM has worked with the North Dakota 
(ND) Petroleum Council to facilitate extra funds from the oil industry 
to help pay salaries and benefits for five additional employees to 
process permits in the Bakken region. The agreement has important 
protections against favoritism, so no company receives expedited 
treatment. I commend BLM for finding creative solutions and fostering 
collaboration.
    In this time when additional Federal funding is limited, do you 
think that this model can be replicated to other areas and States 
across the country? Are there any other steps that can be taken to 
increase partnerships with other agencies--like the U.S. Forest Service 
and BIA--as well as industry stakeholders?
    Answer. The BLM remains committed to expediting the processing of 
applications for drilling permits nationwide and advancing the 
responsible development of oil and gas resources on public land. As 
part of this commitment, the BLM is expanding remote processing so 
additional staff are able to assist in reviewing permits, and 
establishing one-stop shops where resources are consolidated to further 
accelerate permit review. The BLM is conducting outreach to industry to 
reduce instances of incomplete permitting packages, thereby reducing 
labor costs and processing times. BLM has signed agreements with oil 
and gas associations that allow industry to provide supplemental 
financial support for agency permitting activities under certain 
circumstances; however, BLM would prefer to fund these activities 
through more traditional means (e.g., standardized user fees and/or 
discretionary appropriations) to avoid the potential for conflicts of 
interest. It should be noted that the President's 2015 budget request 
includes a more than 20 percent funding increase to strengthen the 
BLM's Oil and Gas Management program and supports continued 
implementation of leasing reforms, enhanced oversight, and a 
strengthened inspections process.
    Question. Another issue I am concerned about is the impacts of the 
proposed grazing administrative fee of $1 per animal unit month will 
have on our ranchers. How has the administration taken into account the 
impacts this new fee would have on ranchers?
    Answer. After analyzing several different fee proposals, including 
(1) a flat fee of $500/permit, (2) a graduated fee schedule based on 
labor spent by category, (3) a graduated fee schedule based on animal 
unit months (AUMs) billed by category, and (4) a fee based on AUMs 
billed, the BLM determined that No. 4, an administrative fee charged on 
the basis of actual grazing use, or animal unit months (AUMs), is the 
most equitable and fair for permittees. The impacts to ranchers would 
vary depending on their size, i.e. a rancher with 500 AUMs billed would 
have a $500 bill. This may not reflect the actual cost of doing the 
work; i.e. the cost to process a permit for a 100 AUM permit may be the 
same as a 5,000 AUM permit. The BLM will analyze potential impacts from 
the permit administration fee proposed in the President's fiscal year 
2015 budget request during the 3-year pilot period.
    Question. Grazing provides numerous environmental benefits such as 
managing vegetation. How have you taken into consideration the effects 
that could take place if fewer ranchers pay to graze in BLM lands due 
to increased cost?
    Answer. As a tool for improving the BLM's administration of grazing 
permits and use, the proposed fee would help the agency manage 
livestock grazing in a manner which achieves and maintains the health 
of public lands. The BLM will analyze potential effects from the permit 
administration fee proposed in the President's fiscal year 2015 budget 
request during the 3-year pilot period.
                                 ______
                                 
              Questions Submitted by Senator Mike Johanns
    Question. Last year I wrote to the Department of the Interior (DOI) 
about a draft environmental impact statement (EIS) for the Proposed 
Niobrara Confluence and Ponca Bluffs Conservation Areas, first asking 
that the comment period be extended, and later asking follow-up 
questions and expressing strong concerns I was hearing from Nebraskans. 
My office continues to hear of strong concern from constituents in that 
region.
    What are the next steps on this project, and when will they occur?
    We have been told that the U.S. Fish and Wildlife Service (FWS) and 
the National Park Service (NPS) will complete a final EIS for the 
project sometime this summer--perhaps early this summer. Is that a 
correct understanding?
    After the submission of that final EIS, can we expect an open 
comment period and public meetings in Nebraska?
    Answer. The FWS and the NPS core planning team involved in 
developing the Draft Environmental Impact Statement (EIS) and Land 
Protection Plan--Niobrara Confluence and Ponca Bluffs Conservation 
Areas--met in Yankton, South Dakota in February 2014 to review the 
extensive public comments received, develop responses, and discuss a 
proposed course of action. Due to overwhelming interest, the original 
comment period had been extended to a full 6 months.
    The planning team is continuing to look at the best way to complete 
the final EIS, taking into consideration the desire for additional 
public input. In early summer, a full briefing package will be sent to 
each member of the Nebraska and South Dakota congressional delegations 
to answer remaining questions on the overall status of the project and 
when the planning process is expected to be finalized. The current goal 
is to finalize the Land Protection Plan and complete a Record of 
Decision in summer of 2014.
    Question. For the current fiscal year or in the fiscal year covered 
by the fiscal year 2015 budget request, do you have any plans to make 
any designations under the Antiquities Act, or to consult or otherwise 
cooperate with the Executive Office of the President to identify 
properties for designation under the Antiquities Act?
    Answer. As I stated at the hearing, the Antiquities Act, as 
provided by Congress, has been used by Presidents of both parties for 
more than 100 years as an instrument to preserve and protect critical 
natural, historical, and scientific resources on Federal lands for 
future generations. As Secretary of the Interior, I do not have the 
authority to designate monuments under the Antiquities Act; that 
authority is vested in the President. I support the administration's 
interest in conducting an open, public process that considers input 
from local, State, and national stakeholders before any sites are 
considered for designation as national monuments through the 
Antiquities Act.
    Question. For fiscal year 2015, please explain the extent to which 
DOI budget resources will be used to help make or manage any 
forthcoming designations under the Antiquities Act and where these 
designations will be located.
    Answer. There are no specific funds set aside in the fiscal year 
2015 budget for unplanned yet possible new designations under the 
Antiquities Act. If necessary, the Department could rearrange 2015 
funding priorities to accommodate the costs associated with making or 
managing an unforeseen designation, as such costs would be very modest 
in the first year.
    Question. Are any Antiquities Act designations planned for either 
the State of Nebraska or in lands or waters contiguous to the State in 
the current fiscal year or in fiscal year 2015?
    Answer. I am not aware of any such planned Antiquities Act 
designations.
    Question. Is there any legal bar to DOI preparing statements of 
environmental impacts consistent with principles found in the National 
Environmental Policy Act for designations made by the President under 
authority granted to him in the Antiquities Act?
    Answer. As stated above, the administration supports conducting an 
open, public process that considers input from local, State, and 
national stakeholders before any sites are considered for designation 
as national monuments through the Antiquities Act. While land 
management agencies typically use the National Environmental Policy Act 
(NEPA) process in their development of management plans for new 
national monuments, I understand that NEPA does not apply to these 
discretionary decisions by the President because the President is not 
an agency.

                          SUBCOMMITTEE RECESS

    Senator Reed. And with that, the hearing is adjourned.
    [Whereupon, at 10:59 a.m., Wednesday, March 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
